<html>
<title> - STRENGTHENING UNDERGRADUATE AND GRADUATE STEM EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        STRENGTHENING UNDERGRADUATE AND GRADUATE STEM EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2010

                               __________

                           Serial No. 111-76

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
54-618                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           BESS CAUGHRAN Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member


                            C O N T E N T S

                            February 4, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

                               Witnesses:

Dr. Joan Ferrini-Mundy, Acting Assistant Director, Directorate 
  for Education and Human Resources, National Science Foundation
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    25

Mr. Rick Stephens, Senior Vice President, Human Resources and 
  Administration, The Boeing Company
    Oral Statement...............................................    25
    Written Statement............................................    28
    Biography....................................................    32

Dr. Noah Finkelstein, Associate Professor of Physics, University 
  of Colorado, Boulder
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    42

Dr. Karen Klomparens, Dean and Associate Provost for Graduate 
  Education, Michigan State University
    Oral Statement...............................................    43
    Written Statement............................................    44
    Biography....................................................    52

Dr. Robert Mathieu, Professor and Chair of Astronomy and Director 
  of the Center for the Integration of Research, Teaching and 
  Learning (CIRTL), University of Wisconsin, Madison
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    66


        STRENGTHENING UNDERGRADUATE AND GRADUATE STEM EDUCATION

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2010

                  House of Representatives,
     Subcommittee on Research and Science Education
                        Committee on Science and Technology
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:37 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                  SUBCOMMITTEE ON RESEARCH AND SCIENCE

                               EDUCATION

                Strengthening Undergraduate and Graduate

                             STEM Education

                       thursday, february 4, 2010
                         10:30 a.m.-12:30 p.m.
                   2318 rayburn house office building

1. Purpose

    THE PURPOSE OF this hearing is to receive testimony regarding the 
current state of undergraduate and graduate education in the science, 
technology, engineering and mathematics (STEM) fields, and to examine 
ways to improve the quality and effectiveness of STEM education at 
colleges and universities so that students will be better prepared with 
the skills needed to join the 21st century workforce. In particular, in 
preparation for reauthorization of the America COMPETES Act, we will be 
examining the role of the National Science Foundation in supporting 
reform in undergraduate and graduate STEM education.

2. Witnesses

<bullet>  Dr. Joan Ferrini-Mundy, Acting Assistant Director, 
Directorate for Education and Human Resources, National Science 
Foundation

<bullet>  Mr. Rick Stephens, Senior Vice President, Human Resources and 
Administration, The Boeing Company

<bullet>  Dr. Noah Finkelstein, Associate Professor of Physics, 
University of Colorado, Boulder

<bullet>  Dr. Karen Klomparens, Dean and Associate Provost for Graduate 
Education, Michigan State University

<bullet>  Dr. Robert Mathieu, Professor and Chair of Astronomy and 
Director of the Center for the Integration of Research, Teaching and 
Learning (CIRTL), University of Wisconsin, Madison.

3. Overarching Questions:

<bullet>  What are the defining characteristics of a high-quality 
undergraduate and graduate STEM education? What are the fundamental 
skills and STEM content knowledge that a student should have when 
entering college? What skills should they be developing during their 
undergraduate studies in STEM? During their graduate studies?

<bullet>  What does current research tell us about key characteristics 
of environments, both inside and outside the classroom, that enable 
students to develop those skills and succeed in STEM fields? What 
innovative approaches and programs, at both the undergraduate and 
graduate level, have been shown to improve student retention and 
success in STEM fields? Is the level of investment in education 
research at the undergraduate and graduate level sufficient?

<bullet>  What are the barriers to implementing reform in STEM 
education at the undergraduate and graduate level? What kind of 
pedagogical training is typically provided to incoming and current STEM 
faculty members? What kind of training should be provided to ensure 
effective teaching based on current education research? What are the 
barriers to implementing such training? Are there other cultural and 
institutional barriers that hinder improved STEM teaching at 
undergraduate and graduate schools?

<bullet>  Do current methods of instruction and curriculum content 
prepare students for success outside of academia? What types of skills 
does a STEM graduate need to be successful in industry? How can 
broadening the skill sets of students be improved to ensure that 
students are prepared to join the workforce?

<bullet>  What is the role of the Federal Agencies, specifically NSF, 
in improving STEM education at the undergraduate and graduate level? Is 
there a need to modify existing NSF programs?

4. Summary

    According to the 2005 National Academies report, Rising Above the 
Gathering Storm, ``Our competitive advantage, our success in global 
markets, our economic growth, and our standard of living all depend on 
maintaining a leading position in science, technology, and innovation. 
As that lead shrinks, we risk losing the advantages on which our 
economy depends.''
    The Science and Technology Committee developed the America COMPETES 
Act in 2007 in an effort to address the challenges that the United 
States faces with regard to maintaining our competitiveness in a global 
economy. One such challenge is providing high-quality science, 
technology, engineering and mathematics (STEM) education to all 
Americans and at all levels from pre-K through graduate school. Most of 
our efforts in 2007 were focused at the K-12 level, and in particular 
ensuring that we have highly-qualified STEM teachers in all schools 
across the country. As we develop legislation to reauthorize the 
America COMPETES Act in 2010, we are examining opportunities to support 
meaningful reform in STEM education at our Nation's institutions of 
higher education.
    There are a variety of factors that affect the quality of higher 
education in the STEM fields and contribute to recruitment and 
retention problems at the undergraduate and graduate level. Many 
students continue to have a less than adequate K-12 education, and are 
not sufficiently prepared for the rigors associated with postsecondary 
education. In some STEM fields, students who initially decide to pursue 
baccalaureate degrees leave the field at high rates to enter other 
disciplines. At the graduate level, students who drop out of their 
programs of study often fail to complete advanced degrees altogether, 
or may stop at a Masters degree when their original intent was to 
pursue a Ph.D. Although the total number of students who choose to 
enter STEM disciplines at the postsecondary level continues to 
increase, many experts have argued that the numbers will be 
insufficient to meet future workforce needs. Moreover, many industry 
representatives have testified before this Committee that even students 
who successfully attain STEM undergraduate or graduate degrees are too 
often ill prepared for careers outside of academia. The witnesses in 
today's hearing will discuss innovative approaches to addressing the 
quality of education and training in the STEM fields at both the 
undergraduate and graduate level, as well as the role of the National 
Science Foundation in supporting these efforts.

5. Undergraduate and Graduate Enrollment and Degrees

    According to the National Science Board's (NSB) biennial report, 
Science and Engineering Indicators 2010,\1\ the number of bachelor's 
degrees awarded in the science and engineering fields by U.S. colleges 
and universities has risen steadily over the past 15 years, and these 
trends are expected to continue at least through 2017. Even so, the 
trends vary widely among fields. For example, the number of bachelor's 
degrees earned in computer science has dropped significantly in recent 
years. Similarly, the number of master's degrees awarded in the United 
States increased steadily until dropping slightly in 2007. Master's 
degrees in engineering and computer sciences have been declining since 
2004. The trend for doctoral degrees is more variable, with a decline 
in the late 1990s through early 2000s and subsequent rise to almost 
41,000 in 2007. The largest growth in doctoral degrees occurred in the 
engineering, biological/agricultural sciences, and medical/other life 
sciences (due to the doubling of the NIH budget), but computer sciences 
also saw gains.
---------------------------------------------------------------------------
    \1\ All data from this section, unless indicated otherwise, is from 
the 2008 and 2010 Science and Engineering Indicators: http://
www.nsf.gov/statistics/seind10/, http://www.nsf.gov/statistics/
seind08/.
---------------------------------------------------------------------------
    Overall, science and engineering students persist and complete 
undergraduate programs at about the same rate (60 percent) as non-
science and engineering students. However, according to the 2005 Survey 
of the American Freshman,\2\ the longest running survey of student 
attitudes and plans for college, half of all students who begin in the 
physical or biological sciences and 60 percent of those in mathematics 
will drop out of these fields by their senior year, compared with the 
30 percent drop out rate in the humanities and social sciences. 
Furthermore, undergraduate STEM students are educated in diverse 
institutions, and attrition rates out of STEM fields vary not just by 
field but by type of institution and by student background.
---------------------------------------------------------------------------
    \2\ Higher Education Research Institute (HERI), University of 
California at Los Angeles, http://www.heri.ucla.edu/.
---------------------------------------------------------------------------
    Graduate completion rates are roughly comparable to undergraduate 
completion rates. Among students enrolled in doctoral programs in the 
early 1990s, about 60 percent completed doctorates within 10 years. 
Again, completion rates vary by discipline, with 64 percent of 
engineering students, 62 percent of life sciences students, and five 
percent of physical and social sciences students completing doctorates 
within 10 years.\3\ Currently, 70 percent of the science and 
engineering Ph.D.'s granted in the United States come from only 96 
research universities. This suggests that targeted reform efforts at a 
relatively small number of institutions can have a significant impact 
on the graduate attrition problem.
---------------------------------------------------------------------------
    \3\ Council of Graduate Schools Report 2008 Ph.D. Completion and 
Attrition: Analysis of Baseline Demographic Data from the Ph.D. 
Completion Project http://www.phdcompletion.org/information/book2.asp.
---------------------------------------------------------------------------
    Even with the overall increases in STEM undergraduate and graduate 
enrollment, many suggest that the number of students entering these 
disciplines will eventually plateau and fall short of meeting workforce 
demands. If this projected demand materializes, simply addressing 
attrition in higher education will not be sufficient to meet workforce 
needs. Science and engineering degrees will have to be made more 
attractive to a larger percentage of the population. Reform efforts 
that address the quality of STEM education at all levels of higher 
education will help institutions achieve this goal.

6. Transforming the STEM Classroom

    Several studies have attempted to identify the issues that 
contribute to loss of interest in the STEM fields at the undergraduate 
and graduate levels. Studies performed to determine the causes of 
attrition find that students leave the field due to reasons such as a 
loss of interest in the subject matter, other disciplines offering 
better educational experiences, or feeling overwhelmed with course 
content. Students who leave STEM disciplines often enter disciplines 
(some of which are also STEM) that are perceived to be more nurturing 
and supportive, less competitive, and that have more opportunities for 
collaborative work.\4\
---------------------------------------------------------------------------
    \4\ Seymour, Elaine, and Hewitt Nancy. Talking About Leaving: Why 
Undergraduates Leave the Sciences. Westview Press, 1997.
---------------------------------------------------------------------------
    In addition to these problems with courses for STEM majors, many 
introductory courses for non-majors fail to foster scientific 
understanding among the non-science majors. Without a broader context, 
many students never understand the process of science or the content of 
the subject matter. According to research in the Journal of College 
Science Teaching, this narrow approach to STEM courses alienates non-
majors who graduate with the perception that science is difficult, 
boring, and irrelevant to their everyday interests.
    Research suggests that students' concerns can be addressed in the 
undergraduate and graduate STEM classroom through implementation of new 
teaching methods and curricula, and through hands-on learning 
opportunities. According to The National Academies' Center for 
Education report How People Learn,\5\ transformative learning 
environments shift teaching methodologies to incorporate current 
pedagogy on the ways that students actually learn the STEM disciplines. 
Instructors who are acutely attuned to the learner, and can create 
environments that are learner, knowledge, assessment, and community 
centered, are the most effective at enhancing student learning. 
Education researchers have found that a variety of reform efforts, 
including changes in curriculum and pedagogy, may result in lower 
attrition than traditional approaches to teaching undergraduate STEM.
---------------------------------------------------------------------------
    \5\ Editors; Bransford, John, D., Brown, Ann, L., and Cocking, 
Rodney, R. How People Learn. National Academy Press; Committee On 
Developments in the Science of Learning; Committee On Behavioral and 
Social Science Education and the National Research Council, 1999.
---------------------------------------------------------------------------
    Not surprisingly, changes in how current and future faculty are 
trained have been central to many reform efforts at institutions across 
the country. According to the Rising Above the Gathering Storm report, 
``the graduate education of our scientists and engineers largely 
follows an apprenticeship model. Graduate students and postdoctoral 
scholars gain direct experience under the guidance of veteran 
researchers.'' Although the apprenticeship model has proven to be 
useful in training future scientists, many have argued that it cannot 
be used to effectively train future faculty how to teach, especially 
when many current faculty members are not trained in current pedagogy. 
Programs to prepare future faculty have been supported by both Federal 
funds and private endowments. Many programs create professional 
development communities to train future STEM faculty. In these 
communities, graduate students apply their research training to 
determine if the information that they are teaching is conveyed 
effectively, create environments that are supportive of one another, 
and bring together diverse groups of students interested in learning 
how to teach. Since poor teaching has been identified as a major 
contribution to attrition in STEM, training all new faculty members in 
current pedagogy can address this issue in a direct manner. Many 
institutions have incorporated professional development opportunities 
for current STEM faculty as well, so they can be kept abreast of 
current education research findings and incorporate new methods of 
teaching and curriculum in their classroom.

7. Research Opportunities, Interdisciplinary Education and Broader 
                    Skills

    Transforming the traditional physics, biology or engineering 
classroom is just one step in addressing the quality of STEM education 
at both the undergraduate and graduate level. At the undergraduate 
level, where students traditionally are not provided many opportunities 
for research, experts have found that research experiences can greatly 
enhance the undergraduate experience for the student. According to many 
experts in undergraduate education, research experiences play an 
important role in providing a context to what the student is taught in 
the classroom, as well as a better understanding of what it means to be 
a scientist or engineer. At the graduate level, since the majority of a 
student's tenure is already spent in research settings, focusing more 
on factors outside of the classroom may be even more critical to 
transforming the educational experience.
    In addition, numerous reports suggest that both undergraduate and 
graduate programs should find more ways to combine disciplinary depth 
with interdisciplinary training and research opportunities. In recent 
years, many experts have begun to view interdisciplinary research as 
critical to U.S. scientific leadership in the 21st century, as many of 
the emerging global problems will increasingly require research that 
cuts across disciplines. Additionally, many experts have argued that by 
broadening the scope of study and research opportunities for students, 
schools might better recruit and retain students with diverse interests 
in STEM.
    Finally, many have argued that in addition to ensuring strong 
content knowledge and research skills, institutions should incorporate 
opportunities to develop the so-called ``soft'' skills of students to 
better prepare them for diverse career paths. Currently, 42 percent of 
individuals who hold doctorates in science and engineering fields work 
in non-academic settings (Science and Engineering Indicators 2010). In 
2005 the National Science Board suggested that graduate students should 
be taught how to ``work in multicultural environments, to understand 
the business context of engineering, and also develop interdisciplinary 
skills, communication skills, leadership skills, an ability to adapt to 
changing conditions, and an eagerness for lifelong learning.'' \6\ Many 
industry leaders have made similar recommendations regarding the 
necessary skill sets of undergraduate STEM students.
---------------------------------------------------------------------------
    \6\ A National Science Board-Sponsored Workshop; Engineering 
Workforce Issues and Engineering Education: What are the Linkages? 
October 20, 2005 http://www.nsf.gov/nsb/committees/archive/
eng<INF>-</INF>edu/2005<INF>-</INF>10<INF>-</INF>20/summary.pdf.

8. Role of the National Science Foundation

    The National Science Foundation Act of 1950 established NSF in 
order to ``promote the progress of science and to advance the national 
health, prosperity, and welfare . . ..'' One of the ways that the 
agency fulfills this mission is by investing in and supporting STEM 
education at all levels. Many of the programs focused on education and 
training at the undergraduate and graduate levels are managed by the 
Education and Human Resources Directorate (EHR). EHR houses both a 
Division of Undergraduate Education (DUE) and a Division of Graduate 
Education (DGE).
    The Division of Undergraduate Education has a program called 
Course, Curriculum and Laboratory Improvement (CCLI), which supports 
diverse efforts to reform undergraduate STEM education. In the FY11 
budget request, NSF proposes to rename this program Transforming 
Undergraduate Education in STEM (TUES). DUE also offers the NSF 
Scholarships in STEM (S-STEM) for talented students who require 
financial assistance to complete their studies and the STEM Talent 
Expansion Program (STEP) that can be used to support students studying 
in emerging STEM disciplines. NSF's Research Experiences for 
Undergraduates (REU) program is a cross-cutting program supported by 
all research directorates and managed by an intra-agency committee.
    The Division of Graduate Education manages the Graduate Research 
Fellowships program (GRF), and the Integrative Graduate Education and 
Research Traineeships Program (IGERT), both of which receive funding 
from across the Foundation. DGE also supports the Graduate STEM Fellows 
in K-12 Education program (GK-12) and the Professional Science Masters 
program (SMP) that received funding for the first time in the Recovery 
Act. According to NSF, GK-12 provides an ``opportunity for graduate 
students to acquire value-added skills, such as communicating STEM 
subjects to technical and non-technical audiences, leadership, team 
building, and teaching while enriching STEM learning and instruction in 
K-12 settings.'' \7\ There is not a specific place within NSF that 
focuses solely on graduate curriculum and transforming graduate 
learning environments.
---------------------------------------------------------------------------
    \7\ http://www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=503369
---------------------------------------------------------------------------
    In addition, some research directorates manage undergraduate 
education programs either independently or in explicit partnership with 
EHR. For example, Interdisciplinary Training for Undergraduates in 
Biological and Mathematical Sciences (UBM) is a partnership between the 
Division of Mathematical Sciences, the Biological Sciences Directorate 
(BIO) and EHR, and the Nanotechnology Undergraduate Education in 
Engineering (NUE), is in the Engineering Directorate's Division of 
Engineering Education and Centers.
    The National Science Foundation is also the primary sponsor of 
research on the teaching and learning of STEM at all levels. At the 
undergraduate level, research is an important component of the 
education programs described previously. Other programs that support 
research in higher education include the Research Coordination Networks 
in Biological Sciences (RCN) and the Engineering directorate's 
Innovations in Engineering Education Curriculum and Infrastructure 
(IEECI) program as well as EHR's Research and Evaluation on Education 
in Science and Engineering (REESE) program.
    Finally, NSF funds a variety of programs designed to increase the 
participation of historically underrepresented groups in the STEM 
fields at the undergraduate and graduate level. Increasing diversity at 
colleges and universities across the country is critical to increasing 
the numbers of students attaining STEM degrees, and has been shown at 
many institutions to improve the quality of STEM education for all 
students at those institutions. The Committee plans to hold a hearing 
in the upcoming months on the topic of diversity in STEM education. 
However, these issues clearly go hand in hand and we expect to hear 
from witnesses in today's hearing about the importance of broadening 
participation in efforts to transform higher education in the STEM 
fields.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Lipinski. This hearing will now come to order. 
Good morning and welcome to this Research and Science Education 
Subcommittee hearing on undergraduate and graduate education in 
the science, technology, engineering and math fields.
    This is an issue that really hits close to home for me. As 
most of you probably know, I have two degrees in engineering. 
My wife also has a degree in math and is oftentimes telling me 
about her experience at a math camp that was NSF funded, a math 
camp, when she was in college. So this is something that from 
personal experience I know a good amount about and something 
that I have really focused on since I have been on this 
Committee.
    Our global competitors have started to realize the economic 
advantages of investing in innovation. In their 2010 Science 
and Engineering Indicators report, the National Science Board 
found that Asian countries are continuing to increase their R&D 
investments at a much higher rate than we are in the United 
States, and that it won't be long before they catch up in total 
expenditures. Last November, Thomson Reuters analyzed 30 years' 
worth of data from over 10,000 scientific journals and reported 
that China could surpass the United States as the world's 
largest producer of scientific knowledge by 2020. They have 
already surpassed the rest of the world, and are especially 
good in chemistry and materials science, two fields that are 
vital for manufacturing.
    In 2007, the Science and Technology Committee passed the 
America COMPETES Act to address concerns that the United States 
was losing its global leadership position in research, 
development and innovation. One key element of the COMPETES 
Act, and indeed the foundation of any competitiveness agenda, 
is ensuring that we give all of our students the chance to get 
a high quality STEM education.
    In 2007, we focused largely on supporting education at the 
K-12 level by making sure we have highly qualified STEM 
teachers in every school. This year's reauthorization of the 
COMPETES Act provides us with the opportunity to take a 
comprehensive look at undergraduate and graduate STEM education 
programs and their performance.
    Given all of the talk about problems in STEM education at 
the K-12 level, you may be surprised to hear that a full one 
third of freshmen entering our Nation's universities intend to 
major in a science or engineering discipline. But in some 
critical fields like engineering, where we face an oncoming 
``gray tsunami'' of retirements, there is significant 
attrition. It is very easy for engineers to leave their 
programs, for instance to become social scientists, but it is 
much more difficult for students to transfer into engineering 
without having spent their freshman year meeting prerequisites 
in math, physics and chemistry. In fact, only seven percent of 
engineering graduates did not start out in those fields.
    In addition to the numbers, there are concerns that the 
traditional way of teaching science and engineering doesn't 
reflect what research tells us about how students really learn.
    I was an engineering student once myself and can relate to 
some of the concerns that we have heard about what is happening 
in the STEM fields at our colleges and universities. I also 
know that some of these problems are not new. When I was at 
Northwestern 20 years ago, I began with many more people in my 
engineering classes than ended up graduating with a mechanical 
engineering degree. We certainly did see an attrition through 
the years.
    I am particularly interested in learning what the 21st 
century undergraduate science and engineering classrooms should 
look like, and whether our professors are actually imparting 
the kind of skills that STEM graduates need to be successful in 
the workforce. At the graduate level, I want to examine how we 
are preparing future faculty to become good teachers, to hear 
suggestions on how we can improve the teaching of pedagogical 
skills and to hear whether we are giving students who pursue 
nonacademic career paths the skills they need to be successful. 
I am also interested in the balance between disciplinary and 
interdisciplinary education at both the undergraduate and 
graduate levels. And finally, because we are working on the NSF 
reauthorization, I am particularly interested in hearing 
recommendations about the role that the NSF can play in 
instigating and supporting reform efforts in higher education, 
including through research.
    Just last week in the State of the Union address, the 
President spoke about the need to encourage American 
innovation. I could not agree more with this. I also agree with 
the President that one of the most effective ways to support 
innovation is to improve and invest in STEM education. This 
investment will allow the scientists, engineers and innovators 
of the future to build the infrastructure we need, to invent 
new technologies and products, to create good-paying jobs and 
to keep the U.S. economy growing.
    So I very much look forward to your testimony today. There 
are ideas that I have from when I was in school as an engineer 
and would very much like to hear what your suggestions are, 
what your experiences are and help us moving forward, 
especially with the Senate authorization.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning and welcome to this Research and Science Education 
Subcommittee bearing on undergraduate and graduate education in the 
science, technology, engineering, and mathematics (or STEM) fields.
    Our global competitors have started to realize the economic 
advantages of investing in innovation. In their 2010 Science and 
Engineering Indicators report, the National Science Board found that 
Asian countries are continuing to increase their R&D investments at a 
much higher rate than we are in the U.S., and that it won't be long 
before they catch up in total expenditures. Last November, Thomson 
Reuters analyzed 30 years worth of data from over 10,000 scientific 
journals, and reported that China could surpass the United States as 
the world's largest producer of scientific knowledge by 2020. They have 
already surpassed the rest of the world, and are especially good in 
chemistry and materials science--two fields that are vital for 
manufacturing.
    In 2007 the Science and Technology Committee passed the America 
COMPETES Act to address concerns that the United States was losing its 
global leadership position in research, development and innovation. One 
key element of the COMPETES Act, and indeed the foundation of any 
competitiveness agenda, is ensuring that we give all of our students 
the chance to get a high quality STEM education. In 2007, we focused 
largely on supporting education at the K-12 level by making sure we 
have highly qualified STEM teachers in every school. This year's 
reauthorization of the COMPETES Act provides us with the opportunity to 
take a comprehensive look at undergraduate and graduate STEM education 
programs and their performance.
    Given all of the talk about problems in STEM education at the K-12 
level, you may be surprised to hear that a full one third of freshmen 
entering our Nation's universities intend to major in a science or 
engineering discipline. But in some critical fields like engineering, 
where we face an oncoming ``gray tsunami'' of retirements, there is 
significant attrition. It's very easy for engineers to leave their 
programs, for instance to become social scientists, but it's much more 
difficult for students to transfer into engineering without having 
spent their freshman year meeting prerequisites in math, physics, and 
chemistry. In fact, only 7% of engineering graduates did not start out 
in those fields. In addition to the numbers, there are concerns that 
the traditional way of teaching science and engineering doesn't reflect 
what research tells us about how students really learn.
    I was an engineering student once myself, and can relate to some of 
the concerns that we have heard about what is happening in the STEM 
fields at our colleges and universities. I also know that some of these 
problems are not new. When I was at Northwestern 20 years ago, I began 
with many more people in my engineering classes than ended up 
graduating with a mechanical engineering degree.
    I am particularly interested in learning what the 215 century 
undergraduate science and engineering classrooms should look like and 
whether our professors are actually imparting the kind of skills that 
STEM graduates need to be successful in the workforce. At the graduate 
level, I want to examine how we are preparing future faculty to become 
good teachers, to hear suggestions on how we can improve the teaching 
of pedagogical skills, and to hear whether we are giving students who 
pursue nonacademic career paths the skills they need to be successful. 
I am also interested in the balance between disciplinary and 
interdisciplinary education at both the undergraduate and graduate 
levels. And finally, because we are working on the NSF reauthorization, 
I am particularly interested in hearing recommendations about the role 
that the NSF can play in instigating and supporting reform efforts in 
higher education, including through research.
    Just last week in the State of the Union address, the President 
spoke about the need to encourage American innovation. I couldn't agree 
more, and I also agree with the President that one of the most 
effective ways to support innovation is to improve and invest in STEM 
education. This investment will allow the scientists, engineers and 
innovators of the future to build the infrastructure we need, to invent 
new technologies and products, to create good-paying jobs, and to keep 
the U.S. economy growing.

    Chairman Lipinski. With that I will now recognize Dr. 
Ehlers for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman. I am pleased that 
today we are focusing on federal efforts to improve STEM 
education and programs in higher education.
    As you probably know, I spent something like 22 years 
trying to do that as a faculty member at Calvin College in 
Grand Rapids, Michigan.
    In the context of reauthorizing the America COMPETES Act, I 
look forward to hearing the insights of our witnesses into what 
we are doing well, which I hope is a great deal, but also 
hearing what has to be improved. And we all know that some 
improvement is needed.
    This week the fiscal year 2011 budget request was released 
by the Administration. Disciplinary research funding at NSF 
appears to be prioritized over educational research and support 
for workforce development. While I am still obtaining all the 
details of the budget, it is unsettling to me that university-
based programs supporting the training of STEM teachers, such 
as the Math and Science Partnership and Noyce programs, 
received no requested funding increases while the Foundation 
would continue on a doubling track with an overall eight 
percent increase. There should be some money, some additional 
money there, to improve the STEM ed situation.
    I am sure the witnesses before us today have some thoughts 
on the linkages between the research and educational missions 
of the NSF, and their testimony I believe will be very helpful 
to us as we evaluate the President's budget request, 
particularly specific to STEM education at NSF, and also we 
hope we will get some ideas on how we can strengthen the 
COMPETES Act through the reauthorization project.
    So I certainly want to thank our excellent witnesses for 
being here, and I look forward to their testimony.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I am pleased that today we are focused on Federal efforts to 
improve STEM programs in higher education. In the context of 
reauthorizing the America COMPETES Act, I look forward to hearing the 
insights of our witnesses into what we are doing well, but also the 
areas in need of improvement.
    This week the fiscal year 2011 budget request was released by the 
administration. Disciplinary research funding at NSF appears to be 
prioritized over educational research and support for workforce 
development. While I am still obtaining the details, it is unsettling 
to me that university-based programs supporting the training of SIEM 
teachers, such as the Math and Science Partnership and Noyce programs, 
received no requested funding increases while the Foundation would 
continue on a doubling track with an overall eight percent increase.
    I am sure the witnesses before us today have some thoughts on the 
linkages between the research and educational mission of the NSF. Their 
testimony will help us evaluate the budget request specific to STEM 
education at NSF at all levels, and ways we can strengthen the COMPETES 
Act through the reauthorization process.

    Chairman Lipinski. Thank you, Dr. Ehlers. We will have more 
of an opportunity in hearings coming up to discuss the budget 
for the upcoming year, but that is certainly an issue that is 
not an easy one, but we know there has been a commitment shown 
to innovation and education. I am very happy that we have done 
that in the last few years.
    If there are members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman and Ranking Member, for holding today's 
hearing. Strengthening Undergraduate and Graduate STEM Education is a 
topic that must be discussed in order to ensure we are taking the right 
steps towards increasing American competitiveness and innovation.
    Many of the hearings that this committee has worked on in the past 
focused specifically on identifying and correcting the problems 
effecting K-12 STEM education. These problems still exist and must be 
addressed while we strengthen our colleges and universities.
    The report, ``Rising Above the Gathering Storm'', along with 
others, showed highlighted that our Nation is as not graduating as many 
STEM professionals as other countries. Members of this committee are 
interested in correcting the reasons we are falling behind.
    Many policymakers, educators, and other professionals worry that 
the ability of the United States to produce enough scientists will fall 
short unless action is taken to develop the potential of under-utilized 
minorities. These professionals argue that a more diverse group of 
students must be recruited to science study and be equipped to thrive. 
They are right!
    The problem is that many minority students are not prepared 
properly for the rigor of STEM disciplines when they enter college. 
Some students who decide to enter these disciplines in college decide 
to drop out due to poor grades, and end up pursuing other degrees. We 
are losing many potential STEM professionals due to a lack of adequate 
K-12 preparation.
    A lack of resources will negatively affect any student. Economic 
inequality, residential segregation, and often inadequate urban schools 
place minority students suffering from these conditions at a 
disadvantage. Those minority students who are more likely to end up in 
schools with fewer or deficient resources are less likely to succeed 
because of societal inequity.
    Studies have also shown that students who are aware of the low 
expectations expected of them are more likely to meet those low 
expectations. Research also shows other negative consequences evident 
are self-confidence, attitudes, and achievement if these students feel 
they are not viewed as a source of talent from the beginning. This fact 
negatively affects too many women and minority students.
    Our country is missing out on far too many future scientists due to 
inequities. I am interested in hearing from today's witnesses on how we 
can address some of these issues.
    Thank you Mr. Chairman, I yield back.

    Chairman Lipinski.At this time, I would like to introduce 
our witnesses. First, we have Dr. Joan Ferrini-Mundy who is the 
Acting Assistant Director for the Directorate for Education and 
Human Resources at the National Science Foundation. Mr. Rick 
Stephens is a Senior Vice President for Human Resources & 
Administration at the Boeing Company and is also the Chair of 
the Aerospace Industries Association Workforce Steering 
Committee. Dr. Noah Finkelstein is an Associate Professor of 
Physics at the University of Colorado, Boulder. And we will 
skip right now to Dr. Robert Mathieu who is Professor and Chair 
of Astronomy as well as Director of the Center for the 
Integration of Research, Technology and Learning at the 
University of Wisconsin, Madison.
    And now I will yield to Ranking Member Dr. Ehlers to 
introduce our witness. That is why we skipped over you briefly. 
So Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. Let me first also 
mention that of the other witnesses I am not introducing, we 
have someone who was at Michigan State University for a number 
of years. I think I feel slightly responsible for having her 
end up there because I gave her the sales pitch about what I 
was trying to do, and she left greener pastures and came to 
MSU. And then when I discovered the opening here at NSF, I 
persuaded her to leave Michigan and come here. She is very 
versatile, and I am pleased to see her on the panel. The main 
introduction that I have to give is Dr. Karen Klomparens. You 
must be Dutch. She has served as the Dean of the Graduate 
School and Associate Provost for Graduate Education at Michigan 
State University since 1997. Now, when you look at her, you 
realize she must have gotten into that position as a young 
genius and has done a great job there. She is a professor of 
plant biology and is on leave as Director of MSU's Center for 
Advanced Microscopy. She has been on faculty at MSU for 32 
years and fully understands the challenges faced by the higher 
educational system in preparing students in STEM education. She 
is not only an advocate for quality graduate education at MSU 
but also for improving the relationships between traditional 
STEM departments and departments of education, and I might just 
editorialize for a minute here. I think that is extremely 
important, and every opportunity I have had to speak to 
university presidents and deans, I have told them the most 
important thing they can do is to get the science departments 
and the education department or education college working 
together on this problem. And I found that many universities 
that I have visited and attended, that there is a major issue 
of disdain between the educators and the scientists. There 
should not be. This is a problem they both have to actively 
work together on.
    She has shared with me some of the work that MSU is doing 
to a new math education doctoral program, and that looks very 
exciting. I think that Arizona State at Tempe, Arizona, has 
something similar, and other universities are beginning that. 
So you have plowed the way, Ms. Klomparens, for other 
universities. I think that is an example of the future of 
graduate education in preparing STEM teachers.
    I thank you for the opportunity to give that background. I 
yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers. As our witnesses 
should know, you will each have five minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When all of you have completed your 
spoken testimony, we will begin with questions. Each member 
will have five minutes to question the panel. We will now start 
with Dr. Ferrini-Mundy. Dr. Ferrini-Mundy?

STATEMENT OF DR. JOAN FERRINI-MUNDY, ACTING ASSISTANT DIRECTOR, 
DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Ferrini-Mundy. Chairman Lipinski, Ranking Member 
Ehlers, and distinguished members of the Subcommittee, I am 
Joan Ferrini-Mundy, Acting Assistant Director of the 
Directorate for Education and Human Resources at the National 
Science Foundation. Thank you for the opportunity to testify 
today about strengthening undergraduate and graduate science, 
mathematics, engineering and technology, or STEM, education.
    The National Science Foundation has two roles in STEM 
higher education. One is to provide direct support to the 
Nation's most promising students. We do this through 
fellowships, traineeships, scholarships and research 
assistantships in several programs across the entire 
Foundation. Our flagship program is the Graduate Research 
Fellowship program, founded at NSF in 1952. At the 
undergraduate level, for example, we have the Robert Noyce 
Teacher Scholarship program which provides prospective teachers 
with support for their education.
    A second NSF role is to catalyze innovation to improve STEM 
learning at the undergraduate and graduate levels. The Course 
Curriculum and Laboratory Improvement program, CCLI, which is 
being renamed as Transforming Undergraduate Education in STEM, 
or TUES, is an example of a program that does this. The program 
vision is excellent STEM education for all undergraduate 
students.
    CCLI and TUES fund projects that develop, implement and 
evaluate innovative practices in undergraduate STEM learning. 
We are funding projects to determine what it takes to scale-up 
effective practices in undergraduate settings across the 
country.
    Some of our programs address both roles. The Integrated 
Graduate Education Research and Traineeship program, IGERT, 
provides traineeships to STEM doctoral students and catalyzes 
graduate program innovation. IGERT PIs develop research and 
learning opportunities to prepare tomorrow's scientists to 
solve interdisciplinary research problems.
    We are also very interested in the question of how to best 
prepare tomorrow's scientists to be leaders in invention, 
innovation and entrepreneurship.
    The scientists of tomorrow need skills beyond their 
disciplinary content preparation. We see efforts in proposals 
to build skills in teamwork, communication to technical and 
non-technical audiences, leadership and teaching at the 
graduate level. Proposals to our undergraduate programs are 
exploring how to develop 21st century skills and capacity to 
engage with challenging societal problems.
    NSF's programs are also aimed at improving recruitment into 
the STEM fields. This includes seeking students from groups 
that have been traditionally underrepresented in STEM. At the 
graduate level, students are attracted by opportunities for 
interdisciplinary research and summer workshops introducing 
them to the culture of graduate school. And of course, targeted 
scholarships and stipends certainly help in recruitment.
    Faculty-to-faculty connections and cultivating 
relationships with minority-serving institutions can make a 
difference in bringing a diversity of students into STEM. Many 
of the students who begin college with the intention of 
pursuing a STEM career move to other fields in their first or 
second year of college, and there are some practices that seem 
to help stem this attrition. For example, early efforts to 
shore up weak high school preparation, such as summer programs 
prior to the freshman year, show some promise. So does focusing 
on at-risk students through cohort building, peer and faculty 
mentoring and offering of career advice. Chances to do research 
with faculty, internships and summer programs also help with 
both recruitment and retention in STEM.
    NSF also invests in research on learning and teaching as a 
part of catalyzing improvement in STEM higher education. At the 
undergraduate level, the body of work is quite robust, coming 
through discipline-based work in physics, mathematics, 
engineering, chemistry and the geosciences, as well as other 
areas. We recently have funded the National Research Council to 
undertake a comprehensive consensus study of discipline-based 
education research in the natural sciences to build our body of 
knowledge further. There is less research available about 
graduate STEM learning and education, and we are trying to 
encourage more work in this area. Recently funded projects are 
examining issues of interest in graduate education such as the 
effects of inquiry-based science teaching, and the role of 
context and learning practices in laboratories.
    The Nation must build a STEM workforce that is ready for 
innovation and global leadership. To do this, we need to 
continually improve the effectiveness of STEM education in 
colleges and universities for undergraduate and graduate 
students alike. This means creating stimulating compelling 
opportunities for STEM learning and for research. NSF is 
supporting innovative initiatives to attract and prepare 
tomorrow's science and engineering workforce during the 
critical undergraduate and graduate years.
    Thank you for the opportunity to describe our efforts.
    [The prepared statement of Dr. Ferrini-Mundy follows:]
                Prepared Statement of Joan Ferrini-Mundy
    Chairman Lipinski, Ranking Member Ehlers, and distinguished members 
of the Subcommittee, I am Joan Ferrini-Mundy, Acting Assistant Director 
for the Directorate for Education and Human Resources (ERR) at the 
National Science Foundation (NSF). Thank you for the opportunity to 
testify about strengthening undergraduate and graduate science, 
technology, engineering and mathematics (STEM) education. Advancing the 
frontiers of science and ensuring a scientifically literate citizenry 
are paramount, and as the importance of ensuring a next generation of 
innovators in science and engineering is critical, the NSF continues to 
provide leadership and research for the ongoing transformation of STEM 
learning opportunities at all levels. Today we are focusing on 
undergraduate and graduate education, and the unique and exciting 
opportunities at NSF for advancing this enterprise, in support of the 
development of tomorrow's STEM workforce.
    I begin with comments about NSF's role in improving the quality and 
effectiveness of STEM higher education in the United States, and will 
highlight key programs and provide a summary of NSF's total investment 
in undergraduate and graduate education. Then I will speak about focus 
areas in the NSF portfolio in undergraduate and graduate education: 
interdisciplinarity and other skills essential in STEM; recruitment and 
retention to STEM fields; and the status of research on learning and 
teaching in undergraduate and graduate STEM education.

Overview of NSF's Role and Investment

    NSF's mission in STEM higher education is to stimulate improvement 
in the education and development of a diverse and well-prepared 
workforce. This is done by investing in promising research, innovative 
programs and talented people. NSF has two complementary roles in the 
advancing quality and effectiveness in STEM higher education: one is to 
provide direct support to the nation's most promising students 
preparing for careers in STEM, via fellowships, traineeships, 
scholarships, and research assistantships. The other is to catalyze and 
study innovative approaches to improving STEM learning and workforce 
development in higher education settings. The two lines of investment 
are interwoven and reinforce one another. This provides NSF unique 
opportunities to support the creation of the best environments for 
student learning and to ensure that promising students access to those 
environments.
    NSF has several programs that explicitly address undergraduate and 
graduate students. These programs span EHR and other NSF directorates. 
The FY 2011 request is for approximately $401 million at the 
undergraduate level and $338 million at the graduate level. See Table 1 
for additional detail.

Supporting Students Directly

    The investment in developing the STEM professional workforce occurs 
through several programs at both the graduate and undergraduate levels.
    Graduate student support. NSF's Graduate Research Fellowship 
Program (GRFP) is the country's oldest graduate fellowship program that 
directly supports students. The first predoctoral and postdoctoral 
fellowships were awarded by NSF in 1952. Among the recipients are 
sociobiologist Edward O. Wilson (Pulitzer Prize, 1979 and 1991), 
physicist Burton Richter (Nobel Prize, 1976) and Sergey Brin, one of 
the founders of Google. In 2009 1,244 \1\ Graduate Research Fellowships 
were awarded to students across the scientific disciplines, attending 
137 \2\ universities. NSF also sponsors a Foundation-wide traineeship 
program, the Integrated Graduate Education Research and Traineeship 
(IGERT) program.
---------------------------------------------------------------------------
    \1\ This included 387 American Recovery and Reinvestment Act awards 
and 857 non-ARRA.
    \2\ This includes 10 international and 127 U.S. institutions.
---------------------------------------------------------------------------
    NSF uses three mechanisms for supporting graduate students: 
research assistantships (RAs) fellowships, traineeships, and. There are 
significant differences among these three training mechanisms in the 
citizenship requirements for funding, the flexibility in choice of 
institution and education, the kinds of mechanisms for training both 
within and beyond the content areas of the student's field(s), and the 
reporting requirements and follow-up possibilities for the students.
    The purpose of a research assistantship is to accomplish work on a 
PI's grant. The student need not be a U.S. citizen and there need be no 
information about the student's graduate education. The PI must report 
the student's name, whether he or she worked more than 160 hours (the 
appointment may vary in time and duration), and what their role was on 
the project in the annual and final reports. Nothing else need be 
reported by the PI. It should be noted that ``Most federal financial 
support for graduate education is in the form of RAs funded through 
grants to universities for academic research. RAs are the primary 
mechanism of support for 69% of federally supported full-time S&E 
graduate students, up from 66% in 1993. Fellowships and traineeships 
are the means of funding for 21% of the federally funded full-time S&E 
graduate students. The share of federally supported S&E graduate 
students receiving traineeships declined from 15% in 1993 to 12% in 
2006, and the share receiving fellowships declined from 11% to 10%.'' 
\3\ Research awards across NSF provide support to students serving as 
research assistants.
---------------------------------------------------------------------------
    \3\ National Science Board (2010). Science and engineering 
indicators 2010. Arlington, VA: National Science Foundation (NSB 10-
01).
      Note: Funding for GRF increases by $22.32 .million to $158.24 
million in FY 11, supporting the Administration priority to triple the 
number of new graduate research fellowships from 1,000 in FY 2008 to 
3,000 by FY 13.
---------------------------------------------------------------------------
    The Graduate Research Fellowship is different from a research 
assistantship in the following ways: the student must be a US citizen 
or permanent resident; the student must be near the beginning of his or 
her graduate education in an NSF-supported field; the award is 
portable; the three years of stipend and ``cost of education'' support 
may be used during any three years in a five-year window; and, the 
award is not tied to other duties.
    The IGERT traineeship is similar to the Graduate Research 
Fellowship (and different from a research assistantship) in the 
following ways: the student must be a U.S. citizen or permanent 
resident in an NSF-supported field, and the stipend and ``cost of 
education'' allowance are the same. The IGERT traineeship is different 
from both the research assistantship and Graduate Research Fellowship 
in that in the IGERT program faculty invent the novel, collaborative, 
interdisciplinary research themes that form the basis of the trainees' 
innovative graduate education (in addition to the disciplinary depth 
that trainees gain in their home departments); faculty recruit trainees 
for their programs and mentor them; and graduate students receive 
training in teamwork, communication, career development, ethics and 
responsible conduct of research, and global perspectives.
    It is important to maintain a balance in the portfolio of 
opportunities that NSF programs offer. The scientific community 
increasingly views interdisciplinary research as critical to innovation 
and scientific advances and as a means to respond to emerging complex 
problems.\4\ Over the past decade, academic institutions and federal 
funding agencies have made efforts to promote interdisciplinary 
education and research. Although new programs and efforts have arisen, 
academic institutions and funding agencies remain for the most part 
organized around disciplines; thus, university structures, evaluation 
and promotion practices, and funding opportunities often do not 
facilitate interdisciplinary research.\5\ Measurement of 
interdisciplinary enrollment and degree attainment also remains a 
challenge, as students often are assigned to only one department or 
program to avoid duplication in records, and schools are asked to 
report the enrollment or degree in only one department or program. As 
interdisciplinary degree programs become established and award degrees, 
measurement becomes easier. For example, the number of doctoral degrees 
increased in interdisciplinary fields such as neuroscience (from 117 in 
1982 to 737 in 2006), materials science (from 147 in 1982 to 582 in 
2006), and bioengineering (from 59 in 1982 to 525 in 2006).\6\
---------------------------------------------------------------------------
    \4\ Committee on Science, Engineering and Public Policy (COSEPUP). 
(1995). Reshaping the Graduate Education of Scientists and Engineers. 
Washington, DC: National Academies Press.; Committee on Facilitating 
Interdisciplinary Research, Committee on Science, Engineering, and 
Public Policy (COSEPUP). (2004). Facilitating Interdisciplinary 
Research. Washington, DC: National Academies Press.; National Science 
Foundation, Education and Human Resources Directorate Division of 
Graduate Education. (2008). The impact of transformative 
interdisciplinary research and graduate education on academic 
institutions, Arlington, VA: NSF (NSF 09-33)
    \5\ (NSF 09-33)
    \6\ NSB 10-01; NSF/SRS 1993, 2009c
---------------------------------------------------------------------------
    Undergraduate student support. Undergraduate STEM students receive 
direct support through NSF's Robert Noyce Teacher Scholarship Program, 
which directs scholarships to undergraduates preparing for the STEM 
teaching workforce. In 2009, 1530 prospective STEM teachers benefited 
from direct support through American Recovery and Reinvestment Act 
(ARRA) funds in Noyce. The NSF Scholarships in Science, Technology, 
Engineering, and Mathematics (S-STEM) program awards scholarships to 
academically talented, financially needy undergraduate students.

Catalyzing Innovation

    NSF also has a long and distinguished history of supporting 
catalytic work to improve STEM learning in higher education. In 1953 
NSF co-sponsored a conference at Amherst College on strengthening 
physics research at liberal arts colleges, using as part of the 
argument for this the idea that students would benefit greatly from 
interacting with ongoing research \7\--perhaps an early 
conceptualization of what has become the Research Experiences for 
Undergraduates program at NSF. The 1986 ``Neal Report'' \8\ noted that 
``The only way that we can continue to stay ahead of other countries is 
to keep new ideas flowing through research: to have the best 
technically trained, most inventive and adaptive workforce of any 
nation; and to have citizenry able to make intelligent judgments about 
technically-based issues. Thus, the deterioration of collegiate 
science, mathematics and engineering education is a grave long term 
threat to the Nation's scientific and technical capacity, its 
industrial and economic competitiveness and the strength of its 
national defense.'' This concern prompted a renewed focus on NSF's 
investment in improving undergraduate STEM education.
---------------------------------------------------------------------------
    \7\ The Third Annual Report of the National Science Foundation: 
Appendix VI Report of the National Science Foundation--Amherst 
Conference on Physics Research in Colleges. 1953. Arlington, VA. 
[Appendix VI].
    \8\ Neal, Homer A., Chair, NSB Task Committee on Undergraduate 
Science and Engineering Education (1986). Undergraduate science, 
mathematics, and engineering education. National Science Foundation: 
Washington, DC. 1986 (NSB 86-100), (p. 1).
---------------------------------------------------------------------------
    Undergraduate education. While improvements in undergraduate 
instruction are funded in several contexts in EHR, and in some programs 
in other directorates, the core program through which NSF funds 
fundamental exploration of learning at the undergraduate level is the 
newly renamed Transforming Undergraduate Education in STEM (TUES) 
program, formerly Course, Curriculum, and Laboratory Improvement 
(CCLI). This name change signals strongly the intention to move beyond 
small-scale change, and understand what is needed to fully bring about 
STEM undergraduate education that engages and empowers every student.
    The vision of the TUES program is excellent STEM education for all 
undergraduate students. The program supports efforts to bring advances 
in STEM disciplinary research into the undergraduate experience, and 
the creation and adaptation of learning materials and teaching 
strategies that embody what is established through research about how 
students learn. It encourages projects that develop faculty expertise, 
promote widespread implementation of educational innovations, and 
prepare future K-12 teachers. Projects that explore cyberlearning, that 
is, learning with cyberinfrastructure tools such as networked computing 
and communications technologies, are of special interest. The program 
supports projects at all scales and stages of development, ranging from 
small, exploratory investigations to large, comprehensive projects. The 
goals of this program reflect national concerns about producing skilled 
STEM professionals (including K-12 teachers) and citizens knowledgeable 
about STEM and how it relates to their lives. The program seeks to 
build on the community of faculty committed to improving undergraduate 
STEM education.
    At the undergraduate level, a major challenge is that of scaling up 
across the nation's 4,352 undergraduate institutions (including two-
year and community colleges) \9\ the implementation of evidence-based 
improvements to STEM teaching. Much that is known about how to use 
classroom, laboratory, and personal study time to promote student 
learning in ways that are more effective than conventional lecturing 
has still not been widely adopted. The current TUES program 
announcement especially encourages projects that have the potential to 
transform the conduct of undergraduate STEM education. The program 
requires that each project conduct both formative and summative 
evaluation of effectiveness in meeting it goals and participate as 
requested in a program-level evaluation. And, as new technologies 
emerge and the experiences and characteristics of student populations 
shift, continued research and development to advance knowledge about 
student learning and effective instructional practices that lead to 
deep learning at the undergraduate level is essential. It will also be 
important to think in terms of leveraging NSF's investment through 
interactions with organizations, movements, and interests with 
potential national impact on faculty practice.
---------------------------------------------------------------------------
    \9\ U.S. Department of Education, National Center for Education 
Statistics, Education Directory, Colleges and Universities, 1949-50 
through 1965-66; Higher Education General Information Survey (HEGIS), 
``Institutional Characteristics of Colleges and Universities'' surveys, 
1966-67 through 1985-86; and 1986-87 through 2007-08. Integrated Post-
secondary Education Data System, ``Institutional Characteristics 
Survey'' (IPEDS-IC:86-99), and Fall 2000 through Fall 2007.
---------------------------------------------------------------------------
    To promote more effective undergraduate education for teachers, 
such efforts as the Collaboratives for Excellence in Teacher 
Preparation (1993-2002) and the Math and Science Partnerships (2002-
present) have required a strategy that brings together STEM faculty, 
education faculty, and practitioners to improve the disciplinary 
preparation of teachers. This focus not only brings STEM expertise to 
teacher preparation, but also brings a growing cadre of STEM faculty, 
many of whom had no formal training in pedagogy, in contact with a 
knowledge base around effective practices for supporting learning. As 
projects insist that college-level courses for teachers model good 
teaching, undergraduate education for all students can be transformed.
    There is excitement across NSF about plans for a new Comprehensive 
Broadening Participation in Undergraduate STEM (CBP-US). This program 
will build on the excellent efforts that have been undertaken in 
historically black colleges and universities, tribal colleges and 
universities, Hispanic-serving institutions, Louis Stokes Alliance for 
Minority Participation (LSAMP) institutions, and other institutions 
successful in broadening undergraduate participation in STEM. We 
anticipate moving to new levels of innovation and effectiveness in 
creating the future STEM workforce by seeking out and engaging 
promising students from all groups in our society in high quality 
undergraduate experiences.
    Graduate education. The TUES program has been developed for 
undergraduate education, in which there is far more uniformity within 
fields than in graduate education. At the graduate level, the IGERT 
program requires that faculty develop novel, innovative graduate 
education and training mechanisms that will enable students to work 
collaboratively on specific interdisciplinary research problems. A 
recent evaluation ``finds that doctoral students participating in IGERT 
projects receive different educational experiences than non-IGERT 
students enrolled in single disciplinary degree programs, and that the 
IGERT program has been successful in achieving its goal of improving 
graduate educational programs in science and engineering.''\10\ A TUES-
type program for graduate education might focus upon common issues 
across graduate education such as how to prepare tomorrow's scientists 
to be leader in invention, innovation and entrepreneurship. Continued 
focus on how to catalyze excellence in graduate education, based on the 
growing knowledge base about adult learning, emerging workforce 
demands, and graduate program effectiveness, together with 
opportunities afforded by cyberlearning, could revolutionize graduate 
education. This type of focus extends beyond the current scope and 
emphasis of the IGERT program.
---------------------------------------------------------------------------
    \10\ National Science Foundation, Division of Research, Evaluation, 
and Communication (2006) Evaluation of the initial impacts of the 
National Science Foundation's Integrative Graduate Education and 
Research Traineeship Program. Arlington, VA NSF 06-17.

---------------------------------------------------------------------------
Preparation for Tomorrow's Scientists

    NSF programs recognize that tomorrow's STEM workforce will 
encounter scientific challenges that require skills in working across 
disciplines, and capacity for building new knowledge in advancing 
scientific frontiers. This entails preparation for interdisciplinary 
work and development of a range of additional skills and capabilities, 
beyond content knowledge. Let me describe ways in which our graduate 
and undergraduate programs help to identify and develop such knowledge 
and capacity in tomorrow's scientists.
    Interdisciplinary preparation. The IGERT program was developed to 
broaden the graduate education of students to empower them to create 
new knowledge in areas requiring interdisciplinary research, such as 
energy, climate change, clean water, and other cutting-edge, emerging 
areas of science. According to the program evaluation,\11\ ``IGERT 
students receive more extensive interdisciplinary training than non-
IGERT peers, but maintain depth of study in their chosen fields. IGERT 
students consistently report greater opportunities to learn about other 
disciplines, interact with faculty and students from other disciplines, 
and work on projects involving multiple disciplines. They are better 
prepared to work in multidisciplinary teams and communicate with people 
outside their own fields. At the same time, according to both faculty 
and students, the level of in-depth preparation in students' fields is 
similar for IGERT and non-IGERT participants.'' A subsequent 2009 
evaluation \12\ indicates that IGERT graduates continue to engage in 
interdisciplinary work in their current positions. The IGERT portfolio 
faces the challenge of university infrastructures that prioritize 
disciplinary research].
---------------------------------------------------------------------------
    \11\ NSF 06-17.
    \12\ Abt Associates Inc., 2009, Evaluation of the National Science 
Foundation's Integrative Graduate Education and Research Traineeship 
Program (IGERT): Follow-up Study of IGERT Graduates. draft final copy 
received.
---------------------------------------------------------------------------
    The CCLI/TUES portfolio includes projects that engage students with 
complex, unsolved problems that challenge communities, the nation, and 
the global community. One such project is Science Education for New 
Civic Engagements and Responsibilities (SENCER), active in more than 40 
states. SENCER helps faculty leaders develop courses that teach through 
complex, capacious civic issues to the basic learning outcomes. 
Focusing on real world issues is intended to increase student's 
interest, motivate greater achievement, and help students make 
connections between learning, their future careers, and their roles as 
citizens in a democracy
    Other NSF programs also aim at interdisciplinarity at the 
undergraduate level. For instance, the Interdisciplinary Training for 
Undergraduates in Biological and Mathematical Sciences (UBM) program is 
a cross-cutting program involving EHR, the Biological Sciences 
Directorate, and the Mathematical and Physical Sciences Directorates. 
UMB has as its goal to enhance undergraduate education and training at 
the intersection of the biological and mathematical sciences and to 
better prepare undergraduate biology or mathematics students to pursue 
graduate study and careers in fields that integrate the mathematical 
and biological sciences. The core of the activity is jointly conducted 
long-term research experiences for interdisciplinary balanced teams of 
at least two undergraduates from departments in the biological and 
mathematical sciences. And the Nanotechnology Undergraduate Education 
(NUE) in the Directorate for Engineering aims at introducing nanoscale 
science, engineering, and technology through a variety of 
interdisciplinary approaches into undergraduate engineering education. 
The focus of last year's competition was on nanoscale engineering 
education with relevance to devices and systems and/or on the societal, 
ethical, economic and/or environmental issues relevant to 
nanotechnology.
    Development of other critical skills. NSF programs also support 
effective efforts to equip undergraduate and graduate students with 
skills that extend beyond their disciplinary and interdisciplinary 
knowledge, and that will likely be essential in the future conduct of 
science. For example, the IGERT program is designed to provide graduate 
students training in interdisciplinary collaboration (teamwork) and 
communication skills. In a follow up survey of over 600 IGERT 
graduates, over 70% reported that the exposure to multi/
interdisciplinary research contributed to their ability to obtain 
positions in the workforce.\13\ Evaluation \14\ findings also indicate 
that significantly more IGERT students than graduate students in the 
control group received training or coursework in professional speaking 
or presentation skills, communicating to people outside their 
discipline, or communicating to the general public. The 2009 evaluation 
preliminary results comparing IGERT and non-IGERT graduates in the 
workforce reports that IGERT graduates were more likely to be 
integrating multiple disciplines in their work.\15\ Many IGERT projects 
feature internships in non-academic settings. Interdisciplinary 
teamwork skills can be built in the many interdisciplinary research 
centers at major universities, as well as by giving graduate students 
in all fields an opportunity to intern in an industry or government 
lab. ``Government and industry have had more emphasis on and experience 
in working in teams than academia and, thus, have expertise in this 
area that should be utilized and adapted for academic contexts.'' \16\
---------------------------------------------------------------------------
    \13\ NSF 06-17.
    \14\ Initial Impacts of IGERT evaluation by Abt Associates Inc. 
(2006).
    \15\ Abt Associates Inc., 2009, Evaluation of the National Science 
Foundation's Integrative Graduate Education and Research Traineeship 
Program (IGERT): Follow-up Study of IGERT Graduates. draft final copy 
received.
    \16\ NSF 09-33 The impact of transformative interdisciplinary 
research and graduate education on academic institutions.
---------------------------------------------------------------------------
    The NSF Graduate STEM Fellows in K-12 Education (GK-12) \17\ 
program provides an opportunity for graduate students to acquire value-
added skills, such as communicating SEEM subjects to technical and non-
technical audiences, leadership, team building, and teaching while 
enriching STEM learning and instruction in K-12 settings. At the 
master's level, this year ARRA funds will support a competition for the 
Science Master's Program (SMP),\18\ intended to prepare graduate 
students for a variety of workplaces through a strong foundation in the 
STEM disciplines as well as research experiences, internship 
experiences, and the skills to succeed in those careers. Faculty 
recognize the importance of the development of such skills for enabling 
their students to have a range of career options.
---------------------------------------------------------------------------
    \17\ NSF 09-549.
    \18\ NSF 09-607.
---------------------------------------------------------------------------
    At the undergraduate level, programs emphasize a range of skills 
that have been hypothesized as critical for participation in the SEEM 
workforce. For instance, we are seeing increasing emphasis in proposals 
on identifying and developing these including ``21st century skills'' 
in the Advanced Technological Education (ATE) \19\ program. With an 
emphasis on two-year colleges the ATE program focuses on the education 
of technicians for the high-technology fields that drive our nation's 
economy, and therefore proposals describe the range of skills needed 
for success in such career areas. The program involves partnerships 
between academic institutions and employers to promote improvement in 
the education of science and engineering technicians at the 
undergraduate and secondary school levels, and this partnership with 
employers leads to inclusion of a wider range of skill areas. The ATE 
program supports curriculum development, professional development of 
college faculty and secondary school teachers, career pathways to two-
year colleges from secondary schools and from two-year colleges to 
four-year institutions, and other activities. ATE projects strengthen 
the role of community colleges in meeting the needs for businesses and 
industries in the United States for a well-prepared technical 
workforce.
---------------------------------------------------------------------------
    \19\ NSF 07-530.

---------------------------------------------------------------------------
Recruitment and Retention in the STEM Fields

    Several EHR programs at both the graduate and undergraduate levels 
are specifically aimed at improving recruitment into STEM fields, 
particularly recruitment of persons from groups traditionally 
underrepresented in STEM, a critical approach to ensuring the diversity 
and depth of the STEM workforce.
    Graduate level. The Alliances For Graduate Education and the 
Professoriate (AGEP)\20\ program focuses directly on recruitment. The 
solicitation calls for proposers to discuss strategies for recruitment 
and retention of students from groups underrepresented in science and 
engineering. A major goal of AGEP is to increase the number of 
underrepresented minority (URM) students receiving Ph.D.'s and going on 
to the professoriate. Specific objectives of AGEP are (1) to develop 
and implement innovative models for recruiting, mentoring, and 
retaining minority students in STEM doctoral and postdoctoral programs, 
and (2) to develop effective strategies for identifying and supporting 
underrepresented minorities who want to pursue academic careers. 
Institutions funded under AGEP report rising doctoral program 
enrollments, higher levels of retention, steady progress toward degree 
attainment, increases in Ph.D. production, and successful transitioning 
of Ph.D. graduates into the workplace (including the professoriate) and 
more. The national AGEP evaluation \21\ has been gathering comparative 
data about progression and graduation rates to help assess program 
effectiveness. This evaluation has been expanded to include a tracking 
component to determine the extent to which the program is contributing 
to STEM academic careers. AGEP-supported institutions graduated more 
than twice as many URM Ph.D.'s as non-AGEP institutions on average over 
the period between 2002 and 2007, and differences hold across all URM 
categories. The data also show that this holds true across STEM 
disciplines. Similarly, the IGERT program focuses directly on 
recruitment, and in the solicitation calls for proposers to discuss 
strategies for recruitment and retention of students from groups 
underrepresented in science and engineering.
---------------------------------------------------------------------------
    \20\ NSF 10-522.
    \21\ Carlos Rodriguez Presentation at the AGEP 12/09-10/2009 
Washington DC. 103 AGEP institutions produced 2,878 URM STEM Ph.D.'s 
from 2002-07.
      180 non-AGEP institutions produced 2,265 URM STEM Ph.D.'s from 
2002-07.
      Thus, AGEP institutions produced an average of 27.9 URM Ph.D.'s 
in STEM.
      And, Non-AGEP institutions produced an average of 12.6 URM 
Ph.D.'s in STEM.
      Therefore, an AGEP-supported institution produces 2.2 times as 
many URM Ph.D.'s as a comparable non-AGEP institution.
---------------------------------------------------------------------------
    We have learned from these programs about several elements that are 
key to recruitment and retention at the graduate level. These include 
opportunities for interdisciplinary research, faculty-to-faculty 
connections, summer workshops to introduce students to the culture of 
graduate school, targeted scholarships and stipends, and cultivating 
relationships with minority-serving institutions to build the 
recruitment pipeline.\22\
---------------------------------------------------------------------------
    \22\ NSF 09-33 The impact of transformative interdisciplinary 
research and graduate education on academic institutions.
---------------------------------------------------------------------------
    Undergraduate level. The undergraduate years are a critical 
juncture both for development of the technical and scientific 
workforce, and for promoting scientific literacy and engagement for all 
citizens. At present they are the locus of some of the biggest leaks in 
the ``leaky pipeline'' toward a robust technical workforce, and NSF 
remains committed to improving the situation through strategic 
investment. A review of proposals to the Science, Technology, 
Engineering, and Mathematics Talent Expansion Program (STEP) shows that 
of the students entering college intending to major in STEM areas, many 
institutions see a large drop, often 30 to 70%, in the number of these 
students still intending to major in a STEM field by the end of their 
first year of college. Individual STEP projects typically employ a 
number of strategies to overcome the challenges that they have 
identified as causing first-year college students to move out of STEM 
majors. For example, institutions are able to identify pre-freshmen 
likely to have difficulty with STEM majors because their high school 
preparation is weak in critical areas of mathematics and science. With 
a rigorous academic summer program prior to the freshman year, STEP 
projects report successes in bringing these students to an academic 
level where they can succeed in the introductory science and pre-
calculus or calculus classes. Within many STEP projects, focusing on 
at-risk students through cohort building in the first and second years, 
peer and faculty mentoring, and career advice also have played 
important roles in improving retention rates for first and second year 
students intending to major in STEM fields. Efforts at Washington State 
1University, Heritage College, Eastfield College, part of the Dallas 
County Community College District, and San Jose State University have 
demonstrated particular success.
    Undergraduate programs that support sustained and comprehensive 
institutional approaches to broadening participation of persons 
underrepresented in STEM include LSAMP,\23\ Historically Black Colleges 
and Universities Undergraduate Program (HBCU-UP),\24\ and Tribal 
Colleges and Universities Program (TCUP).\25\ Findings \26\ from the 
LSAMP program impact evaluation reveal there are three activities or 
program components that stand out as having a positive relationship 
with enrollment in and completion of STEM degree programs: research 
with faculty, internships opportunities, and summer programs.
---------------------------------------------------------------------------
    \23\ NSF 10-522.
    \24\ NSF 10-518.
    \25\ NSF 10-501.
    \26\ Clewell, B. C., de Cohen, C. C., Tsui, L., & Deterdening N. 
(2006). Revitalizing the nation's talent pool in STEM: Science, 
technology, engineering, and mathematics. Washington, DC: Urban 
Institute. (311299).

Research on STEM Teaching and Learning at the Undergraduate and 
---------------------------------------------------------------------------
                    Graduate Levels

    Several NSF programs invest in building a knowledge base through 
research and evaluation of innovative practice to inform the ongoing 
improvement of undergraduate and graduate education. The Research and 
Evaluation on Education in Science and Engineering (REESE) program\27\ 
invites proposals that span these levels. In recent years the REESE 
program has issued a Dear Colleague Letter\28\ calling for research on 
graduate education, in order to stimulate more activity in that area. 
The TUES, STEP, ATE, and HBCU-UP programs also specifically call for 
research on undergraduate education. We estimate that about $23 million 
dollars were invested in FY 2009 in research on undergraduate and 
graduate education, with almost the entire investment at the 
undergraduate level.
---------------------------------------------------------------------------
    \27\ NSF 09-601.
    \28\ Dear Colleague Letter: Research and Evaluation on Education in 
Science and Engineering (NSF 08-012).
---------------------------------------------------------------------------
    A foundation for research on learning at all levels was established 
in the National Research Council synthesis report, How People 
Learn.\29\ This report describes the progress that has been made 
through studies on learning and transfer (the ability to use one what 
has learned in new settings); findings from neuroscience that are 
showing how learning changes the physical structure of the brain; and 
the results of research in social psychology, cognitive psychology and 
anthropology that demonstrate that all learning takes place in settings 
that have particular sets of cultural norms and expectations that 
influence learning. NSF-funded educational research projects are 
helping to build this body of cognitive science-based knowledge. The 
basic principles identified in How People Learn apply to learning in 
higher education.
---------------------------------------------------------------------------
    \29\ National Research Council (1999). How people learn: Bridging 
research and practice. Committee on Learning Research and Educational 
Practice, A Targeted Report for Teachers, M.S. Donovan, J.D. Bransford 
and J.W. Pellegrino, Editors. Commission on Behavioral and Social 
Sciences and Education. Washington, DC: The National Academies Press.
---------------------------------------------------------------------------
    Research on undergraduate learning. The body of research on 
undergraduate STEM teaching and learning is quite robust and growing in 
sophistication. The approach has come largely through efforts in 
specific disciplines. For example, over the past three decades a well-
established Physics Education Research community has developed.\30\ In 
physics, the groundbreaking work of David Hestenes and his colleagues 
at Arizona State University, funded by NSF in the late 1980s, produced 
the Force Concept Inventory.\31\ This is an assessment to diagnose 
areas of conceptual difficulty before or after instruction. 
Subsequently ``concept inventories'' have been developed in nearly two 
dozen STEM disciplines.\32\ The principle here is that, when faculty 
can see objective evidence through these inventories of their students' 
misconceptions and lack of understanding, they are motivated to alter 
their instructional practice in what will more actively engage the 
students and develop their understanding.
---------------------------------------------------------------------------
    \30\ http://www.compadre.org/per/.
    \31\ Halloun, I.A., Hestenes, D. (1985). The initial knowledge 
state of college physics students. Am. J. Phys. 53 (11), pp. 1043-1048; 
Hestenes, D., Wells, M., & Swackhamer, G. (1992). Force concept 
inventory. The Physics Teacher, 30, 141-158.
    \32\ Libarkin, J. 2008. Concept inventories in higher education 
science. Paper developed for NRC Promising Practices in Undergraduate 
STEM Education Workshop.
---------------------------------------------------------------------------
    In mathematics, much of the early research on undergraduate 
learning conducted in the 1970s and 1980s attempted to catalogue 
students' misconceptions and alternative conceptions, particularly in 
the area of calculus.\33\ Such work was concurrent with the curricular 
change in the calculus reform movement. More current research in 
undergraduate mathematics learning and teaching is aimed at 
understanding in such areas as differential equations linear algebra, 
proof and the role of technologies in supporting student understanding. 
In addition, there is a growing body of work about teacher's 
mathematical knowledge for teaching that is indicating that more 
advanced undergraduate mathematics coursework may not necessarily lead 
to improved outcomes of the pupils of those teachers.\34\ In 
mathematics there is also a professional group, the Special Interest 
Group of the Mathematical Association of America on Research in 
Undergraduate Mathematics Education,\35\ that helps to advance work in 
the field.
---------------------------------------------------------------------------
    \33\ Artigue, M.A., Batanero, C., & Kent, P. (2007). Mathematics 
thinking and learning at the post-secondary level. In F.K. Lester, Jr. 
(Ed.). Second handbook of research on mathematics teaching and 
learning. Charlotte, NC: Information Age Publishing. pp. 1011-1050.
    \34\ See Hill, H.C., Sleep, L., Lewis, J., & Ball, D.L. (2007). 
Assessing teachers' mathematical knowledge: What knowledge matters and 
what evidence counts? In F.K. Lester, Jr. (Ed.). Second handbook of 
research on mathematics teaching and learning. Charlotte, NC: 
Information Age Publishing. pp. 111-156; Monk.
    \35\ http://www.rume.org/.
---------------------------------------------------------------------------
    In the biological sciences, statistics, geological sciences, 
chemistry, and engineering there are emerging lines of work in teaching 
and learning research, with NSF support. For instance, the Innovations 
in Engineering Education, Curriculum, and Infrastructure (IEECI) 
program in the Engineering Directorate supports research on how 
students best learn the ideas, principles, and practices to become 
creative and innovative engineers.
    The TUES program recently funded a comprehensive, consensus study 
of ``Discipline Based Education Research'' (DBER) in the natural 
sciences, to be undertaken by the Board on Science Education (BOSE) of 
the National Research Council. In 2008, with NSF support BOSE conducted 
two workshops to explore the research underlying new approaches and 
promising practices. The workshops illuminated the efficacy of selected 
promising practices while also highlighting weaknesses and gaps in the 
research requiring further study. As a major study with emphasis on 
research in subject-matter learning and teaching, the study builds upon 
previous reports by the National Research Council, such as How People 
Learn. It will also compare education research emerging from the 
different STEM disciplines in order to distinguish practices whose 
efficacy has been clearly demonstrated across the disciplines from 
those requiring further research to demonstrate efficacy beyond a 
particular discipline or classroom context. It will summarize the 
current scope and quality of DBER, suggest ways in which education 
researchers across scientific disciplines can learn from one another 
and from the broader research on learning, and identify important areas 
for future research.
    Research on graduate education. The body of research available 
about graduate STEM education is less well-developed. Work from the 
well established research area of adult learning can inform graduate 
education, but does not necessarily focus directly on STEM. Graduate 
study is a process in which the student becomes an expert and there is 
a research literature on developing expertise (e.g., the role of 
deliberate practice by Ericsson and colleagues) \36\ which also could 
be useful. The REESE program is funding a number of studies currently 
underway that examine specific questions about graduate STEM education. 
For example, a study recently funded by the REESE program investigates 
``the impacts of inquiry-based science teaching experiences on the 
development of STEM graduate students as researchers. The investigators 
will measure the trajectory and magnitude of change in teaching and 
research skills over time using an array of relevant and contextualized 
data sources.'' \37\ Noah Finkelstein and his colleagues at the 
University of Colorado are examining the role of context in the 
practice of physics graduate education. The project examines the issues 
at the levels of individuals, courses and departments. Bianca Bernstein 
at Arizona State University is documenting the key sources of 
discouragement and support for women in STEM doctoral programs and the 
creation of on-line resilience training modules.\38\ And an 
investigation of the cognitive and learning practices in research 
laboratories in the emerging transdisciplinary field of integrated 
systems biology is being studied by Nancy Nersessian at Georgia 
Institute of Technology.\39\ These studies promise to help build a 
useful base of evidence about how graduate students acquire the 
cognitive skills to succeed in different STEM disciplines, and 
continued scientific research will be essential to emerging catalytic 
work for improving graduate STEM education.
---------------------------------------------------------------------------
    \36\ Ericsson, KA, Krampe, RT, Tesch-Romer C. The role of 
deliberate practice in the acquisition of expert performance. Psychol 
Rev. 1993;100:363-406.
    \37\ Effects of Inquiry-Based Teaching Experiences on Graduate 
Students? Research Skill Development (0723686, PI David Feldon): 
Project abstract at the University South Carolina Research Foundation.
    \38\ CareerBound: Internet-Delivered Resilience Training to 
Increase the Persistence of Women Ph.D. Students in STEM Fields 
(061235, PI Bianca Bernstein). Large Empirical Emerging Topics: Career 
Wise II: Enhanced Resilience Training for STEM Women in an Interactive, 
Multimodal Web-Based Environment (090618, PI Bianca Bernstein).
    \39\ Becoming a 21st Century Scientist: Cognitive Practices, 
Identity Formation, and Learning in Integrative Systems Biology (090615 
PI, Nancy Nersessian).

---------------------------------------------------------------------------
Conclusion

    Continually improving the quality and effectiveness of STEM 
education in colleges and universities, for undergraduate and graduate 
students alike, is essential to building a STEM workforce ready for 
innovation and global leadership. This improvement requires tapping the 
potential of students from all groups, particularly those who have been 
traditionally underrepresented in STEM, attracting them to the study of 
STEM, and retaining their interest through degree completion and into 
the workforce. It also depends on creating the most stimulating and 
compelling educational settings and opportunities for STEM learning and 
research. These values drive NSF's investment strategies across 
undergraduate and graduate education. NSF programs directly support 
some of the nation's most promising students as they prepare for STEM 
careers, and catalyze and evaluate innovative approaches to improving 
STEM learning in higher education. A body of research on teaching and 
learning serves as the foundation and is growing alongside continued 
efforts to improve STEM education. NSF is leading innovative 
initiatives to prepare the workforce of the tomorrow during the 
critical undergraduate and graduate years.
    Thank you for the opportunity to describe our efforts, and I would 
be happy to answer any questions at this time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Joan Ferrini-Mundy
    Dr. Joan Ferrini-Mundy is the Acting Assistant Director of the 
National Science Foundation's (NSF) Directorate for Education and Human 
Resources (EHR). In 2009 she served as Acting Executive Officer for 
EHR, and from January 2007 through December 2009 was Director of EHR's 
Division of Research on Learning in Formal and Informal Settings (DRL). 
While at NSF Dr. Ferrini-Mundy continues to hold appointments at 
Michigan State University (MSU) as a University Distinguished Professor 
of Mathematics Education in the Departments of Mathematics and Teacher 
Education. She served as Associate Dean for Science and Mathematics 
Education in the College of Natural Science at MSU from 1999-2006. 
Ferrini-Mundy was a Visiting Scientist in NSF's Teacher Enhancement 
Program from 1989-91, and served as Director of the Mathematical 
Sciences Education Board and Associate Executive Director of the Center 
for Science, Mathematics, and Engineering Education at the National 
Research Council from 1995-99. She directed the Michigan Department of 
Education Teacher Preparation Policy Study Group (2006-07) and chaired 
the MI Mathematics High School Content Expectations Development 
Committee. From 1983-99 Ferrini-Mundy was a member of the Mathematics 
Department at the University of New Hampshire, and in 1982-83 she was a 
mathematics faculty member at Mount Holyoke College, where she co-
founded the SummerMath for Teachers Program. She has served on the 
Board of Directors of the National Council of Teachers of Mathematics 
(NCTM), chaired the Writing Group for NCTM's 2000 Principles and 
Standards for School, and served on the Board of Governors of the 
Mathematical Association of America. In 2007-08, representing NSF, she 
served as an ex officio member of the President's National Mathematics 
Advisory Panel, and co-chaired the Instructional Practices Task Group. 
Ferrini-Mundy holds a Ph.D. in mathematics education from the 
University of New Hampshire; her research interests include calculus 
teaching and learning, the development and assessment of teachers' 
mathematical knowledge for teaching, and mathematics and science 
education policy.

    Chairman Lipinski. Thank you. I will recognize Mr. 
Stephens.

STATEMENT OF MR. RICK STEPHENS, SENIOR VICE PRESIDENT FOR HUMAN 
  RESOURCES & ADMINISTRATION, THE BOEING COMPANY, AND CHAIR, 
 AEROSPACE INDUSTRIES ASSOCIATION WORKFORCE STEERING COMMITTEE

    Mr. Stephens. Thank you, Mr. Chairman, Dr. Ehlers and 
members of the Subcommittee. I am honored to speak on behalf of 
the Aerospace Industries Association, which represents this 
Nation's major aerospace and defense manufacturers with more 
than 630,000 high-paying, high-skilled jobs. I also chair AIA's 
Workforce Steering Committee to lead The Boeing Company's human 
resources function. One of my responsibilities is ensuring that 
our company and industry help develop the future workforce.
    Today I would like to focus on what could be done at the 
undergraduate and graduate levels to strengthen the pipeline of 
students who enter and stay in STEM disciplines.
    We in the aerospace industry are concerned about the United 
States' ability to sustain its leadership role in technology 
and innovation. As the need for complex problem solving 
accelerates globally, this country faces a competitive gap that 
we can close only if more of our young people pursue careers in 
STEM-related fields. Unless we close this gap, it will have 
grave implications for our Nation's competitiveness, security 
and defense industrial base.
    Today, the average age of the U.S. aerospace workforce is 
45 and continues to increase. We expect that approximately 20 
percent of our current technical talent will be eligible to 
retire within the next three years. In the very near future, 
our companies and our Nation's aerospace programs will need 
tens of thousands of engineers in addition to those joining the 
workforce today. These are already becoming difficult jobs to 
fill, not because there is a labor shortage but because there 
is a skill shortage. This is especially acute in the U.S. 
defense industry because many government programs can only 
employ U.S. citizens.
    Of the positions open in the aerospace and defense industry 
in 2009, two thirds required U.S. citizenship. Yet, less than 
five percent of U.S. bachelor's degrees are in engineering 
compared with about 20 percent in Asia, for example.
    Our pipeline of qualified U.S. STEM workers is too small. 
Of nearly four million children who start preschool in the 
United States each year, only about 25 percent of them will go 
on to complete basic algebra in junior high school, only nine 
percent declare a STEM major at the undergraduate level, only 
4.5 percent actually graduate with a STEM-related degree and 
only 1.7 percent graduate with an engineering degree, and not 
all engineering degrees are applicable to the aerospace 
industry.
    On a positive note, certain institutions of higher 
education have increased the retention rates of students who 
are in their engineering programs from 50 percent to greater 
than 80 percent. These successful programs typically feature 
similar key ingredients. From the time a student steps on 
campus, he or she is pulled into a group of students, or as 
part of this cohort has direct interaction with professors who 
wants to see his team succeed and also performs early on with 
hands-on projects as a freshman. When those things don't occur, 
we end up with costly attrition. The underlying problem with 
the STEM pipeline, though, starts much earlier. And I have a 
chart if it could be displayed now.
    [The chart follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Children whose imaginations are sparked by someone who 
reveals the possibilities of math and science tend to gravitate 
toward more related STEM interests, and if you look in the 
pipeline, this shows that we start with roughly four million at 
every preschool level and every grade year and ends up with the 
1.7 percent at the end that get engineering degrees. And what 
you see is where the drop-off occurs each time. Hopefully this 
provides some insights to the Committee as a potential area to 
focus where resources be applied for the America COMPETES Act.
    I think one of the most important elements is that today in 
the media about 10 percent of the characters are portrayed as 
scientists or engineers but of those, about 70 percent are 
negatively portrayed. This negatively influences children that 
spend 7 hours and 38 minutes every day engaged in media, 
according to the Kaiser Family Foundation. When this happens, 
we run into huge issues. The opportunity to turn it around 
comes, typically, from an inspiring teacher. However, all too 
often, we don't have enough inspiring teachers at the junior 
high school and high school level because some 58 percent of 
middle school teachers in math and 68 percent of middle school 
science teachers are neither proficient nor certified in these 
subjects.
    The influence of parents and media is also profound. Let me 
just note here that AIA is in the process of tackling one of 
the biggest barriers, the perception of the STEM disciplines. 
We are collaborating with the Entertainment Industries Council, 
which has played a critical role in shaping people's 
perspective about smoking, seatbelts, and mental illness, just 
to name a few. We are now working together to support accurate 
depictions of how engineers and scientists are portrayed in the 
mainstream media.
    The AIA and its members have developed the following 
recommendations to strengthen undergraduate and graduate 
education to support industry. First, encourage and expand 
scholarships and other forms of financial aid as well as 
retention programs for undergraduate STEM students. Number two, 
encourage and incentivize the preparation of STEM certified 
primary and secondary school teachers with the goal of ensuring 
that U.S. colleges and universities produce enough qualified 
secondary teachers of math and science. Third, help motivate 
our youth to pursue STEM-related careers by enhancing support 
for two- and four-year institutions. And fourth, motivate the 
media, parents and teachers to provide a positive view of STEM 
careers.
    I also want to emphasize the importance of ensuring that we 
measure the impact of our investments in STEM education. Right 
now, the AIA is doing an inventory of our company programs to 
assess the impact of our investments, and we will have that 
complete by the first quarter of this year.
    We are also working this process with other industries 
through a STEM coalition of coalitions. We encourage the 
Federal Government to also consider measuring the impact of its 
investments in STEM education programs and scaling up those 
that show positive outcomes.
    Mr. Chairman, Dr. Ehlers and members of the Committee, 
thank you for the opportunity to testify before this important 
panel. I look forward to your questions.
    [The prepared statement of Mr. Stephens follows:]
                  Prepared Statement of Rick Stephens
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me today. I am honored to be speaking on behalf of the 
Aerospace Industries Association (AIA), the premier trade association 
representing the nation's major aerospace and defense manufacturers and 
their more than 631,000 high-wage, highly skilled employees; its 
Workforce Steering Committee, which I chair; and my employer--The 
Boeing Company. But I also come before the Committee with a background 
that spans more than a decade of engagement on education and science, 
technology, engineering, and math (or STEM initiatives). I have 
participated in shaping actions with the National Science Resource 
Center, National Association of Educators, the Business-Higher 
Education Forum, and the American Indian Science and Engineering 
Society. Additionally, I have engaged researchers and scientists in 
brain research on what motivates students and am a regular speaker on 
this topic. I say this not to boast but to describe what I believe is a 
background necessary to integrate a number of issues and actions that 
impact the topics you are addressing today--Undergraduate and Graduate 
STEM education, and,,equally important, how to improve these areas and 
increase the number of students who choose STEM-related fields as 
majors and elect technology careers as their vocation.
    Let me also provide a perspective that I believe is important to 
set a framework and context. In 1983, a blue-ribbon panel completed a 
seminal piece of work called ``A Nation at Risk,'' which set the tone 
and framework for improving education in America. While it focused on 
primary and secondary education, I believe this work is directly 
related to today's topic. Today, nearly 27 years later, I contend that 
we are no longer a ``Nation at Risk''; we are a ``nation falling 
further behind''--this despite the fact that, as a nation, we spend 
more money on education at a total level and on a per-capita basis than 
any other country in the world. Hundreds of organizations are focused 
primarily on improving education in the United States and, more 
specifically, on STEM disciplines. These include the National Science 
Teachers Association, the Business-Higher Education Forum (BHEF), the 
Aerospace Industries Association (AIA), the American Institute of 
Aeronautics & Astronautics (AIAA), and the National Defense Industries 
Association (NDIA). In addition, every college and university is 
focused on increasing the number of graduates.
    We are proud to be among those industries that have placed the 
United States in its leadership role in technology, innovation and the 
ability to solve highly complex problems. But as both the pace of 
innovation and the need for problem-solving accelerate globally, the 
United States faces a competitive gap that we can close only if more of 
our young people pursue careers in the growing fields of STEM 
disciplines.
    In my industry, the Aviation Week 2009 Workforce Study (conducted 
in cooperation with the Aerospace Industries Association, American 
Institute of Aeronautics & Astronautics, and the National Defense 
Industries Association) indicates aerospace companies that are hiring 
need systems engineers, aerospace engineers, mechanical engineers, 
programming/software engineers and program managers. Today, across the 
aerospace industry, the average age of the workforce continues to 
increase, and expectations are that approximately 20 percent of our 
current technical talent will be eligible to retire within the next 
three years. As a result, in the very near future, our companies and 
our nation's aerospace programs will need tens of thousands of 
engineers--in addition to those joining the workforce today.
    These are becoming difficult jobs to fill not because there is a 
labor shortage but because there is a skills shortage: Our industry 
needs more innovative young scientists, technologists, engineers, and 
mathematicians to replace our disproportionately large (compared to the 
total U.S. workforce) population of Baby Boomers as they retire. At the 
same time that retirements are increasing, the number of American 
workers with STEM degrees is declining, as the National Science Board 
pointed out in 2008.
    This skills shortage is a global concern across the board in all 
high-tech sectors--public as well as private.
    But it is especially acute in the U.S. defense industry because 
many government programs carry security requirements that can be 
fulfilled only by workers who are U.S. citizens. According to the 
Aviation Week 2009 Workforce Study, of the positions open in the 
aerospace and defense industry in 2009, 66.5 percent required U.S. 
citizenship. Yet only 5 percent of U.S. bachelor's degrees are in 
engineering, compared with 20 percent in Asia, for example. Meanwhile, 
in 2007, foreign students received 4 percent of science and engineering 
bachelor's degrees, 24 percent of science and engineering master's 
degrees, and 33 percent of science and engineering doctoral degrees 
awarded in the United States, according to the National Science Board. 
And most foreign students who earn undergraduate and graduate degrees 
from U.S. institutions are not eligible for U.S. security clearances.
    Clearly, the throughput of our U.S. STEM pipeline carries serious 
implications for our national security, our competitiveness as a 
nation, and our defense industrial base.
    Three key actions are necessary to ensure that we have enough 
scientists and engineers to meet future needs: 1) Successfully graduate 
all (or at least a lot more of) those who enter colleges and 
universities; 2) Ensure colleges and universities produce enough 
qualified secondary teachers for science, math and technology; and 3) 
Motivate our youth to pursue STEM-related careers that provide great 
pay, deliver on the promise of challenging and fun work, and create the 
future.
    About that third point, let's face it: If you ask children what 
they want to be when they grow up, how often do you hear ``I want to be 
an engineer''? First of all, many of them think engineers run trains. 
And those who do know what engineers are think they are like the nerds 
on the TV show, ``The Big Bang Theory.'' We can fund all the public 
service announcements we want, but the sad truth is: If kids just don't 
see scientists and engineers as something they can and want to be (and 
if parents reinforce that perception), they simply won't go down that 
path.
    Let me discuss what I think we can do to implement the three 
actions.

First: Successfully graduate all (or at least a lot more of) those who 
                    enter colleges and universities

    At Boeing, we cultivate close relationships with 150 colleges and 
universities in the U.S. and around the world. We see the best students 
and hire the best talent possible. Two years ago, Boeing initiated a 
unique project to correlate work performance scores of engineers to the 
higher-education institutions from which our top-performing employees 
graduated. We have assigned a Boeing executive to partner with each 
institution to help us understand (1) general characteristics of 
programs that produce high-performing STEM workers and (2) how we can 
work together to further improve their students' readiness to enter the 
STEM workforce.
    Although we hire graduates from many other institutions, we focus 
our active recruiting on our company portfolio of these high-potential 
institutions--many of which have increased their retention rates of 
students who enter engineering programs from 50 percent to greater than 
80 percent. All of their successful programs feature the same key 
ingredients: From the time a student steps on campus, he or she is 
pulled into a group of students; as part of this cohort has direct 
interaction with a professor who wants to see this team succeed; and 
performs hands-on work, starting as a freshman.
    Let me give you some good examples of these successes:

        <bullet>  At Columbia University, engineering students must do 
        a hands-on community-service project; they must design and 
        implement something of value to the community--a wireless 
        network, for example.

        <bullet>  At the University of Southern California, engineering 
        students attend core classes with the same group of 50 peer 
        students and are assigned to an energetic professor who can 
        relate to them and help them get through their critical first 
        year.

        <bullet>  Many institutions today--including New Mexico State 
        University, Northwestern University, the University of Southern 
        California, and the University of Washington--offer bridge 
        programs to freshmen minority or disadvantaged students. These 
        programs help the students make a smooth transition to college-
        level academics, establish stable study and homework groups, 
        attend academic workshops, take remedial or prerequisite 
        classes that may not have been offered at their high schools, 
        learn about STEM professions, gain work-study experiences, 
        identify learning resources, and engage with the academic 
        community. All of these activities significantly help with 
        retention. Unfortunately, some of these programs have lost 
        private funding from companies that are not faring well during 
        the economic downturn.

        <bullet>  Most aerospace companies offer both internships (in 
        which students--typically college juniors but sometimes 
        sophomores--work at a company for 12 to 14 weeks during the 
        summer months) or cooperative education programs (in which 
        students typically work three industrial periods prior to their 
        graduation). These programs enable students to demonstrate 
        their skills, stretch their capabilities beyond their current 
        level, increase their knowledge of their chosen fields, and 
        experience what it's like to work in a company. Companies, in 
        turn, are able to temporarily ``hire'' and evaluate talented 
        students and later retain those with the right skills as full-
        time employees.

    The U.S. has long been recognized as having many of the best 
colleges and universities in the world. By focusing on improving 
students' engagement in their freshman year with hands-on experiences 
and caring faculty, we can further improve even the best systems.

The second action: Ensure U.S. colleges and universities produce enough 
                    qualified secondary teachers for science, math, and 
                    technology

    Our college and university system also prepares our teachers for 
primary and secondary education. But, by nearly every count, there are 
not enough qualified teachers to teach math and science in secondary 
schools. Many who teach STEM classes lack degrees in the fields they 
teach. According to the U.S. Department of Education, 58 percent of 
middle-school math teachers and 68 percent of middle-school science 
teachers are not proficient or certified in these subjects.
    Math and science are hierarchical learning processes--meaning you 
have to learn them in stages, one step at a time, before you can move 
on successfully to the next step. When teachers anywhere along the way 
are neither proficient nor inspiring, too many of our young people miss 
foundational instruction, fall hopelessly behind and lose interest in 
science and math before they really have a chance to find out if they 
could be good at these subjects. What's more, the cost of remedial 
education (that is, trying to improve the skills of behind-the-curve 
students enough for them to grasp college-level STEM subjects) is very 
high compared to getting it right the first time.
    Most colleges and universities that produce the lion's share of 
teachers have both education and engineering schools. The best higher-
education institutions are finally beginning to focus on working 
together to ensure that teachers who graduate from college are in fact 
also wonderful scientists and engineers. ``Rising Above the Gathering 
Storm,'' with its focus on 10,000 teachers and 10 million minds, did a 
great job laying out the actions needed to improve teacher quality and 
effectiveness at the primary and secondary school levels.

And finally, the third--and maybe most critical--action: Motivate our 
                    youth to pursue STEM-related careers

    I know today's hearing focuses primarily on the undergraduate and 
graduate levels of STEM education. But if we cannot get enough students 
interested in going into the undergraduate STEM curriculums, we will 
fail in meeting the needs of business, government, and our economy. The 
underlying cause of the STEM-worker shortage starts way before college. 
What you learn first sticks with you; that is certainly true for how 
you think of math, engineering and science--and whether you're inclined 
to learn these subjects. Just as children whose parents read to them at 
a young age tend to do better as they progress through school and into 
adulthood, children whose imaginations are sparked by someone who 
reveals the possibilities of math or science tend to gravitate toward 
STEM-related interests. How can we expect that to happen more when so 
many parents are intimidated by math and science?
    Unless and until we can show our young people that STEM specialties 
are important and fun--and pay well--the United States will continue to 
bleed human potential:

        <bullet>  According to the Department of Education: Of nearly 4 
        million children who start pre-school in the United States each 
        year, only about 25 percent of them go on to complete basic 
        Algebra in junior high, only about 20 percent are still 
        interested in STEM subjects by the 8th grade, only 16 percent 
        are still interested in STEM subjects by the 12th grade, only 9 
        percent declare a STEM major at the undergraduate level, only 
        4.5 percent actually graduate with a STEM-related degree, and 
        only 1.7 percent graduate with an engineering degree. These 
        figures are disproportionately worse for minority and female 
        students. And, by the way--a topic for another day--1.2 million 
        (or more than one-fourth) of those nearly 4 million children 
        drop out of school altogether before they complete the. 12th 
        grade, though a majority of these eventually return to obtain 
        diplomas or equivalents such as the GED. These trends are 
        consistent year over year. [See Attachment A]

        <bullet>  Meanwhile, U.S. students ages 15 to 17 rank 19th in 
        the world in STEM critical-thinking skills, as measured by the 
        Programme for International Student Assessment test. The number 
        of engineering degrees awarded in this country is down 20 
        percent from 1985; that year, the percentage of undergraduates 
        earning degrees in engineering fields peaked at 7.83 percent. 
        It has declined most years since then. The United States 
        graduates approximately 70,000 engineers each year, with only 
        44,000 eligible for aerospace careers, according to the AIA.

    To reverse these abysmal trends, we first have to get more American 
children interested in math and science; then we have to keep them 
interested. And it must start with their perception of technology 
careers.
    Where do children get their view of science and technology? A 
Kaiser Family Foundation study released January 20, 2010, indicates 
that young people ages 8 to 18 are directly engaged with the media (TV, 
movies and computers), mobile devices, and video games an average of 7 
hours and 38 minutes a day--in other words, more time than they 
typically spend in school. And there's a correlation between media use 
and grades: While the study did not seek to establish a cause-and-
effect relationship, it reports that about half of heavy media users 
(the 21 percent of young people who consume more than 16 hours of media 
a day) reported getting lower grades (mostly Cs or lower), while only 
about a quarter of light users (the 17 percent of young people who 
consume less than 3 hours of media a day) reported getting lower 
grades.
    Who has young people's attention? It's clear that media in all its 
various new forms has a huge impact on the perspectives, attitudes and 
behavior of our youth. Take a look at the video ``2 million minutes,'' 
and you'll see what we are up against when it comes to educating our 
children compared to other nations who want to be leaders in the 
marketplace.
    In movies and on TV, 10 percent of characters are scientists and 
engineers. Unfortunately, of those, more than 70 percent kill others, 
are killed or are overcome by lay people. In the real world, however, 
scientists and engineers are the very people who create solutions for 
all that humans do in connecting people--whether by air, rail, car, or 
sea. They are the people who ensure that we have water, electricity, 
and gas. They are the people who create the devices that deliver the 
media that everyone clamors for. They are also the people who create 
artificial hearts and vaccines for H1N1. Scientists and engineers 
create the future. And they are real people. But if our media sends the 
wrong message, young people get the wrong view and don't want to be 
like most of the scientists and engineers they see on TV and in the 
movies.
    In part to counter these misleading images, the Aerospace 
Industries Association has begun taking steps toward bringing together 
academia, government, industry, and media to strengthen the future 
workforce. Our Workforce Steering Committee, for example, is in the 
process of tackling one of the biggest barriers--the perception of the 
STEM disciplines. AIA and Boeing are collaborating with the 
Entertainment Industries Council (EIC), whose mission is to support 
accurate depictions of how engineers and scientists are portrayed in 
mainstream media. For the past 27 years, the ETC has played a critical 
role in shaping people's perspectives about smoking, seat belts (you 
remember the crash-dummy commercials) and mental illness, just to name 
a few. Boeing is providing scientific and technological expertise 
through a number of our engineers who are directly engaged with ETC to 
ensure that writers, directors and actors know what engineers and 
scientists do in real-world situations. These outstanding engineers 
have volunteered to help advance positive images of engineers and help 
develop creative storylines. Positive media influence will generate a 
huge impact on parents and children--and on those who would be our 
future teachers, scientists, and engineers.
    Mr. Chairman and members of the subcommittee, I thank you for your 
attention to this important subject and appreciate your sense of 
urgency about it. If we in the United States hope to retain our 
nation's leadership in science, technology and innovation, we must 
immediately address the looming STEM skills gap.
    At the recommendation of the Aerospace Industries Association and 
its members, please consider these actions to strengthen undergraduate 
and graduate education:

        <bullet>  First, encourage and expand scholarships and other 
        forms of financial aid as well as retention programs for 
        undergraduate STEM students.

        <bullet>  Second, encourage and incentivize the preparation of 
        STEM-certified primary and secondary-school teachers.

        <bullet>  And third, help motivate our youth to pursue STEM-
        related careers by enhancing support for two- and four-year 
        institutions that provide students with hands-on experience 
        that is directly transferable to the. workplace.

    We must cultivate and diligently attract talented young people who 
will become the scientists, engineers, and technical professionals that 
keep the United States economically competitive, our aerospace industry 
innovative and our national security strong.

                      Biography for Rick Stephens
    Richard (Rick) Stephens is senior vice president, Human Resources 
and Administration, for The Boeing Company. Stephens, a 30-year Boeing 
veteran, also is a member of the Boeing Executive Council.
    Named to this position in 2005, he oversees all leadership 
development, training, employee relations, compensation, benefits, 
Global Corporate Citizenship, and diversity initiatives at Boeing. The 
Chicago-based commercial airplane and defense company had revenues of 
$60.9 billion in 2008 and employs 159,000 people.
    Prior to this assignment, Stephens, 57, served as senior vice 
president of Internal Services. During his career he has led a number 
of Boeing businesses, including Homeland Security and Services, Space 
Shuttle, and Tactical Combat Systems, at sites across the United States 
and around the world.
    Stephens serves on a number of nonprofit and business-focused 
boards and has been recognized for his longstanding leadership in local 
and national organizations. Passionate about improving education both 
inside and outside of the classroom, he works directly with community 
leaders to agree on common language, shared values, vision, and 
measures of success. This furthers industry's goal of ensuring a future 
workforce capable of the complex critical thinking necessary to succeed 
in an ever-changing competitive market.
    Related to his efforts on education and the future workforce, 
Stephens currently serves on America's Promise Alliance Board of 
Directors; the National Science Resources Center Advisory Board; the 
Business-Higher Education Forum's Executive and Science, Technology, 
Education and Math (STEM) Committees; and the University of Southern 
California Engineering and Business School Corporate Advisory Boards. 
In addition, he is chair of the Aerospace Industries Association 
Workforce Steering Committee. These diverse but related experiences in 
education, along with his leadership in a major technology-based firm, 
give him unique insights into how education can prepare students to be 
successful in the job market.
    Previously, Stephens served on the Department of Homeland Security 
Advisory Council; the Secretary of Education's Commission on the Future 
of Higher Education; the President's Board of Advisors on Tribal 
Colleges and Universities; the National Academy of Engineering 
Committee on Science, Engineering, and Public Policy; and
    the Association of Public and Land-Grant Universities Science and 
Mathematics Teacher Imperative Commission.
    Stephens is a member of the Department of Health and Human Services 
Health IT Standards Committee, Fellow of the American Institute of 
Aeronautics and Astronautics, and chairman of the Illinois Business 
Roundtable. Stephens also serves as the Boeing executive focal for the 
University of Southern California.
    Stephens received his Bachelor of Science degree in mathematics in 
1974 from the University of Southern California and his Master of 
Science degree in computer science in 1984 from California State 
University, Fullerton.
    Stephens is an enrolled member of the Pala Band of Mission Indians 
and served as its chairman from 1988 to 1989. He is a former U.S. 
Marine Corps officer.

    Chairman Lipinski. Thank you, Mr. Stephens. Now I will 
recognize Dr. Finkelstein.

   STATEMENT OF DR. NOAH FINKELSTEIN, ASSOCIATE PROFESSOR OF 
            PHYSICS, UNIVERSITY OF COLORAD, BOULDER

    Dr. Finkelstein. Thank you, Chairman Lipinski, Ranking 
Member Ehlers, and distinguished members of this Committee. My 
name is Noah Finkelstein. I am a professor in the Physics 
Department at the University of Colorado, one of the directors 
of the Physics Education Research Group there, and one of the 
directors of the Integrating STEM Education Initiative that is 
running across campus.
    I am honored to be here today, and I applaud this Committee 
for holding these important hearings.
    Education is society's fundamental form of investment in 
its future. This is the basic R&D for our society itself. And 
as a result, we are now deciding among a variety of possible 
futures. Will we depend on other countries for technological 
innovation, for basic technological infrastructure? Will our 
children grow up to be the leading scientists and innovators 
that we desire? Will students have access to college? The 
outlook is mildly pessimistic, despite my being an optimist.
    While education is a fundamental form of investment in the 
future, a critical, perhaps the critical lynchpin in our 
educational system is higher education and STEM education 
within that. In addition to being the locus of where we educate 
our undergraduate and graduate students, this is where STEM 
disciplines are defined and practiced. This is the destination 
of our students in the pre-college system. This is where we 
educate our future teachers at all levels and current teachers 
return for professional development. This is where we produce 
materials, assessments, standards, and this is where we conduct 
leading research on student learning. It is also all too often 
an overlooked area in education in our national discourse on 
education.
    So I make three brief points in my testimony. One, we know 
what to do, particularly in undergraduate STEM education, but 
we don't do it broadly. Second, the challenges in our STEM 
educational endeavors are complex and intertwined and so, too, 
should be our solutions. And third, given the scale of our 
educational challenges, key seed funding from the Federal 
Government through programs such as the NSF's can unlock 
hundreds of billions of dollars of latent infrastructure in the 
university system itself.
    To the first point, through discipline-based education 
research over the last several decades, we have shifted our 
understanding of teaching and learning. We have shifted from a 
teacher-centered and information delivery model to that of a 
student-centered, inquiry oriented model. Those sorts of 
programs have been heralded by engineers for quite some time. 
Through the Colorado Learning Assistance program applications 
of these ideas and understanding, we have now doubled to 
tripled consistently our student performance in our 
introductory physics courses.
    And yet, despite knowing what to do, these practices are 
not widespread. In short, we are not taking the same scholarly 
and scientific approach to promoting change in STEM education 
than we are to STEM education itself.
    This leads us to the second point: the challenges in our 
STEM educational endeavors are complex and intertwined. We 
should be thinking about how we can couple undergraduate and 
graduate programs, teacher professional development programs, 
preparation and research on student learning. The Colorado 
Learning Assistant program is one such example where not only 
do we focus on course transformation to realize these enhanced 
learning gains, but we recruit talented undergraduates to serve 
as coaches for fellow undergrads, and they serve as a pool from 
which we recruit future teachers. We also focus on faculty 
development and education research. The results lead us to 
improved learning gains for all students. Our undergraduate 
learning assistants look more like their graduate student peers 
than they do their undergraduate peers. We see faculty 
developing along the way. We have tripled the number of physics 
majors going into K-12 teaching. There are plenty of other 
examples, such as the Science Education Initiative, Informal 
Science Education and graduate teaching programs such as CIRTL 
that are running and impacting our own campus.
    So this is a key opportunity, and the Federal Government 
has served tremendously, historically, and has potential for 
the future for leveraging these opportunities and resources for 
seeding key individual action. We need to ensure that faculty 
practices are aligned with our understanding of student 
learning, and we need to support faculties' engagement and the 
scholarship of teaching and learning and discipline-based 
education research.
    The National Science Foundation programs that were alluded 
to before are key. My own field has benefited from the 
Distinguished Teaching Scholars program, the Career 
Fellowships, the former PFSMETEs, or post-doc fellowships, and 
the GRFs themselves have been instrumental. And programmatic 
activities at the NSF have led to many of these findings such 
as CCLI, REESE, the DRK-12, and more recently education efforts 
within the directorates themselves. The STEM directorates are 
engaging in education. Noyce has also been instrumental in 
helping us transform our undergraduate programs.
    Meanwhile, sustained federal support is essential, and 
scaling of federal support is essential. We can no longer 
operate just at the individual scale or just at the 
programmatic scale. We need to start thinking about 
departmental transformation, institutional transformation, and 
the role that professional organizations can play. The American 
Physical Society, the American Association of Physics Teachers, 
the Association of Public and Land Grant Universities have 
taken on the mantle of educational reform, teacher recruitment 
and preparation, and they have been instrumental in supporting 
our own efforts at the University of Colorado.
    Through targeted federal funding on the order of billions 
of dollars we can engage university resources on the order of 
hundreds of billions of dollars. This Committee can catalyze 
and endorse both in name and in action these key stakeholders 
in making that education happen.
    Thank you so much. I look forward to the discussions.
    [The prepared statement of Dr. Finkelstein follows:]
                 Prepared Statement of Noah Finkelstein
    Chairman Lipinski, Ranking Member Ehlers, and distinguished members 
of the Subcommittee on Research and Science Education,

Education is society's fundamental form of investment in its future.

    As a result, we are now deciding among a variety of possible 
futures for our nation.

        -  Will we depend on other countries for technological 
        innovation? Or for essential technological infrastructure, such 
        as energy?

        -  Will our children grow up to be leading innovators and 
        scientists?

        -  Will all students have access to college in a time when, 
        more than ever before, a college degree is required for even 
        entry-level positions? Will the average student?

        -  Will our school systems continue to mimic the educational 
        systems that were designed for a different era, or will new 
        models of education emerge?

        -  Will we have the basic human capital to ensure a quality of 
        life for all, and to address our continued growth in 
        consumption? Will our future be secure?

Current indicators are pessimistic for our country, on just about all 
                    accounts.

    A critical, perhaps the critical linchpin in our educational system 
is in Higher Education, and STEM education in particular.
    I applaud the Committee on holding these hearings and its continued 
investigation into the state of affairs in STEM education at all 
levels.
    The focus of this testimony will be predominantly on the nature of 
undergraduate STEM education. My esteemed colleagues will be discussing 
the role of graduate education. However, much of what is stated here 
also applies to our graduate programs, and I explicitly address the 
linkages among our many educational levels.
    I make 3 points in this testimony:

        1)  Through a scientific approach to science education, 
        educational researchers in STEM have developed substantial 
        research-based knowledge. Research has demonstrated that 
        traditional models of classroom-based education are no longer 
        appropriate and that new models that engage students in 
        learning experiences are critical. Further, we now know what to 
        do to improve individual learning, engagement, access, and 
        retention of students in courses. We also know that these 
        improved and effective educational experiences are not 
        widespread. And we know that we are missing critical research 
        on sustaining and scaling these educational reforms.

        2)  The challenges to our STEM educational endeavors are 
        complex and intertwined, and so, too, should be our solutions. 
        So far, higher education has been separated from national 
        discussions regarding educational reform. It is time to focus 
        on integrated approaches that reach across disciplines and 
        across levels of our educational system to provide us with 
        solutions that address our broad national challenge and do so 
        in a scalable, sustainable, and cost-effective manner.

        3)  Given the magnitude of our educational challenges in STEM, 
        we need far more resources than the Federal Government can 
        supply--but we do need the Federal Government to become the 
        catalyst for other kinds of investment. We need the investment 
        of the American citizenry and the University system. We need to 
        engage STEM faculty and researchers in educational innovation 
        and change. Seed-funding from the Federal Government can 
        stimulate the involvement of the populace and unlock $100s B in 
        latent infrastructure of the higher educational system, thereby 
        providing some hope of addressing the Grand Challenge that 
        faces us.

1. We know which educational practices work, but they are not widely 
        implemented.
    In recent decades researchers within STEM disciplines, informed by 
research in the learning sciences, education, psychology and other 
social science arenas, have productively focused attention on how 
students learn, conditions that support (or inhibit) student learning, 
what defines meaningful learning, and how to authentically assess 
student learning in STEM disciplines. Numerous reports and testimonies 
document this shift in understanding of teaching and learning. We must 
move away from teacher-centered and passive-student pedagogy to a 
student-centered, inquiry oriented, discipline-based model of pedagogy 
that is research-based and research-validated. We have documented the 
failures of our traditional educational, system on: student mastery of 
foundational concepts, problem-solving skills, views about the nature 
of science, interest, engagement, and retention.
    Through careful research, we have documented the sorts of 
educational practices that lead to substantial learning gains. For 
example, as part of the Colorado Learning Assistant model (described 
below), we have carefully implemented two key educational reforms in 
the introductory physics sequence at the University of Colorado: 
Tutorials in Introductory Physics, perhaps the most thoroughly 
researched educational reform at the introductory college level in our 
nation, and Peer Instruction, one of the most widespread educational 
reforms in introductory college physics. Both educational approaches 
shift from the instructor-centered to the student-centered, from 
dissemination of information to student construction of understanding, 
from rote algorithmic processing to student argumentation that is 
supported by and develops robust conceptual understanding. As a result 
of implementing these new educational practices, we now consistently 
document student learning gains that are two to three times what they 
used to be, and two to three times the national average for traditional 
educational experiences. Researchers within STEM departments are 
leading the way in similar, but isolated transformations around the 
country, and such results are found nationally in all STEM disciplines 
that make scholarly inquiry into the nature of student learning.
    Because of a new scientific approach to education, STEM departments 
are establishing measurable learning goals for undergraduate education, 
tools for course transformation to address these goals, and evaluation 
instruments and metrics for assessing these achievements. Faculty are 
measuring not just rote algorithmic processing, but deep problem 
solving skills, conceptual mastery, beliefs about the nature of 
science, and beliefs about the nature of learning science. Researchers 
are identifying mechanisms for addressing the historical disparity in 
access, inclusion, and achievement between majority and minority 
students, and between male and female students. The involvement of 
researchers within STEM disciplines who focus on STEM education is 
critical in attending to disciplinary and departmental specifics. As a 
result of this scholarly approach, there are a variety of examples of 
educational practice that address the lack of achievement, poor 
retention and the gender and racial gaps in STEM education at the 
university level. Discussed below, we find that the most successful 
programs, and those that are likely to be sustained, are those that 
integrate across the many of the challenges that face us, those 
challenges identified in NRC's Rising Above the Gathering Storm report 
and those challenges that the America COMPETES Act seeks to address.
    While effective practices of educational reform in undergraduate 
STEM have existed for decades, and data on their success have been 
widely accessible and cited, the reforms themselves are not widespread. 
This limited adoption is not because of a lack of effort on the part of 
the developers. For example, my colleagues at the University of 
Washington who authored the Tutorials in Introductory Physics have been 
running workshops on their curricula for the last decade. Peer 
Instruction's developer, Eric Mazur of Harvard, has given over 300 
talks about Peer Instruction and 18,700 copies of his book Peer 
Instruction have been shipped--including 12,700 free copies. This 
represents approximately one free copy for each of the roughly 13,000 
physics faculty employed in all four-year and two-year colleges in the 
U.S. Despite the best efforts of educational innovators across the 
country, practices have not changed dramatically. Current research 
studies from a variety of sources suggest that we lack a model of 
educational change that is sufficient. We cannot simply put good ideas 
out there and expect them to be used. We cannot simply mandate their 
adoption. We cannot expect these innovations to diffuse on their own. 
In recent reviews of over 400 studies of change in undergraduate STEM 
education, we have found that most change initiatives do not cite or 
build on prior approaches, most are not based on research, and most are 
not effective or sustained.\1\ As a recent synthesis of a National 
Academies workshop on STEM education concludes, ``the greatest gains in 
STEM education are likely to come from the development of strategies to 
encourage faculty and administrators to implement proven instructional 
strategies''.\2\ The conclusion calls for the development of ``models 
for implementation, dissemination, and institutionalization for STEM 
reforms where the relative roles of evidence-based research on 
teaching, leadership, workloads, rewards, and so on are clearly 
delineated.'' In short, as of yet, our nation's universities are not 
taking a scholarly and scientific approach to promoting change in STEM 
education on a broad scale. These studies and others suggest that 
successful change efforts:
---------------------------------------------------------------------------
    \1\ Henderson, Beach, and Finkelstein. Facilitating Change in STEM 
Education.
      See: http://www.stemreform.org or http://www.wmich.edu/science/
facilitating-change/.
    \2\ Fairweather (2008). P26. http://www7.nationalacademies.org/
bose/Fairweather<INF>-</INF> CommissionedPaper.pdf.

        `  identify a coherent vision of change and communication of 
---------------------------------------------------------------------------
        that vision;

        `  attend to multiple scales of reform (focusing on individual 
        faculty development and reward, along with departmental, 
        institutional, and disciplinary community engagement);

        `  recognize that educational reforms must be adapted and 
        transformed (at least modestly) to attend to local 
        circumstances;

        `  focus on the university department as a key unit of change;

        `  and evaluate the change process and use evaluation to 
        improve programmatic approaches.

    Such findings provide us with tools and suggestions as we shape 
calls for reform and criteria for funding models of educational 
transformation. However, more research is needed, both on how 
educational innovations are locally adapted and models of scaling 
educational reform.

2. Education is a complex and integrated system: this structure is an 
        opportunity for leveraging change.
    The same features that challenge us to improve our educational 
system provide us opportunities to solve these challenges. Because 
components of our educational system are coupled with each other, we 
can effect change in the entire system by carefully seeding change at 
critical junctures. Higher education is a critical and often overlooked 
juncture. Policy makers, industry leaders, scientists and much of the 
broader populace are educated at universities. Universities are the 
institutions where we recruit and prepare our future teachers and where 
current teachers return for professional development. Universities are 
where disciplines are defined, modified, and practiced. Universities 
are (and should be) the destination for our nation's youth beyond high 
schools or community colleges.
    Because universities serve such a broad constituency and possess 
such intellectual, social, and political capital, we can strategically 
leverage their roles to promote lasting, national-scale change in STEM 
education. Universities house the STEM researchers, STEM education 
researchers, and educators. Universities house and develop this 
knowledge and we can foster the necessary integration of these 
historically different areas of scholarship to promote educational 
transformation and institutional change. This approach requires that we 
implement change in which disciplinary content is brought together with 
educational research and educational practice. The model programs that 
are most successful--whether they are directed at increasing the number 
and quality of disciplinary majors or increasing access, at awareness 
and expertise in science among the general public, or at improving the 
number and quality of K20 STEM teachers--bring together stakeholders 
and expertise from disciplinary, pedagogical, and educational research 
domains. In addition to housing the resources necessary to improve 
undergraduate STEM, scalable, adaptable models of educational reform 
exist within universities that simultaneously address the multiple 
goals and challenges of the broader STEM education system.
    Successful research-based programs at the University of Colorado at 
Boulder (and others across the nation) demonstrate that we can increase 
student learning and engagement, include more students, engage STEM 
faculty in educational change, recruit more and better STEM teachers, 
and do so in a sustainable, scaleable, and cost-effective manner.
    The Colorado Learning Assistant (LA) model,\3\ directed by my 
colleague, Professor Otero, is a nationally replicated model for 
simultaneously improving undergraduate learning, recruiting talented 
STEM majors into careers in K-12 teaching, engaging STEM research 
faculty in educational transformation, and scientifically investigating 
these efforts. The model is designed to work in any discipline and 
currently runs in nine science, mathematics, and engineering 
departments at the University of Colorado at Boulder. The key to this 
approach is the experiential learning process, in which talented 
undergraduates (LAs) facilitate course transformation and thereby [earn 
themselves. LAs lead Learning teams of other undergraduate students, 
encouraging them to articulate and defend their ideas, engage with 
inquiry-based activities, and analyze real scientific data--activities 
that have been shown to improve student learning and retention. LAs 
also work with disciplinary faculty to refine course materials and 
instruction-based on student assessment data. To help LAs with this 
process, they take a pedagogical course, which encourages them to 
reflect on, evaluate, and investigate different teaching practices. 
Central to the Colorado LA model is its role in promoting institutional 
change. The LA model addresses the needs of multiple stakeholders 
including STEM and education faculty, undergraduate students, K-12 
teachers, and university administrators and is flexible to accommodate 
small-scale to large-scale innovations.
---------------------------------------------------------------------------
    \3\ Colorado Learning Assistant Program, see: http://
stem.colorado.edu.
---------------------------------------------------------------------------
    These shifts have doubled and even tripled undergraduate learning 
gains for students in our introductory physics courses. At the same 
time Learning Assistants learn content (performing more similarly to 
our elite graduate students on measures of conceptual mastery), perform 
better in their upper division courses, and demonstrate more 
sophisticated views on the nature of education and teaching. As a 
result of the LA program, we have more than doubled the number of 
physics and chemistry majors getting certified in these hard-to-staff 
subject areas. The program also positively impacts graduate students 
(who are departmentally assigned Teaching Assistants) and future 
graduate students--the bulk of LAs go on to graduate school and carry 
their mastery of content and pedagogy with them. As such, the LA 
program directly addresses the concerns National Research Council's 
Rising Above the Gathering Storm recommendations: 1) more and better 
teachers and 3) educating our best and brightest in STEM education. 
Furthermore this program develops STEM departmental culture and 
promotes the positive and instrumental role that STEM faculty can play 
in education. Because it is a high impact, cost-effective, and easily 
adapted model of institutional transformation, the program has spread 
to institutions throughout the country with the support and the 
endorsement of professional organizations such as American Physical 
Society and the Association of Public and Land-grant Universities, 
discussed below.
    The Science Education Initiative \4\ (SEI) program led by Nobel 
Laureate Carl Wieman provides another model for simultaneously 
achieving two critical steps towards more effective STEM education. 
First, these programs are improving STEM courses at both the University 
of Colorado and the University of British Columbia. More importantly, 
however, this model focuses on shifting departmental culture. The 
program is designed to secure departmental-level commitment (and to 
provide substantial resources) to established, well-defined learning 
goals for students, rigorous assessment of learning, and implementation 
and testing of improved teaching methods for each of its core 
undergraduate courses. Two key features of this approach include 
widespread discussion (and ultimate consensus) among the faculty of a 
department, and employment of department-based science education 
specialists, who bring expertise within the STEM discipline, knowledge 
of education research within the disciplines, and are familiar with 
proven educational approaches and evaluation techniques. The SEI 
partners faculty with each other, and with the educational specialist 
to draw on what is known in the field and make locally relevant and 
meaningful changes based on research. The goal of the SEI is to 
implement course- and department-level transformations that become a 
part of a department's institutionalized practice. Initial results 
demonstrate the potential of such a model: the bulk of faculty in 
several participating departments at two major research institutions 
have engaged in SEI activities; it has fostered a better understanding 
of practices that help students learn and has conducted fundamental 
research in STEM education; and the SEI has positively impacted tens of 
thousands of students in its four year history.
---------------------------------------------------------------------------
    \4\ Science Education Initiative, see http://www.colorado.edu/sei.
---------------------------------------------------------------------------
    University-Community Partnership Models in Informal Science 
Education: Increasing attention is now being paid to the breadth of 
educational opportunities that exist for our students, to the great 
deal of learning that happens outside of formal school hours, and to 
the opportunities for partnerships between universities and local 
communities that can be leveraged inexpensively to be productive for 
all levels of education. The recent National Academy of Education 
study, Time for Learning,\5\ recognizes the importance of out-of-school 
time for K-12. Meanwhile, professional societies and universities have 
been calling for more opportunities for undergraduate research, real-
world internships, service learning, and experiential-based learning 
programs. Partnering universities with community-based K-12 programs 
provides a key opportunity for universities to educate undergraduates 
in innovative ways, while simultaneously addressing challenges of 
under-represented and under-supported students in STEM at all levels. 
We already have replicable models of university-community partnerships 
that bridge the historic divides between the university system and host 
communities, and the public broadly. A long-standing program, initiated 
at the University of California system, UC Links,\6\ serves as a key 
model that has spread internationally with minimal funding or fanfare. 
As part of undergraduate education, students engage in a practicum 
course where they put their university, school-based learning into 
practice in local community center activities designed to improve the 
education, access, and identity of students in local areas, especially 
students from poor and under-represented populations. Project-based 
STEM activities are central to these activities, which have been shown 
to increase interest in teaching careers, increase children's 
performance, and increase college student performance and retention. 
Our own application of this program, Partnerships in Informal Science 
Education in the Community \7\ has improved undergraduate and graduate 
students': mastery of content; interest, understanding, and acuity in 
teaching; awareness of the diversity and challenges in our local 
communities; and abilities to communicate with the public about science 
in everyday language. These programs are also shown to improve the 
communities in which they are embedded. They provide children with an 
increased understanding, interest, and ability in STEM; they, promote 
community agency and ability to engage in STEM educational programs; 
they support the development of community leaders and professional 
development of teachers. All partners benefit by leveraging local 
resources in a cost effective, sustainable, and scalable fashion.
---------------------------------------------------------------------------
    \5\ Time for Learning, http://naeducation.org/
Time<INF>-</INF>for<INF>-</INF>Learning<INF>-</INF>White<INF>-</INF>Pape
r.pdf.
    \6\ UC Links, http://uclinks.berkeley.edu.
    \7\ Partnership in Informal Science Education in the Community, 
http://spot.colorado.edu/mayhew/PISEC/.
---------------------------------------------------------------------------
    These are a subset of the models of institutional support of STEM 
education that reach beyond the narrow vision of making improvements to 
specific courses. As a result of coordinating a broad-scale agenda, 
these programs address the integrated challenges in STEM education, and 
bring together supportive stakeholders at key levels. A variety of 
other models apply similar principles, which include but are certainly 
not limited to recent testimonies before this committee on the Center 
for Integration of Teaching and Learning (CIRTL) and K-12 Engineering 
education (programs at Tufts, Purdue, VaTech, and Clemson), and the NSF 
GK-12 and MSP programs (when well implemented, as per findings of 
recent studies),\8\ and Peer Led Team Learning programs that are 
spreading from chemistry to other disciplines.
---------------------------------------------------------------------------
    \8\ Change and Sustainability in Higher Education, http://
cashe.mspnet.org/.
---------------------------------------------------------------------------
    I do not advocate a one-size-fits-all model of institutional 
change, but rather emphasize the programmatic characteristics, and key 
features that emerge from these successful programs. These features are 
consistent with and build upon effective change models listed in 
section 1:
    Establishment and Articulation of Goals for undergraduate STEM 
education. While broad goals have been established nationally (to 
provide access, inclusion, excellence in STEM disciplines), these must 
be realized in a localized fashion. Programs must clearly establish 
their goals, and mechanisms for achieving those goals. A significant, 
positive, and dramatic shift has been to focus on these goals and 
outcomes rather than on strictly mandating process (like seat-time or 
credit-hours for students). ABET \9\ 2000 provides a key example of 
this successful shift, as does the European approach in the Bologna 
Process \10\ to coordinate efforts in Higher Education.
---------------------------------------------------------------------------
    \9\ ABET 2000, http://www.abet.org/.
    \10\ Bologna Process, http://www.bologna2009benelux.org.
---------------------------------------------------------------------------
    Programs based on valued scholarship. Making a scholarship of our 
educational practices supports the use of effective research-based 
programs in locally meaningful ways. The explicit inclusion of 
disciplinary-based educational researchers (within university STEM 
departments), in partnership with educators and community members, is a 
particularly effective mode of bringing about scholarly change. The 
STEM fields, especially in departments at research institutions, should 
measure and value their educational pursuits to the same extent that 
they measure and value their research pursuits.
    Participation and support of stakeholders at a variety of levels. 
Distributed expertise is needed to stimulate improved undergraduate 
instruction. Successful programs bring together students, faculty, 
administrators and often community members in creating sustained 
programs. Again, disciplinary-based education researchers provide a new 
model and instrumental resource for leading such change. At the same 
time, key reward structures are required to insure inclusion and 
enthusiasm of appropriate stakeholders at all levels.
    Departments as are key levers of change. A variety of institutional 
structures can be employed in the transformation of undergraduate 
education. A key unit of change will be individual courses in STEM 
education, but to sustain these changes requires broader thinking. It 
is faculty, departmental and institutional culture, vision, policies, 
and structures that ultimately sustain the new practices in 
undergraduate STEM education.
    Evaluation that provides formative (and corrective) assessment of 
programs will ensure relevance and evidence of success. These 
evaluations must be aligned with the identified goals at each level of 
the intended transformation (learning goals for the students, faculty 
engagement, sustained institutional transformation, and scaling of 
programs nationally).

3. Who is at the table and how do we act to improve undergraduate STEM 
        Education?
    Because our educational problems are not isolated, our solutions 
need to be integrated. We must act across scales of the educational 
system, from individual students and faculty to departments, 
institutions, and disciplinary societies, from K-12 teachers to 
districts and states. Again models of programs from the prior sections 
provide key insights into factors that enable quality transformation of 
undergraduate education in STEM, dramatically increase the number of 
majors, and significantly enlarge the pool and quality of STEM 
teachers.
    National societies have played important roles in addressing these 
integrated problems and associated solutions. Physics provides a good 
example. With its internationally recognized Physics Teacher Education 
Coalition,\11\ the American Physical Society (APS), in collaboration 
with the Am. Association of Physics Teachers (AAPT) and the Am. 
Institute of Physics, has acted on its main educational mission--
increasing the number and quality of physics teachers. APS's second 
educational mission, doubling the number of physics majors, is 
intimately coupled with its mission to improve teacher education at all 
levels. The disciplinary societies also recognize the key role that 
discipline-based education research plays. Starting in the 1970s 
faculty in physics started offering Ph.D.'s to physicists for work in 
education research; in the 90s APS endorsed physics education research 
within departments, supporting the creation of this sub-discipline. APS 
and AAPT have been empowering departments to engage in the educational 
research and reform to simultaneously recruit and prepare more teachers 
and to recruit more students into the major. The University of Colorado 
at Boulder is a prime example of this approach; without the physics 
education research group our students would not be learning as much. 
APS and AAPT have been a key supporters in building this discipline-
based education research group and the field more broadly.
---------------------------------------------------------------------------
    \11\ American Physical Society's, Physics Teacher Education 
Coalition, http://www.ptec.org.
---------------------------------------------------------------------------
    More recently, and following APS model, the Association of Public 
and Land-grant Universities has launched it's Science and Mathematics 
Teacher Imperative.\12\ Representing one of the largest coalitions of 
university presidents, chancellors, and provosts in the U.S., this 
organization brings together 121 institutions that are committed to 
doubling the number of high quality physics and chemistry teachers. 
They are part of the Educate to Innovate solution in K-12. They 
recognize the critical role that Universities play in national-scale 
educational change in both undergraduate education and teacher 
recruitment and preparation. This organization is moving universities 
to improve undergraduate STEM education by identifying effective models 
and practices, enacting and applying research on educational change, 
and creating value for institutional participation in these broad-scale 
challenges.
---------------------------------------------------------------------------
    \12\ Association of Public and Land-grant Universities, Science and 
Math Teacher Imperative, http://teacher-imperative.org.

---------------------------------------------------------------------------
            These are the seeds of change.

    These are efforts that are beginning to unlock the latent potential 
of universities to address the integrated challenges that face us in 
STEM education at all levels. By leveraging significant and targeted 
Federal funding (in the $1Bs) we can engage the resources ($100Bs) that 
reside, largely inert, in our university system to improve STEM 
education. Universities are established as institutions of Higher 
Education; faculty are hired and given salary to simultaneously develop 
new knowledge and to share this knowledge with the public--through 
education. Recent studies demonstrate that faculty are committed to 
education--they spend tremendous time and resources on their teaching 
pursuits. We need to ensure that these faculty practices are aligned 
with our understanding of student learning. We need to establish 
institutional resources that support faculty engagement in meaningful 
educational experiences. And, we need to shift institutional reward 
structures, modestly, to support this scholarly approach to STEM 
education.

            Long term and Federal support are critical.

    The National Science Foundation (NSF) provides an excellent model 
in providing both funding and prestige (imprimatur) to effect change. 
NSF can allow scientists, engineers, mathematicians and educators alike 
to engage in STEM education research and reform.
    How might NSF and other Federal agencies take steps to enhance the 
value (prestige) for the essential levers of change?
    At a small but critical scale, programs that bring key individuals 
to the table, that engage scientists in the scholarly pursuit of 
education, are vital, in my own field, the story of success can be 
traced, in part, to key individuals who have received essential NSF 
support, which has provided needed prestige and funding. In the NSF 
Distinguished Teaching Scholars (DTS) program, faculty are recognized 
for their commitment to scholarship in traditional areas of science and 
science education. Other NSF programs achieve similar goals, CAREER, 
PFSMETE, GRF's, simultaneously provide a cache and financial resources 
for basic research and innovation in education. These award winners 
bring about change in education. My own work in education was started 
with a PFSMETE. Later, a CAREER award provided essential infrastructure 
to support our research group, now one of the largest of its kind. This 
type of funding has allowed me and other scholars to engage in 
fundamental education research and reform--that high risk, high reward 
research that is the hallmark of American innovation.
    Because NSF applies a scholarly review to education funding, it 
emphasizes a scholarship of educational research, reform, and practice. 
NSF supports a scientific approach to conducting STEM education 
research and reform, and supports and rewards individual scholars with 
its high status reputation. Other agencies should adopt such review 
procedures. Key NSF programs, in addition to those listed above (DTS, 
CAREER, PFSMETE, GRFs), have supported individuals in the development 
of educational research in STEM and associated reforms. These include 
but are not limited to CCLI, REESE, DR-K-12, education efforts within 
STEM directorates, and Noyce. However, due to lack of funding high 
quality, innovative programs, some that review well and draw on and 
contribute to educational research are often not supported. With 
funding rates of 10% in some areas, quality programs, those that 
contribute to our educational solution, are not getting funded. These 
programs, and others that allow for both research and reform at 
multiple levels (such as MSP, and potentially Noyce) should be 
supported more substantially. Further, excellent programs like Noyce 
are too limited to allow for creativity in models for preparing and 
supporting teachers. While I recommend the continuation of such 
funding, I also recommend that flexibility be increased so that 
educational researchers can develop and test new models of teacher 
preparation and the intimately linked roles of undergraduate STEM 
education.
    Meanwhile sustained Federal support is a characteristic of other 
Federal Departments that should be adopted by the NSF. As noted in 
Gathering Storm, U.S. infrastructure suffers from a ``recurring pattern 
of abundant short-term thinking and insufficient long-term investment'' 
(p. 25) A critical challenge of NSF is the intermittent funding. 
However other Federal programs, such as the Department of Energy, have 
recognized the essential role of sustained funding of innovation. This 
Committee can examine the potential for providing continuing funding 
for programs that are proving successful and still require external 
support. Another area of needed focus for NSF is to allow for larger-
scale programmatic efforts--While individual faculty and researchers 
may seed change, larger units are essential to sustained and scaled 
transformation. Funding for larger scale programs such as departmental 
and institutional level transformation are needed. Small examples, such 
as NSF's Innovation through Institutional Integration, are a start. 
This funding is helping support the institutionalization of the 
educational reforms in STEM at the University of Colorado at Boulder.
    Of course the scale of challenge that faces our nation demands a 
yet larger scale response, with more funding. What is needed is a 
cultural shift--within science, technology, engineering and math:

        <bullet>  for STEM departments to take up the mantle of 
        educational reform and assume leading roles in STEM education 
        challenges across all levels,

        <bullet>  for institutions to integrate efforts across STEM 
        disciplines and teacher education programs,

        <bullet>  for professional organizations and societies to 
        assume leadership in endorsing, enabling, and connecting 
        efforts across the nation in reform,

    and for this Committee to catalyze and to endorse both in name and 
in action (funding) these key stakeholders in improving STEM education 
at the undergraduate and at all levels. We know this approach can work; 
it has been demonstrated at a small number of institutions, such at my 
own, the University of Colorado.
    This cultural shift in supporting STEM education may sound 
ephemeral, but it can be the result of a Grand Challenge, where all 
Americans realize their identity and agency in STEM education reform. 
As such, we can return to our roots as a Democracy based on an educated 
citizenry.
    Thank you for your dedication to this critical issue.

                     Biography for Noah Finkelstein
    Noah Finkelstein received a Bachelor's degree in mathematics from 
Yale University and his Ph.D. for work in applied physics from 
Princeton University. He is currently an Associate Professor of Physics 
at the University of Colorado at Boulder and conducts research is in 
physics education. He serves as a director of the Physics Education 
Research (PER) group at Colorado, one of the world's largest research 
groups in physics education. Finkelstein is PI or Co-PI many nationally 
funded research grants to create and study conditions that support 
students' interest and ability in physics. These research projects 
range from the specifics of student learning to the departmental and 
institutional scales, and have resulted in over 70 publications. 
Finkelstein is also a co-PI and a Director of the Integrating STEM 
Education initiative (iSTEM), an NSF-i3 funded program to establish a 
Center for STEM education. Finkelstein serves on five national boards 
in physics education, including: the Physics Education Research 
Leadership Organizing Council, and the Committee on Education of the 
American Physical Society. In 2007 he won the campus-wide teaching 
award and in 2009 he won the campus Diversity and Excellence award.

    Chairman Lipinski. Thank you, Dr. Finkelstein. Now I will 
recognize Dr. Klomparens.

 STATEMENT OF DR. KAREN KLOMPARENS, DEAN AND ASSOCIATE PROVOST 
       FOR GRADUATE EDUCATION, MICHIGAN STATE UNIVERSITY

    Dr. Klomparens. Thank you. Congressmen Lipinski, Ehlers and 
members of the Subcommittee, thank you for the opportunity to 
discuss the importance of graduate education to the future 
success and competitiveness of the United States. I will focus 
my remarks on three areas, the first of which is the importance 
of graduate education to our Nation.
    In the 21st century, knowledge-based economy, the clearest 
path for the country to remain competitive and secure is to 
produce a highly trained STEM workforce equipped with advanced 
and flexible skills across all the employment sectors. Our 
Nation's graduate programs are the major source of such a 
workforce. The number of doctorates awarded in the United 
States has grown an average of 2.5 percent annually for the 
last decade, and the proportion of those in STEM fields has 
also increased. However, this pales in comparison to the growth 
in China, as Chairman Lipinski pointed out earlier. Between 
1985 and 2005, the number of science and engineering doctoral 
degrees awarded in China increased by 700 percent. While the 
actual numbers are not known yet, it is widely presumed that 
China is on a path to overtake the United States as the largest 
producer of Ph.D.'s in sciences, math and engineering. And it 
is not just with China with whom we are now competing. Other 
countries and regions of the world are investing in and 
enhancing their graduate education systems as part of their own 
national economic development strategies, in part by watching 
the success of the United States over the last 50 years.
    Today's graduate students are the future innovators and 
creators of knowledge. They are also the future educators of 
the next generation. The United States will continue to need 
these individuals in a variety of fields not only to remain 
globally competitive but also to address the grand challenges 
we face in areas like energy independence, climate change and 
other environmental issues, food security--in Michigan the 
issue is water--other issues are healthcare, and areas that we 
can't even imagine today.
    A major challenge for the entire U.S. educational system K 
through 12, undergraduate and graduate, is in recruiting and 
retaining a diverse cadre of talented students who are 
interested in and prepared to pursue STEM education.
    The second area is a brief example of Michigan State 
University and what we are doing to try to help improve these 
issues. We enroll approximately 10,000 graduate and graduate 
professional students, including more than 2,000 in the STEM 
disciplines. Eight years ago we embarked on creating a 
professional development program for STEM and other disciplines 
that both complements both the academic curriculum and also 
equips students with additional essential skills such as 
collaboration, conflict resolution, responsible conduct of 
research, communication skills, all in order to be more 
effective leaders regardless of the employment sector.
    Michigan State currently has five STEM education active 
grants, and our STEM faculty and students participate in these 
very actively. Best known of course is the NSF's Graduate 
Research Fellowship program, which provides vital support to 
our outstanding Ph.D. students, and other programs such as the 
Alliances for Graduate Education in the Professoriate allow us 
to focus on developing a competitive and inclusive STEM 
workforce. These NSF programs are critically important for us 
to be able to promote and support continuous improvement in 
STEM graduate education.
    The third area is the policy recommendations that I would 
like to make for the Committee to consider, and the question, 
of course, is how do we collectively enhance and improve STEM 
graduate education? One is by creating better alignment between 
K through 12, undergraduate and graduate education. This is a 
system, and it is a mistake to try to separate these and try to 
handle them differently. We also need to signal career pathways 
to students so that they understand the multitude of career 
options available with a STEM graduate degree. We need to 
continue to institutionalize interdisciplinary research and 
training, not for itself but to solve problems, and we need to 
increase the participation of the U.S. domestic population in 
graduate education, particularly members of underrepresented 
groups.
    NSF is addressing each of these challenges, but Congress 
can further support the vital role of graduate education by 
recognizing and supporting graduate education as a key driver 
of our national competitiveness and innovation strategy; 
supporting the increases to NSF's Graduate Research Fellowship 
program, IGERT program and the Noyce program; reauthorizing 
provisions in the America COMPETES Act such as the Pace 
Fellowship program at the Department of Energy and the 
Professional Science Master's Degree Initiative; and enhancing 
the federal support for doctoral education, particularly 
through traineeships that may be focused on strategic national 
priorities.
    Thus I recommend that Congress consider creating a 
traineeship for doctoral students to prepare future leaders to 
address the complex, interdisciplinary challenges I mentioned 
earlier. And finally, the Committee should consider upcoming 
recommendations from the Commission on the Future of Graduate 
Education, which is formed by the Council of Graduate Schools 
and the Educational Testing Service. These industry and 
academic leaders are exploring the connection between graduate 
education and competitiveness and will release their report on 
April 29.
    In summary, a robust graduate education system is essential 
for our country to continue to prosper. Graduate education in 
STEM fields is particularly important if we are to have the 
future scientists, engineers, college faculty and researchers 
needed to respond to current and emerging national and global 
challenges.
    Thank you very much for the opportunity to testify. I will 
be happy to answer and discuss questions.
    [The prepared statement of Dr. Klomparens follows:]
                 Prepared Statement of Karen Klomparens
    Chairman Lipinski, Congressman Ehlers and members of the 
subcommittee, I am pleased to be part of the panel to discuss the role 
of graduate education and its centrality to the future success and 
competitiveness of the United States. My remarks today will cover three 
interrelated areas: the importance of graduate education as a whole, 
the importance of graduate education in STEM fields focusing on our 
work at Michigan State University, and finally I will share some 
thoughts on policy issues related to the role of graduate education in 
ensuring our nation's continued competitiveness in the global economy.

National Perspective on Graduate Education

    There is a strong link between economic growth and technological 
innovation. Looking ahead, America's prosperity and security in the 
21st century depend upon innovation, scientific discovery and knowledge 
creation (Council on Competitiveness). In the knowledge-based economy, 
the clearest path for the country to remain competitive and secure is 
the production of a highly-trained workforce equipped with advanced and 
flexible skills, capable of operating at the frontier of knowledge 
creation. A major part of the responsibility for such a workforce rests 
on our nation's graduate programs. U.S. graduate schools are the jewel 
in the crown of our educational system attracting the top domestic and 
international students by creating dynamic graduate programs that 
foster research, scholarship and scientific discovery.
    Currently, there are 2.3 million students pursuing graduate degrees 
at the Master's and doctoral levels in arts, humanities, social 
sciences, business, education, sciences and engineering. Approximately 
one-fourth of graduate students are enrolled in a doctoral program 
(Council of Graduate Schools, 2009). In 2007, U.S. graduate schools 
awarded 61,000 doctoral degrees across all fields, including 41,000 
doctorates in STEM fields. At the Master's level, 610,000 degrees were 
awarded across all fields, including 120,000 masters in STEM fields 
(S&E Indictors, NSF, 2010).
    Today's graduate students are the future knowledge creators, 
educators, leaders and experts in a variety of fields. We are going to 
need more of them particularly to address the grand challenges we face 
in areas of energy independence, climate change, health care, cyber 
security and others that we cannot even imagine today. The Bureau of 
Labor Statistics has estimated that one sixth of the fastest growing 
occupations from 2006-16 will require a Master's or Doctoral degree.
    As we look to the future, it is clear that every industrialized 
nation and most developing nations are working to increase their 
research capability because investing in research and education is a 
key driver of economic growth in a knowledge economy. Other countries 
and regions of the world are enhancing their higher education systems 
and in particular their graduate education systems as part of their 
economic development strategies. For example, the Australian government 
has established research and education as a top priority, and backed up 
its commitment with a 25% increase in government expenditures from 2008 
to 2009 (Nature, 2009). China increased its investment in research and 
development by 36 percent from 2002 to 2007 so that it has almost 
caught-up to the U.S. in the share of workers engaged in creating 
knowledge or products (UNESCO). In China between 1985 and 2005 the 
number of science and engineering doctoral degrees awarded increased by 
sevenfold, making China third in the world in terms of overall Ph.D. 
degree production. If trends last recorded in 2006 have continued, it 
is likely that China has now surpassed the United States in the annual 
production of doctorates in the natural sciences, mathematics, and 
engineering (S&E Indictors, NSF, 2010).
    Here in the U.S. there is a great deal of discussion on ways to 
enhance higher education and graduate education in particular. As you 
know, the financial situation has taken a toll on all sectors of our 
economy including higher education. State budgets are particularly 
stressed and states have been disinvesting in graduate education for 
some time. At the same time, as noted above, leaders in many developing 
economies across the globe are investing in graduate education and in 
fellowships for their future STEM leaders. Watching the U.S. over the 
past 50 years convinced them that graduate education is a key factor in 
global economic competitiveness and raising their quality of life. This 
situation is not likely to change in the foreseeable future and creates 
the need for an enhanced role on the part of the federal government to 
ensure that the U.S. continues to have a world-class graduate education 
system.
    A Commission on the Future of Graduate Education was formed by the 
Council of Graduate Schools and Educational Testing Service. The 
Commission consists of leaders from industry and higher education and 
is focused on developing an empirical foundation to support the 
connection between U.S. graduate education and competitiveness and 
innovation. Among other things, the Commission will examine projected 
trends for doctoral and master's degree holders, initiatives in other 
parts of the world focused on enhancing graduate education as part of 
an economic development strategy and suggest proposed actions to ensure 
our continued success. The Commission will release its report and 
recommendations on April 29.
    The House Committee on Science and Technology is in the forefront 
of many efforts to enhance innovation and competitiveness. The upcoming 
reauthorization of the COMPETES Act is an important policy opportunity 
to develop and implement policies designed to ensure America will have 
the brain power we need in the future.

Graduate Education in Science, Technology, Engineering and Mathematics 
                    (STEM)

    Graduate education is a comprehensive system that is inter-related 
with undergraduate education and, in STEM, with postdoctoral training, 
and should be deliberately developed and improved as a system. It is 
connected to undergraduate education through research experiences for 
undergraduates and the role of mentoring as well as through teaching 
experiences in classrooms and laboratories. It is also inextricably 
linked to the research enterprise by its dependence on faculty mentors 
and through connections to postdoctoral trainees.
    Our successful STEM graduate education enterprise faces some 
current challenges. One major challenge is recruiting, retaining and 
developing a diverse cadre of talented students in STEM graduate 
education. We are now experiencing a brain drain as many students are 
capable of pursuing science, but turn to other disciplines for a 
variety of reasons. The ``loss of talent'' begins at the K-12 level. 
This is exacerbated by the failure of our educational system to attract 
STEM professionals into K-12 teaching, with the consequence that there 
is more emphasis on teaching students facts and vocabulary, than on the 
fun and fundamental processes of inquiry and discovery. STEM content 
knowledge and fundamental skills required for graduate education are 
built on the path from K-12 through undergraduate education, master's 
degree education, to doctoral education.
    The ``loss of talent'' continues at the undergraduate level 
creating challenges to the recruitment of qualified graduate students. 
Engagement with ``real-world'' problem-solving and the approaches that 
scientists (broadly defined) use and apply to generate knowledge 
captivates undergraduates and encourages them to explore graduate 
education. MSU engages undergraduates in research through the NSF 
Research Experiences for Undergraduates (REU) program and also through 
our undergraduate research forum (www.urca.msu.edu.) The opportunity to 
engage in research at the undergraduate level is one important step in 
retaining these students, as it provides an opportunity to socialize 
them into the methods and cultures of a discipline. Students often find 
these experiences to be the first in which they can use the knowledge 
gained over years of coursework and apply them to real research 
problems and witness the impact of their work and practices.
    The ultimate goal of graduate education is the metamorphosis from 
an undergraduate student who is the recipient of knowledge (``learning 
about''--Brown and Duguid, The Social Life of Information, 2000) to a 
STEM professional (``learning to be'' IBID) who generates new 
knowledge. This is accomplished by defining and focusing on problems 
that need to be solved and guiding the graduate student in finding 
solutions independently. Quality mentoring is crucial. Research-active 
faculty members know the content areas important to their disciplines 
and share that content by engaging students through active learning in 
classrooms to the much more focused effort that is required for a 
dissertation--a substantial contribution to new knowledge.
    Over the past decade, many national efforts have focused resources 
and time on the improvement of graduate education. For example, the 
Ph.D. Completion Project directed by the Council of Graduate Schools is 
examining bathers to completion of the doctoral degree and developing 
plans and strategies to increase doctoral degree completion in 
partnership with a number of leading universities across the country. 
Graduate education leaders have recognized that one of the most 
important issues to focus on is simply increasing degree completion.
    At the Master's level, the Professional Science Master's (PSM) 
represents the development of an innovative new Master's degree 
designed to prepare future science professionals for careers in 
government, business or the non-profit sector. PSM degrees are designed 
in collaboration with employers and intended to be responsive to 
regional and local workforce needs.
    A PSM initiative at NSF was authorized in the COMPETES Act and 
funds for it were included in the American Recovery and Reinvestment 
Act.
    One of the most effective national initiatives for improving 
doctoral education was the Carnegie Initiative on the Doctorate (http:/
/gallery.carnegiefoundation.org/cid.) No outside funding was provided, 
yet Michigan State University and a host of other institutions engaged 
faculty and graduate students in the improvement of their own programs. 
Two of the lessons learned in this endeavor were that: successful 
lifelong learners ``have a keen sense of how they learn'' (Walker, et. 
al, 2008, The Formation of Scholars: Rethinking Doctoral Education in 
the 21st Century, page 85) and that faculty and students need to work 
together as partners in order to foster change (ibid).

Graduate Education at Michigan State University

    Michigan State University enrolls approximately 10,000 graduate and 
graduate professional students annually. This academic year, 2,185 of 
these students are in the STEM disciplines that cross 6 colleges 
(Natural Science, Engineering, Agriculture and Natural Resources, Human 
Medicine, Osteopathic Medicine, and Veterinary Medicine). In the 2008-
09 academic year, MSU granted 501 graduate degrees in the STEM fields. 
MSU also has a living-learning environment in our Lyman Briggs College, 
a residential college focused on STEM undergraduate education that 
deliberately links the fundamental scientific and mathematical context 
of their individual disciplines with the societal context of science. 
Faculty members use the research-validated pedagogical techniques and 
technologies; students are active participants in the classroom. 
Students learn to analyze the way scientists think about research 
questions and also how scholars in other fields evaluate the methods 
and conclusions of scientists. This College is the longest running such 
entity on a research-extensive university campus and participates as a 
partner with the Graduate School to expose graduate students to 
teaching practices.
    MSU is the only university in the U.S. with three medical schools 
on campus (Human Medicine (MD), Osteopathic Medicine (DO), Veterinary 
Medicine (DVM) that are connected to the basic life sciences and 
research (College of Natural Science) via jointly appointed faculty. 
Many of our College of Natural Science faculty members are also 
connected to the College of Agriculture and Natural Resources through 
joint appointments. This model, built on our land-grant tradition, 
contributes to our success in preparing a competent STEM workforce for 
the 21st century.

Preparing Graduate Students for 21st Century Careers

    While many graduate students desire a career in academia and/or 
research, others pursue opportunities in government, large and small 
corporations, or the non-profit sector. At MSU, we developed an 
approach to professional development that both complements the academic 
program of the students and provides faculty with the tools to adopt 
and adapt our approach to provide this ``parallel'' mentoring in close 
connection to their program curriculum. This professional development 
equips students with the knowledge and skills to be effective leaders 
across employment sectors for the global economy.
    The Graduate School at MSU defines six broad areas of essential 
skills for graduate students and postdoctoral trainees (the Graduate 
School houses the MSU Postdoc Office--an indication of the importance 
of viewing STEM workforce development as a system). These are 
particularly important for the STEM workforce of the 21st century 
across all employment sectors:

        1)  research, scholarship and creative activities (synthesizing 
        and integrating research, using relevant resources effectively, 
        independent critical thinking, managing to completion, 
        sustaining passion for the activity, being a steward of the 
        discipline)

        2)  leadership (not administrators or titles, but rather idea 
        and content leaders with influence, purposefully building 
        learning communities, implement and evaluate solutions, manage 
        people and resources effectively, encourage and support 
        international connections)

        3)  ethics and integrity (including responsible conduct of 
        research and scholarship, confidentiality where appropriate, 
        adherence to professional principles)

        4)  collaboration (with other STEM researchers and with global 
        communities in which research will be applied to solve 
        problems, give and receive constructive feedback, partner with 
        diverse groups, build and sustain networks)

        5)  communication (written and oral and for multiple audiences, 
        apply principles of active and cooperative learning to diverse 
        audiences, share your enthusiasm, practice active listening), 
        and

        6)  balance and resilience (set goals, understand the multiple 
        missions and expectations of your employer, understand your own 
        expectations, negotiate and resolve conflicts effectively, take 
        care of yourself).

    Some of these, in fact, were explicitly defined as key skills by 
industrial boards of advisors for our Professional Science Master's 
degree programs, and apply equally well to doctoral programs. MSU was 
an early adopter of the PSMs, and was the first member of the 
Association of American Universities to develop a number of these 
programs. Others are defined by our faculty themselves when searching 
for new colleagues.
    The Graduate School at MSU offers a variety of pathways for 
master's and doctoral students to gain and hone these skills, while 
simultaneously gaining expanded content knowledge in their respective 
disciplines and preparation to become effective researchers. The CAFFE 
(an NSF-funded initiative described in a later section) model now in 
development at MSU proposes effective ``parallel'' mentoring that 
continues the existing strong disciplinary preparation and provides 
individuals with the expanded skills necessary to meet the U.S. STEM 
workforce needs of the future (http://grad.msu.edu/caffe/).
    To be globally competitive, the U.S. needs STEM graduate-degree 
holders across a variety of sectors: academia, government at all 
levels, business/industry, and non-profits. The Graduate School 
developed a model to help students prepare themselves for these widely 
varying careers. Planning, Resilience, Engagement, and Professionalism, 
or PREP, has run for six years with evaluation data that supports 
calling this a success (http://grad.msu.edu/prep/).
    The basic tenets are:

        <bullet>  planning throughout the graduate program to identify 
        and successfully achieve career goals;

        <bullet>  developing resilience and tenacity to thrive through 
        personal and professional stages;

        <bullet>  practicing active engagement in making important life 
        decisions and in acquiring the skills necessary to attain 
        career goals;

        <bullet>  and attaining high standards of professionalism in 
        research and teaching.

    A calendar of events http://grad.msu.edu/prep/docs/
prepskillsworkshops.pdf helps graduate students, postdocs, and faculty 
plan the most effective use of their time.
    One of the most useful aspects of the MSU model is that it is 
developmental, and is itself based on research on the factors affecting 
doctoral student attrition and completion, the personal and 
professional needs of students at different stages (from entry through 
graduation) of graduate education, and the key skills that employers 
say are crucial for career success. An interactive website for graduate 
students helps them assess where they are today in terms of their 
professional development and plan how to reach their goals in the 
future (http://grad.msu.edu/prep/stages.aspx). We are also engaging 
faculty in the use of PREP as a professional development planning tool. 
The goal of the website is to focus students on specific steps to take 
now and in the future for a successful career. An interactive website 
(publicly available) for graduate students helps them assess their 
current career and professional development, as well as what they might 
need in the future to reach their career goals. Postdoctoral trainees 
also find this site useful as they work with faculty on individual 
professional development plans.

The Post Doctoral Experience

    Across the U.S., many Graduate Schools have an Office for 
Postdoctoral Trainees, often in partnership with the Vice President for 
Research. This is a reflection of the inter-related nature of graduate 
students' and post doctoral researchers' professional development 
needs. In the life sciences, a post doctoral experience is often 
required prior to assuming an academic position, and occasionally also 
for other employment sectors if the focus is exclusively research. 
These postdocs form a vital link in the development of a STEM 
workforce. The essential skills needed, in addition to the expanded 
research experience, is very similar to those described for graduate 
students. In fact, providing programming that mixes the two audiences 
is valuable, especially for the graduate students who may, in fact, be 
informally mentored by postdocs. Appropriate attention to this group of 
individuals on our campuses is an important responsibility.

NSF-Funded Graduate Education Initiatives at MSU

    NSF's Education and Human Resources Directorate programs are 
critically important to universities' abilities to promote and support 
change and improvement in STEM graduate education. In addition, the NSF 
pre-doctoral fellowships are also of vital importance. These provide 
the students with a degree of flexibility that a research assistantship 
does not. They permit the time for students to pursue additional skills 
needed for the careers they choose.
    The NSF-funded initiatives are also vitally important for the 
development of a more inclusive STEM workforce. The AGEP and LS-AMP 
programs (see below) provide needed funding and, as importantly, a 
clear signal from NSF about the value of diverse students. Increasing 
inclusiveness in the STEM population at the highest levels of education 
is fundamental to ensuring the stewardship of the disciplines and their 
impact on U.S. competitiveness and innovation.
    Similarly, the IGERT training grants also provide flexibility and 
the required program components that help the student with additional 
skills development that are important for career success. Internship 
opportunities, graduate level study abroad programs, and interactions 
with external (non-academic) boards of advisors are key activities for 
graduate student skill and knowledge development. IGERT and other 
fellowship programs provide some of the needed guidance and time/
flexibility for students to develop these additional skills.
    As an example of the power of these collective programs, MSU is now 
connecting five NSF-funded initiatives, all of which are focused on 
creating a competitive and diverse STEM workforce for the future. Our 
recently funded Innovation through Institutional Integration grant from 
NSF, Center for Academic and Future Faculty Excellence (CAFFE), brings 
together the NSF-funded human resource initiatives at MSU (http://
grad.msu.edu/caffe/).
    The CAFFE initiative brings pedagogical research for effective 
teaching and learning across employment sectors to our STEM faculty, 
graduate students, and postdoctoral trainees. Future faculty members 
must have an opportunity to develop as effective teachers, as well as 
researchers, in order to most effectively prepare the diverse STEM 
workforce of the future. Graduate students on research assistantships 
for most (or all) of their graduate careers do not always have the 
opportunity to develop these skills. CAFFE provides a menu of 
professional development opportunities for use in parallel (to the 
research activities) mentoring of students for success and for multiple 
career options. The NSF initiatives included in CAFFE are:
    Alliance for Graduate Education and the Professoriate: http://
grad.msu.edu/agep/. AGEP supports recruitment, retention, and 
graduation of U.S. students in doctoral programs to promote changes 
that transform U.S. universities to embrace the responsibility of 
substantially increasing the number of students from under-represented 
U.S. populations who will pursue academic careers in STEM and SBES 
(social, behavioral, and economic sciences) disciplines. Our Michigan 
Alliance (Michigan State University, University of Michigan, Wayne 
State University, and Western Michigan University) developed an active 
collaboration that works well to engage students in a supportive 
learning community with opportunities for professional development and 
socialization into doctoral education, along with national network 
connections
    FIRST IV (for postdoctoral trainees): Faculty Institutes for 
Reforming Science Teaching: https://www.msu.edu/first4/. FIRST is a 
national dissemination project designed to reform undergraduate science 
education through professional development of postdoctoral trainees as 
competent instructors with an understanding of science-based pedagogy 
and how that influences student learning. International postdoctoral 
trainees in particular, bring excellent research skills to our 
laboratories, but often have had no opportunity to engage in teaching 
or to think about how students learn and how teaching influences 
learning. This program is an innovative and effective way to bridge 
that gap.
    Center for the Integration of Research, Teaching and Learning 
(CIRTL) (UW-Madison, lead): http://www.cirtl.net/. CIRTL is a growing 
national network of institutions seeking to improve the learning of 
students at every college and university, and thereby increase the 
diversity in STEM fields and STEM literacy of the nation. CIRTL uses 
graduate education as the leverage point to develop a national STEM 
faculty committed to implementing and advancing effective teaching 
practices. (see Professor Bob Mathieu's testimony).
    ADVANCE (recruitment and retention of women faculty in STEM): 
http://www.adapp-advance.msu.edu/. The goal of ADVANCE is to strengthen 
the scientific workforce through increased inclusion of women in STEM.
    LS-AMP: Louis Stokes Alliance for Minority Participation: http://
www.egr.msu.edu/egr/departments/dpo/programs/milsamp/. With the same 
alliance partners as AGEP, the goal of this program is to significantly 
increase the number of under-represented minority students earning 
baccalaureate degrees in STEM fields and prepare them for entry into 
graduate programs.
    In addition, MSU operates an NSF-funded GK-12 grant (at our Kellogg 
Biological Station, http://www.kbs.msu.edu/education/k-12-partnership/
gk-12-program) that provides funding for graduate students in NSF-
supported STEM disciplines to bring their leading research practice and 
findings into K-12 learning settings. The graduate education community 
is interested in learning more about how graduate students, K-12 
teachers and K-12 students benefit from this program.

Lessons Learned Through NSF Funded Graduate Education Programs

    There are two important lessons-learned from these NSF-funded 
initiatives at MSU: first, education research on effective environments 
and processes for STEM undergraduate and graduate education are likely 
to be believed and adopted by STEM faculty only when the research is 
either done by those STEM faculty members themselves or in close 
collaboration with them. STEM faculty members expect and respect a high 
level of rigor in research. Education research must be shared, 
explored, reviewed, and vetted in the science and engineering 
disciplinary communities to have an impact. Lack of the connection 
between the research generation and those who would need to implement 
it represents a major barrier to implementing improvements. On our 
campus, a few active research scientists also conduct research on 
scientific teaching methods and use these in their undergraduate 
classrooms. Those faculty members are changing their colleagues methods 
and practices, as well as sharing with postdocs and graduate students 
(collectively, our future faculty), who are open to learning.
    Second, the key barrier to implementing an effective learning 
environment and activities for STEM graduates across the employment 
sectors is most often, simply, time. The graduate education system, as 
described above, is inextricably connected to faculty research 
programs. Learning to be an effective STEM researcher which is the goal 
of a doctoral program, requires intense, focused time. It is not simply 
additive to the coursework. It is not something students have had 
enough opportunity to learn through K-12 or undergraduate education. 
The competition for research grants is intense and based in large 
measure on the prior productivity and generation of data. It is often 
easier, and less time-consuming, for faculty to stick to the 
traditional models, of educating graduate students, than to invest the 
time to learn and adapt a new method. That level of time and creativity 
is invested in the research enterprise.

The Importance of Interdisciplinary Training

    Interdisciplinary training is a key component of graduate education 
and in the preparation of the future highly skilled workforce the U.S. 
needs to remain competitive in the global economy. This is a mantra 
that many individuals discuss, but the implementation is clearly not 
trivial.
    ``Global changes have created an important transitional moment for 
higher education, one that is redefining the nature and the context for 
teaching and learning; for research, scholarly, and creative 
activities; and for the outreach and engagement missions of our 
universities and colleges. The challenges now confronting the nation 
and the world underscore the need for higher education institutions to 
engage, with passion, intention, and innovation, as engines of societal 
growth and transformation. There is a need for a continued research and 
educational focus on problems that span the boundaries of disciplines, 
nations, and cultures. Because higher education institutions are 
intimately linked to societal growth and transformation, they can help 
create and instill both the basic and applied knowledge that provides 
opportunities for all peoples and nations to achieve a heightened state 
of social and economic well-being and sustainable prosperity.'' 
(Michigan State University President Lou Anna K. Simon; http://
worldgrant.msu.edu/).
    One of the strengths of STEM disciplines at Michigan State 
University is the openness to integration with the social, behavioral, 
and economic science disciplines in both training and research. Faculty 
and leaders acknowledge that the social sciences are a catalyst for the 
adoption and implementation of important STEM advances. The current 
grand challenges facing the U.S. (e.g., energy independence, climate 
change, the bioeconomy, health care, etc.) depend on the contributions 
of social, behavioral, and economic scientists to maximize the impact 
of new discoveries in the STEM disciplines. The most effective 
investments in STEM education and research focused on solving real-
world problems will include social science disciplines as partners. In 
addition, research from the social sciences on how the human mind 
interprets, stores, organizes, and retrieves information should be 
connected to the development of effective pedagogical practices in 
STEM. Again, to be effective and outcomes-oriented this requires 
considerable time and focused attention by faculty and their graduate 
students and postdocs to work across disciplinary boundaries and to 
focus on the nexus between research and initiatives in both STEM and 
policy arenas.
    Importantly, interdisciplinary study and approaches, especially 
those that span very different disciplinary approaches, require more 
time investment by individuals and over a longer period for success. 
Institutional support and recognition of this is requisite for faculty 
and graduate students to engage for the long term. Funding agencies 
must also recognize and reward this fundamental difference between a 
narrowly-focused research topic and one that is interdisciplinary in 
nature.

Summary

    In summary, U.S. graduate education is a strategic national asset. 
A robust graduate education system across all fields is essential if 
our country is to continue to prosper in the future. Graduate education 
in STEM fields is particularly important if we are to have the future 
scientists, engineers, educators in higher education, and knowledge 
creators we need to respond to current and emerging global grand 
challenges in energy independence, climate change, health care, cyber 
security and others.
    Some of the major challenges we face in improving graduate 
education include:

          recognizing and supporting graduate education as a key 
        driver of competitiveness and innovation

          creating better alignment between K-12, undergraduate and 
        graduate education and signaling career pathways to students to 
        achieve a better understanding on their part about the 
        multitude of career options associated with a graduate degree

          recognizing the importance of interdisciplinary research and 
        training and adequate support for successful outcomes by 
        funding agencies

          continuing to provide opportunities for success for an 
        inclusive population of students so that their representation 
        in graduate education begins to approach their percentage in 
        the U.S. population.

    Graduate programs at NSF including the IGERT and GRF programs are 
critical. I strongly encourage continued support for these programs as 
proposed by the Administration and supported by this Committee. 
Additionally, I encourage the Committee to consider the need for an 
additional federal graduate traineeship program as described in the 
recommendations below.

Recommendations:

    As the Subcommittee prepares for reauthorization of the COMPETES 
Act, I ask that you address the vital role of graduate education as a 
key driver in developing the intellectual leadership necessary to 
compete effectively in the global economy:

          Retain current provisions in the COMPETES Act that support 
        graduate education.

    The current statute supports a number of graduate education 
programs including the Protecting Americas Competitive Edge (PACE) 
Fellowship program at the U.S. Department of Energy, the Professional 
Science Master's degree (PSM) at NSF and increased in funding levels 
for the NSF IGERT and GRF programs. I ask that all of these provisions 
be retained and supported in the upcoming reauthorization.

          Consider the need for a new traineeship program for doctoral 
        students to prepare future leaders to address grand challenges 
        in health care, energy independence, climate change, cyber 
        security and other areas.

    State government budgets are not likely to rebound anytime in the 
foreseeable future and there is a pressing need to enhance the federal 
role in supporting graduate education, particularly at the doctoral 
level. While all forms of support are important, traineeship programs 
offer several advantages. Traineeship funds are awarded on a 
competitive basis to institutions which in turn award fellowships to 
doctoral students. Funds may be targeted toward strategic national 
priorities and mission objectives rather than dispersed across a 
variety of research paths chosen by individual students or individual 
Project Investigators (Pis). Given the fiscal constraints facing the 
country, the opportunity to target funding for the preparation of new 
talent to areas of known national need offers a clear advantage.

          Review and consider the forthcoming recommendations from the 
        Commission on the Future of Graduate Education.

    Particular attention should be paid to those that relate to 
enhancing traineeship opportunities for doctoral students and enhancing 
support for Professional Master's programs building off the success of 
the Professional Science Masters (PSM) degree.

Recommendation on IGERT grants

    NSF should convene an annual meeting of graduate deans and 
interested STEM faculty and administrators to share best practices and 
challenges related to the institutionalization of IGERT-supported 
professional development and approaches to interdisciplinary research. 
Attendees for this meeting should include IGERT Principal 
Investigators, interested STEM faculty and administrators across higher 
education, IGERT and non-IGERT graduate student representatives, and 
postdoc representatives. The transformational promise of IGERT grants 
for interdisciplinary research and workforce development should be made 
transparent in order to encourage successful dissemination. The 
intended outcome of the meetings is the explicit sharing of ``lessons 
learned'' from IGERT institutions in order to identify possible 
programmatic changes to enhance graduate student support and to 
encourage change in approaches to interdisciplinary research.
    Thank you for the opportunity to share my views about central role 
of graduate education in supporting our national innovation enterprise.

                     Biography for Karen Klomparens
    I serve as Dean of the Graduate School and Associate Provost for 
Graduate Education at Michigan State University and have done so since 
1997. As a Professor of Plant Biology (specifically mycology) and 
especially as past Director of Michigan State University's Center for 
Advanced Microscopy--the core facility for electron, confocal, and 
scanning probe microscopy--I worked with graduate students across the 
STEM disciplines during my 32 years as a faculty member at MSU. Prior 
to becoming Assistant Dean for Graduate Student Welfare in 1994, I was 
a Fulbright-supported fellow during a sabbatical at the University of 
Cambridge, England where I worked with two of the foremost electron 
microscopists at the time. In 1998, with the important intellectual 
contributions of my Graduate School colleagues, we developed a program 
on ``Setting Expectations and Resolving Conflicts in Graduate 
Education.'' A monograph, published by the Council of Graduate Schools 
in 2008, plus current training sessions around the U.S. and Canada 
widely disseminate the key concepts and training methods for this 
important skill for career success. To contribute ideas and energy to 
the national discussions and actions related to graduate education, I 
served a two-year term as the Chair of the Big Ten (CIC) graduate deans 
group, three years on the Executive Committee and five years on the 
Board of Directors for the Council of Graduate Schools, two years on 
the Professional Science Master's Board of Directors, two years of 
service on the GRE Board, two years on the Executive Committee of the 
Association of Graduate Schools (AAU).

    Chairman Lipinski. Thank you, Dr. Klomparens. I now 
recognize Dr. Mathieu.

    STATEMENT OF DR. ROBERT MATHIEU, PROFESSOR AND CHAIR OF 
 ASTRONOMY, DIRECTOR, CENTER FOR THE INTEGRATION OF RESEARCH, 
   TECHNOLOGY AND LEARNING, UNIVERSITY OF WISCONSIN, MADISON

    Dr. Mathieu. Chairman Lipinski, Ranking Member Ehlers, and 
distinguished members of the Committee, thank you for inviting 
me to present this statement on the importance of preparing our 
future STEM faculty so that American college graduates have the 
skills to lead a high-technology, globally competitive diverse 
workforce.
    Currently there is little teacher preparation in higher 
education. Those who can do research well receive Ph.D.'s and 
then teach. To the credit of deeply committed higher education 
faculty and students everywhere, much learning does occur, but 
we can do much better, especially to advance the STEM knowledge 
and skills of the Nation broadly.
    Currently we waste national investments in education 
research. I agree with Dr. Finkelstein; we have learned a 
tremendous amount about how to improve STEM learning and 
retention, and no small part is a result of NSF funding. Our 
challenge is how to broadly implement these practices. Much of 
the answer lies in introducing this knowledge early to the 
future national STEM faculty. As we both went to Berkeley, Dr. 
Ehlers, I look forward to sharing opinions on our preparation 
for teaching.
    Furthermore, we are not retaining students in STEM and 
especially women and minorities. Research findings are clear; 
classroom experiences are central to attrition from STEM fields 
in higher education. Ninety percent of those who switch out of 
STEM cite poor teaching as their primary concern, as do in fact 
three quarters of those who stay in STEM. Again, change in 
retention lies in the preparation of the future STEM faculty.
    The critical leverage point for change in STEM higher 
education is the training in teaching and learning of graduate 
students at research universities. They are the future STEM 
faculty of the United States.
    Furthermore, only 100 research universities produce 80 
percent of all doctoral degrees. As such, they produce the 
faculty members of our 4,000 colleges and universities. This is 
a 40-to-1 leverage point for investment of federal funds.
    Research universities are the lever toward a STEM faculty 
at all colleges and universities across the Nation to have the 
ability to enhance the learning of every student.
    Fortunately, the improvement of teaching rests upon 
answering a research question, and that question is simply, 
what have my students learned? This idea enables the Center for 
the Integration of Research, Teaching and Learning to place 
improving undergraduate education in a research context in 
which the STEM faculty are already comfortable and skilled and 
thereby able to foster their active engagement in advancing 
their own students' learning.
    This idea works. The prototype of CIRTL is the Delta 
Program in Research Teaching and Learning at the University of 
Wisconsin-Madison. Since opening in fall 2003, over 1,900 STEM 
graduate students, post-docs and faculty have advanced their 
students' learning via the Delta program. To get back to Dr. 
Finkelstein's point, the recognized impact of this program on 
both future and current faculty at UW Madison is demonstrated 
by the fact that now, the Delta program, which was begun with 
NSF funding, is entirely supported by the UW Madison.
    We need similar outcomes at all of the highest producing 
100 universities. As a first step, we have created a prototype 
CIRTL Network of six major research universities: Howard 
University, Michigan State University, which was the founder of 
CIRTL, Texas A&M University, Vanderbilt University, the 
University of Colorado at Boulder, and the University of 
Wisconsin at Madison.
    Based on these experiences, these are, respectfully, my 
three policy recommendations for how this Committee might 
launch a national mission to prepare the STEM faculty of the 
United States. First, fund a federal/university partnership. 
Ultimately CIRTL's success at UW Madison spoke for itself, but 
at the beginning, it was the NSF funding that provided the 
resources and equally importantly, the legitimacy to change the 
status quo. The imprimatur of NSF remains key as we recruit 
each new university into the CIRTL network. A federal 
investment on the order of $100 million over five years would 
establish, for example, CIRTL programs at 100 universities. 
Once established, their integration into graduate education 
will yield a sustained investment in preparation of the STEM 
faculty.
    Second, modify reward structures by integrating research 
and teaching and learning funding. In 1996, the Shaping the 
Future Report wrote research directorates--this was the key--
research directorates should expand resources for educational 
activities that integrate education and research. This counsel 
still rings true. The call for broader impacts at NSF has been 
an absolutely critical lever to integrate research, teaching 
and learning into the culture of universities and their 
faculty, to adjust the reward systems of universities and to 
shape faculty whose members are both excellent researchers and 
superb teachers. The major impacts of the CAREER awards, of the 
REU programs, of the Howard Hughes Medical Professorships, all 
show that our strategic goals in higher education can be 
achieved through programs that are integrated with research 
funding, and by this I mean STEM disciplinary research funding.
    And finally, leadership. I urge this Committee to charge 
and fund the entire NSF, not just EHR, the entire NSF to 
explicitly and proactively take on federal leadership and 
responsibility for a new national mission of improving 
undergraduate STEM education through preparation of our future 
faculty.
    The America COMPETES Act is one of the most important 
pieces of recent legislation with respect to developing the 
STEM competency of the United States. You are to be 
congratulated for its success and for your wise consideration 
of its reauthorization. Now is the time to build a new national 
program--indeed, a mission--to prepare the Nation's future 
faculty to be both superb researchers and excellent teachers. 
In these tight fiscal conditions, the 40-to-1 leverage point of 
graduate education for preparing the teachers of our college 
students has never been more compelling.
    Thank you for the opportunity to share these thoughts about 
improving the quality and effectiveness of STEM higher 
education through advances in graduate education. Thank you.
    [The prepared statement of Dr. Mathieu follows:]
                  Prepared Statement of Robert Mathieu
    Thank you Chairman Lipinski, Ranking Member Ehlers, and members of 
the Committee, for inviting me to present this statement on the 
importance of STEM faculty preparation in teaching and learning so that 
American college graduates will have the skills to lead a high-
technology, globally competitive, diverse workforce.

I. Opening Thoughts

    The call for a more scientifically literate society is a constant 
drumbeat coming from industry leaders, from reports of concerned 
organizations like the National Academy of Sciences, from the 
mainstream media, and from Congress and the White House. I commend the 
members of this committee for urging the National Academies to examine 
the key actions that federal policymakers could take to enhance the 
science and technology enterprise. The Rising Above the Gathering Storm 
report of the National Academy brought this issue to the front of our 
discussions about global competitiveness. In this report, the challenge 
is seen properly as a pipeline issue, with substantial improvement 
needed every step of the way from K-12 through higher education through 
life-long learning.
    Currently, we--quite rightly--invest many billions of dollars into 
improved K-12 teacher preparation. We then send many of the students 
from that pipeline into college classrooms with faculty1 \1\ who are 
dedicated to their students' learning but who often have little or no 
preparation in teaching. There is virtually no ``teacher preparation'' 
model in higher education. Those who can do research well receive 
Ph.D.'s, and then teach. To the credit of deeply committed higher 
education faculty and students everywhere, much learning has occurred. 
But I do not believe that we can continue in this way if we want to 
truly advance the STEM knowledge and skills of the nation broadly.
---------------------------------------------------------------------------
    \1\ Throughout this statement, ``faculty'' is intended to broadly 
comprise all teachers in higher education.
---------------------------------------------------------------------------
    Furthermore, this model is inefficient and wastes national 
investments in education research. We have learned a tremendous amount 
in the past decade about how to improve STEM learning and retention, in 
no small part as a result of National Science Foundation (NSF) funding. 
Our challenge is how to scale up best practices, and clearly a major 
component of the answer lies in our preparation of the future national 
STEM faculty.
    Research shows that currently very few STEM faculty are aware of or 
employ findings of research about teaching in their classroom 
instruction. This is not stubbornness or lack of interest--the reality 
is that our higher education system does not adequately promote or 
reward either pre-service or in-service faculty development. In fact, 
the weight of external research funding has tipped the scales of reward 
at universities--and increasingly more often at colleges--strongly 
toward funded research activities. Any associated gains in the teaching 
and learning of undergraduates are seen as collateral, albeit very 
real, benefits. Without a change in both message and rewards we are 
assured of replicating the current system, which has been 
extraordinarily successful in producing an invaluable scientific elite 
but much less successful in developing STEM skills broadly.
    Equally important, it stretches credibility to think that an 
unprepared faculty will succeed in teaching our ever more diverse 
student population, and especially those who may be at risk to leaving 
STEM. No matter how well K-12 preparation of diverse students may be, 
we then place them in university classes and research environments with 
faculty who often have no preparation to enable them to continue to 
succeed. In this regard I am sure that we have a great deal to learn 
from our K-12 and two-yr/technical college colleagues. I say this both 
because of their greater experience and knowledge in teaching diverse 
student populations, but also because we must align the diversity 
efforts in K-12 with those in higher education.
    Finally, without changing faculty preparation I think it is 
unlikely that STEM higher education will have as much impact on growing 
our STEM workforce as could be possible. Broadly speaking, faculty are 
little aware of their impact on student career choices outside 
academia. I am a firm believer in a liberal education, and I do not 
think that STEM education at the university level should be primarily 
vocational in nature. But too often current faculty diminish interest 
in non-university STEM vocations by our role modeling.
    As one example, we know that the nation is desperately in need of 
more STEM teachers at the 5-8 level, and physical science teachers at 
the 9-12 level. Research is showing that students--and often the very 
strongest students--enter college with an interest in STEM teaching, 
but soon lose that interest for many reasons. Some of those reasons are 
in the college classroom. The value of K-12 teaching as a noble and 
valuable endeavor is not reinforced in STEM classes; the clear message 
is the preeminence of great discoveries. Research shows that this has a 
significant impact on moving the strongest students out of the STEM 
teacher pipeline. What an impact we can have if we were intentional 
about recognizing the potential pre-service teachers in our classes, in 
both their learning opportunities and in our actions. (See testimony 
and the Learning Assistant program of CIRTL colleague Prof. Noah 
Finkelstein.)
    To summarize, successes in national STEM literacy, in diversity, in 
K-12 teacher preparation, and in development of the STEM workforce will 
only happen intermittently if left to chance. We must be intentional in 
our faculty development, and especially in the preparation of our 
future faculty, to achieve these national goals.
    A critical leverage point for change in STEM higher education is 
the training of doctoral students at research universities. In the 
United States, roughly 100 research universities produce 80% of all 
doctoral degrees, and the vast majority of the faculty members in the 
nearly 4000 colleges and universities of the U.S. pass through these 
research universities. Thus graduate education represents a 40:1 
leverage for improving higher education, and research universities are 
the lever toward a STEM faculty at all institutions of higher education 
with the skills to enhance the learning of each student. The time to 
address this challenge is now. With large numbers of faculty 
retirements, universities and colleges will soon be hiring young STEM 
scientists to replace their ranks.

II. Importance of High-Quality Instruction in Enhancing Engagement in 
                    STEM

    Research findings are clear--classroom experiences are central to 
attrition from STEM fields at the higher education level. In the last 
page of this testimony I provide a table taken from Elaine Seymour and 
Nancy Hewitt's book Talking About Leaving.\2\ Put simply, this book 
reports the findings of interviews of a large sample of undergraduates 
who entered college interested in careers in STEM, too many of whom 
ultimately left STEM majors. The table ranks the primary reasons for 
leaving. The highest concern of all students--those who stayed and 
those who left--is ``poor teaching by [STEM] faculty''. 90% (!) of 
those who switched out of STEM cited poor teaching as a concern, as did 
73% of those who did not leave STEM. Roughly half of those who left 
STEM also cited ``Non-[STEM] major offers better education/more 
interest'' and ``Curriculum overloaded, fast pace overwhelming''. There 
is little doubt that the nature and quality of instruction plays a 
central role in the high attrition rates from STEM fields in the U.S.
---------------------------------------------------------------------------
    \2\ Seymour, E., & Hewitt, N. M. (1997). Talking about leaving: Why 
undergraduates leave the sciences. Westview.
---------------------------------------------------------------------------
    A critical finding of Seymour and Hewitt is that there is little 
difference in the innate capabilities, prior preparation, or initial 
interests of those who left STEM and those who stayed. ``We posit that 
problems which arise from the structure of the educational experience 
and the culture of the discipline . . . make a much greater 
contribution to [STEM] attrition.'' Many scientists and engineers still 
hold to the ideas that `science is hard' and attrition is a consequence 
of insufficient ability, commitment and `toughness'. In truth, too much 
attrition is a consequence of those who hold these ideas.
    Furthermore, attrition is not gender- or race-blind. Carol Colbeck, 
Alberto Cabrera and colleagues have studied extensively the causes of 
attrition among women and minority students. They write:

         The effects of pre-college science programs for girls, 
        recruitment efforts, and extracurricular support programs will 
        be limited if students continue to leave engineering programs 
        because of poor classroom instruction. Ineffective teaching and 
        competitive climates understandably constitute barriers to 
        participation in engineering and science for many students, 
        including women. This study shows that the effects of such 
        barriers are reduced when faculty use collaborative and active 
        learning practices, provide feedback and interact with 
        students, are organized and clear, and treat all students 
        equally and fairly. Therefore, policy and funding efforts must 
        involve the academic core of science and engineering and not 
        just extra-curricular support programs [italics mine].\3\
---------------------------------------------------------------------------
    \3\ Colbeck, C., Cabrera, A., & Terenzini, P.T. (2001). Learning 
professional confidence: Linking teaching practices, students' self-
perceptions, and gender. Review of Higher Education, 24, 173-191.

---------------------------------------------------------------------------
III. The Landscape of Faculty Preparation in Teaching and Learning

    Research universities are the ``normal schools'' for teachers in 
higher education. Ironically, a research university is also the one 
institution of higher education most divided with respect to its 
investments in teaching and research. Put in a positive light, faculty 
at research universities are contributing an important good to society 
through their generation of forefront knowledge. From the perspective 
of this goal, diversion of effort from research is perceived as not 
being strategic or efficient. Put in a more worldly light, 
institutional, disciplinary, and Federal reward systems--tenure, 
promotion, grant funding, awards, salaries--greatly reinforce the 
primacy of superb research over superb teaching.\4\
---------------------------------------------------------------------------
    \4\ It is notable that funding as a component of the reward system 
is moving into even our liberal arts colleges.
---------------------------------------------------------------------------
    At the same time, research universities contribute to society in a 
major way through their mission to teach undergraduates and to train 
the next generation of scholars and citizens. It would be a serious 
error to think that the faculties of research universities are not 
deeply committed to their roles as teachers, and to the learning of 
their undergraduate and graduate students. This life purpose is why we 
are faculty--many of us could pursue research-only positions outside of 
the university, often with much higher compensation.
    Thus graduate faculties are conflicted with respect to the amount 
of time to invest in their teaching relative to their research, 
particularly when most reward systems point toward the latter. 
Furthermore, they often see research and teaching as fundamentally 
orthogonal. This tension is directly imprinted upon graduate students, 
who look to their faculty as role models, as their paths to successful 
careers, and as their employers via research grants. The message sent 
to graduate students is clear: ``teaching is a good thing--research is 
the path to success--don't let teaching get in the way of [your/my] 
success.''
    It thus is no surprise that currently STEM graduate students--the 
future STEM faculty of American undergraduates--receive little or no 
pedagogical training. A typical STEM graduate student may have one, 
perhaps two, semesters as a teaching assistant, usually unmentored and 
almost certainly untrained (beyond perhaps a day of workshops on class 
management issues). The teaching assistant experiences may be similar 
to future classroom teaching (e.g., teaching small discussion 
sections), or they may be little more than grading, tutoring, or lab 
management. Many graduate students, especially those in well-funded 
research programs, will have no teaching experience at all. On this 
experience, they enter their first college classroom as faculty and 
begin to teach.

IV. The Center for the Integration of Research, Teaching and Learning

    a. The Ideas

    The Center for the Integration of Research, Teaching, and Learning 
(CIRTL) is one of two NSF Centers for Learning and Teaching focused on 
enhancing STEM teaching and learningin higher education. CIRTL uses 
graduate education as the leverage point to develop a national STEM 
faculty committed to implementing and advancing effective teaching 
practices for diverse student audiences as part of successful 
professional careers. The near-term goal is to produce a national 
cohort of graduate students and postdoctoral researchers who are 
launching new faculty careers at diverse institutions, demonstrably 
succeeding in promoting STEM learning for all students, and actively 
engaging in improving teaching and learning practice. Ultimately, by 
preparing the next national STEM faculty CIRTL seeks to improve the 
learning of students at every college and university, and thereby to 
enhance the diversity in STEM fields and the STEM literacy of the 
nation. Finally, I stress that graduate students who become both 
skilled researchers and superb teachers benefit the nation broadly, 
whether they go into academia, industry, or government.
    The success of CIRTL rests on aligning and integrating research, 
teaching and learning. CIRTL cuts through the Gordian Knot created by 
the perception of research and teaching as orthogonal. In fact, the 
improvement of teaching is itself a research problem, one that rests 
upon each teacher answering the question ``What have my students 
learned?''. The enhancement of student learning is a question subject 
to the experimental method of hypothesis, experiment, observation, 
analysis, and improvement. Thus my colleagues and I have suggested, and 
now established, that the concept of Teaching-as-Research can play a 
powerful role in engaging STEM graduate students and faculty in the 
improvement of their teaching practice. Our hypothesis is that the 
Teaching-as-Research idea places teaching in a context within which 
STEM researchers are comfortable and skilled (albeit in different 
methods), and thereby fosters their active engagement in advancing 
their own teaching. Importantly, this perspective naturally leads to 
self-sustained, ongoing improvement of STEM education. Like STEM 
disciplinary research, teaching becomes a dynamic, progressive and 
intellectually stimulating activity rather than a static task. Our 
ultimate goal is to develop STEM faculties who themselves continuously 
inquire into, and thereby enhance, their students' learning throughout 
their careers.
    Equally importantly, CIRTL recognizes the reality that existing 
social and educational practices do not always promote equal success 
for all learners. Thus, creating equitable learning experiences and 
environments requires intentional, deliberate and skilled efforts on 
the part of current and future faculty. CIRTL is committed to 
developing a national STEM faculty who model and promote the equitable 
and respectful teaching and learning environments necessary for the 
success of all students and for the reduction of attrition.
    CIRTL actually sets the bar even higher for future STEM faculty. 
Students and faculty all bring an array of valuable experiences, 
backgrounds, and skills to the teaching and learning process. Effective 
teaching capitalizes on these rich resources to the benefit of all, a 
core idea of CIRTL that we call Learning-through-Diversity. Not only 
does this approach benefit the learning of all, it also demonstrably 
enhances the self-perception of value and capability of each student 
with respect to STEM. This is a critical factor in reducing attrition 
from STEM fields.

    b. The CIRTL Prototype

    The prototype CIRTL implementation is the Delta Program in 
Research, Teaching, and Learning at the University of Wisconsin-Madison 
(www.delta.wisc.edu). Since opening in Fall 2003, over 1900 STEM 
graduate students, post-dots and faculty have participated in the Delta 
Program. The disciplinary affiliations of participants are 26% physical 
and mathematical sciences, 44% biological sciences, 20% engineering 
sciences, and 10% social, behavioral, and economic sciences (SSE). 
These frequencies mimic the overall UW-Madison graduate populations in 
these disciplines, except SBE is under-represented. The gender 
distribution among graduate students is nearly equal, which is an 
overrepresentation of women relative to the broader STEM graduate 
student population.
    One of our early findings was the depth of the felt need for a 
program like Delta among the graduate students.\5\ These future faculty 
enter graduate school recognizing the importance of high-quality 
teaching to success in their future careers. Despite the array of 
current cultural and programmatic barriers described above (III), large 
numbers of graduate students insist on finding paths that permit their 
engagement in the Delta Program. Moreover, the percentage of graduate 
student participants who have taken part in more than 30 credit-hours 
of Delta programming has increased from 15% to 34%, arguably the most 
significant measure of their commitment and of the success of the CIRTL 
idea.
---------------------------------------------------------------------------
    \5\ For simplicity, `graduate students' will be intended to include 
post-doctoral fellows. In practice, graduate student participants in 
CIRTL far outnumber post-does.
---------------------------------------------------------------------------
    The programmatic component of Delta comprises interdisciplinary 
graduate courses, intergenerational (graduate students, post-does, 
faculty) learning groups, and Teaching-as-Research internships. The 
program design emphasizes semester-long intervals of engagement, 
building on research showing that such longer-term involvement is more 
transformational. Every facet of Delta is designed around research 
models familiar to STEM graduate students and faculty. The courses are 
project-based, requiring students to define a learning problem; 
understand the student audience; explore the literature for prior 
knowledge in research on teaching; hypothesize, design, and implement a 
solution; and acquire and analyze data to measure learning outcomes. 
Delta internships are research assistantships in teaching, in which a 
graduate student partners with a faculty member to address a learning 
problem, much as they do in their disciplinary research assistantships. 
The Delta activities are designed to provide each graduate student 
participant with a teaching and learning portfolio, letters of 
recommendation, and presentations/publications in teaching and learning 
analogous to those in their disciplinary research curriculum vitae. And 
finally, courses are team-taught by research-active STEM and social 
science faculty and staff. These pairings of STEM faculty with 
education researchers provide powerful combinations of experience, 
theoretical foundation, and--crucially--role modeling for the STEM 
future faculty.
    Recently, the Delta Program has introduced research mentor training 
into its curriculum. Research experiences represent an essential 
component of learning STEM skills and ways of knowing; evidence shows 
that undergraduates who participate in research benefit from engaging 
in experiential learning and report gains in many areas, including 
research skills, writing skills, self-confidence, and intellectual 
maturity. Furthermore, undergraduate research experiences have been 
shown to successfully recruit students, especially minorities, to 
graduate school thereby diversifying the workforce and benefiting the 
entire scientific community. Today almost every four-yr college and 
university points to research experiences (STEM and non-STEM) as a 
central element of their curriculum.
    The success of an undergraduate research experience depends largely 
on a positive relationship between the student and the research mentor. 
Therefore, it is vital that current and future faculty be effective 
mentors. Again, future faculty preparation in mentoring has been 
absent, other than through experiences with their own mentors. Based on 
the Entering Mentoring \6\ curriculum for biology developed with 
funding from the Howard Hughes Medical Institute and supported by NSF, 
we have adapted and implemented purposeful research mentor training 
across STEM. Published data on this training indicate that trained 
mentors are more likely to discuss expectations with their mentees, to 
consider issues of diversity, to use a reflective approach to their 
mentoring, and to seek advice of their peers than their untrained 
colleagues. At UW-Madison, over 350 future and current faculty mentors 
have been trained, and proposals have been submitted to expand this 
program nationally.
---------------------------------------------------------------------------
    \6\ Handelsman, J., Pfund, C., Miller Lauffer, S., and Pribbenow, 
CM. 2005. Entering Mentoring: A Seminar to Train a New Generation of 
Scientists. Madison, WI: University of Wisconsin Press.

---------------------------------------------------------------------------
    c. The Impact on Future Faculty

    Delta is measurably enhancing participants' attitudes and 
understandings about teaching and learning, and their plans or practice 
in teaching. Detailed evaluation and research results show that Delta 
graduate students and post-docs learn how to effectively teach STEM 
courses and to think intentionally about the diversity of their 
students in their teaching. Delta participants are then able to move 
beyond teaching practice to improving the learning of all students. A 
general--and distinctive property--of Delta participants is their 
dynamic conceptualization of teaching practice. When asked to describe 
steps that they would take in future teaching, 56% of single-dosage 
(one-semester) participants incorporate the ideas and actions of 
teaching-as-research and learning-through-diversity, while 80% of 
multiple-dosage participants do so. Furthermore, Delta participants are 
able to use their disciplinary research skills in investigating their 
own students' learning. As one cohort, 85 Delta interns designed, 
implemented, and analyzed projects to address student learning 
challenges at UW-Madison and at nearby colleges. Each obtained data on 
prior student knowledge or attitudes, mined education research 
literature, designed an intervention that built on research-based 
strategies, collected and analyzed outcome data, and presented findings 
to the Delta learning community, and in many cases in publications or 
disciplinary presentations. These and other evaluation evidence 
triangulates toward showing that the Delta Program has increased 
participants' awareness of research-based effective teaching practices, 
and has uniquely developed their abilities to improve undergraduate 
student learning in an ongoing way.
    The ultimate measure of Delta's impact must be the future teaching 
practices of participants, and the learning of their students. To this 
end, an interview-based longitudinal study, launched in 2005; is 
following graduate students and post-does, both Delta participants and 
non-participants, as they finish and move into their first professional 
positions in diverse settings. Analyses to date of these interviews 
show that Delta participation resulted in (a) attainment of implemented 
knowledge and skills about teaching, (b) positive changes in attitudes 
toward teaching, and (c) expanded views of the types of academic roles 
they might play and types of institutions of interest. Those Delta 
graduate students and post-docs who have already transitioned into 
first positions report that their experiences in Delta helped them 
adjust effectively and creatively to the teaching-related demands of 
their new positions. This longitudinal study is now funded by an NSF 
grant as part of an expanded study to inform future faculty preparation 
programs.
    The committee asked, ``What skills do CIRTL graduate students gain 
that their typical peers in graduate school do not?'' We have data that 
address this question directly, and show that Delta students have 
significantly higher knowledge in, among other things: setting learning 
goals, establishing clear standards for assessment of student learning, 
aligning course design with learning goals, incorporating active 
learning activities into teaching, encouraging peer learning, creating 
an inclusive learning environment, teaching students of varying 
academic backgrounds, improving their teaching through research 
methods, discussing teaching with colleagues, and motivating students 
to learn. Extensive education research--and indeed, common sense--find 
that these skills in a teacher lead to enhanced learning. and retention 
of students. CIRTL is too young to be able to prove that CIRTL graduate 
students in fact enhance student learning as faculty . . . but we have 
established that they are on the right path.
    Amidst all the data, perhaps the voices of two Delta participants 
themselves are in order. Both have now become faculty members. The 
write:

         I'll be starting in the Biology Department at Lawrence 
        University in Appleton next month. Put simply, the Delta 
        Program and the internship in particular were instrumental in 
        placing my on my current career path. Through the Delta 
        Program, I was inspired to believe that I could become an 
        effective teacher. The Delta Internship and classes also gave 
        me the tools I needed to accomplish this goal. On an even more 
        self-serving note, the Delta Program was also very useful in 
        getting a job. In my job interviews, people seemed to be very 
        impressed that I could talk about approaches to teaching and 
        learning. They were also impressed that I was participating in 
        a study to assess student learning. In fact, one interviewer 
        even began going over some data she had on student learning and 
        asking me about how to do other assessments!

    and, much shorter, but no less compelling to me:

    For an experimental physicist I have rare training in recognizing 
the diversity in my classroom and addressing it in order to both enrich 
the learning for and ensure the learning environment is inclusive to 
all students.

    d. The Impact on Undergraduate Education at UW-Madison

    CIRTL and its prototype Delta Program are about preparing future 
faculty for the entire nation. A collateral benefit is the impact of 
graduate student work on current undergraduate STEM learning at UW-
Madison. Delta graduate student-faculty partnerships design and 
implement new teaching approaches grounded in research-based practices, 
and then assess the consequent student learning. The instructional 
materials and approaches developed by these Delta partnerships that are 
successful continue to be used to enhance undergraduate learning at UW-
Madison; currently more than 2000 students with each offering of the 
improved courses. And of course the new teaching approaches travel with 
the graduate students to their next college, university or other job.
    We call one of the unexpected outcomes the `trickle up' effect; 
faculty often begin working with the graduate students for the 
students' sakes, and as a consequence go through major changes in their 
own teaching practices and philosophies of teaching. Through these 
partnerships, faculty themselves gain new knowledge in how to assess 
student learning and investigate the effectiveness of their teaching. 
For example, 76% of Delta internship partners (faculty) indicated that 
their teaching was positively altered by their experience with a Delta 
intern. One participant noted:

         The experience allowed me to reflect on my own teaching, to 
        share things that I have learned and to toy with new ideas and 
        approaches that the interns bring to the classroom. It has 
        added to my curriculum, and invigorated my passion for the 
        profession.

    e. Impact on Research University Cultures

    The recognized impact of the Delta Program on UW-Madison is perhaps 
best demonstrated by its successful institutionalization. CIRTL 
launched the Delta Program under NSF funding in August 2003. Since 
August 2007, the Delta Program has been entirely supported by internal 
funding at UW-Madison. This institutional funding was garnered by 
providing evidence that Delta was preparing well large numbers of 
future faculty, and that the current goals and missions of many key 
stakeholders in the university were being furthered by Delta.
    I have just discussed the impact of Delta on current education at 
UW-Madison. Equally critical to its institutionalization, Delta also 
enhances the research mission of UW-Madison. For example, Delta 
provides faculty with the capacity to effectively address the broader 
impact criteria of research funding agencies like NSF and NIH. UW-
Madison faculty more successfully secure research funding by partnering 
with Delta. NSF's broader impacts criterion requires that proposers 
describe ways in which they will advance discovery and understanding 
while promoting teaching, training, and learning, broaden the 
participation of underrepresented groups, and contribute to society. 
Linking their research teams (graduate students, post-docs and faculty) 
with Delta allows faculty to compellingly establish in funding 
proposals their ability to carry out their proposed plans, as well as 
their ability to leverage both NSF and university investments.\7\ Once 
funded, participation in Delta provides faculty and their research 
teams with the skills to carry out their plans, thus leaving a legacy 
of implemented and evaluated broader impact products. Faculty members 
also are leveraging Delta to complement Federal research training 
grants. For example, the UW-Madison Neuroscience Department recently 
received an NIH training grant in which they created a new Teaching 
Fellows track. The grant partners with Delta to provide trainees with 
opportunities and resources to gain experience in teaching to improve 
undergraduate student learning across the department.
---------------------------------------------------------------------------
    \7\ Mathieu, R.D.,1Pfund, C., & Gillian-Daniel, D. (2009). 
Leveraging the NSF Broader Impacts Criterion for Change in STEM 
Education. Change, 41, 50-55.
---------------------------------------------------------------------------
    Finally, Delta is also enhancing the recruitment of the very best 
graduate students to UW-Madison. As one recent recruit wrote:

         Although I was initially drawn to UW-Madison for graduate 
        study due to the strength of the Chemical Engineering 
        Department, the Delta Program was one of the main reasons I 
        ultimately chose to come here. Since I knew that I wanted to be 
        a professor someday, I was excited about the opportunity to 
        develop myself as both a researcher and an educator during my 
        graduate program. But more importantly, the existence of a 
        program such as this one demonstrated the university's 
        commitment to education, and I wanted to pursue my graduate 
        work at an institution that truly valued teaching. [Note: This 
        student also received an NSF Graduate Research Fellowship.]

    Thus the CIRTL ideas--especially Teaching-as-Research--naturally 
yield future faculty preparation programs that also allow participants 
to satisfy the current reward and legitimacy structures of research 
universities. Ultimately, this integration of research, teaching and 
learning will become an integral part of standard operating procedure . 
. . if the Federal government continues to demand the broader impact of 
research funding.

    f. Impact for the Nation

    Nationally, Delta serves as the prototype CIRTL learning community, 
but it is not alone. For example, Michigan State University was a 
founding member of CIRTL, and has itself created a broad and successful 
faculty preparation program called PREP that incorporates CIRTL ideas 
in their teaching and learning component. (See testimony of Dean Karen 
Klomparens.) The successes of Delta and PREP demonstrate that major 
research universities can and will commit to the preparation of STEM 
graduate students to be both forefront researchers and excellent 
teachers. In addition, they confirm the strong felt need for such 
preparation. Finally, Delta and PREP demonstrate that a learning 
community built on the CIRTL ideas is an effective approach to 
improving teaching and learning and to promote institutional change.
    To prepare the future national STEM faculty, CIRTL seeks to 
similarly influence future faculty preparation in teaching and learning 
at research universities across the nation. A clear lesson of recent 
decades is the power of institutional networks to adjust priorities and 
academic cultures. Through networks, institutions can try new 
approaches together, share diverse successes, benchmark against their 
peers, and indeed challenge each other to ``keep up''.
    Thus in 2006 CIRTL created the CIRTL Network of six major research 
universities--Howard University, Michigan State University, Texas A&M 
University, Vanderbilt University, the University of Colorado at 
Boulder, and the University of Wisconsin-Madison. In a superb example 
of sequential leveraging of best practice, the NSF has provided $5.1M 
to move from the prototype Delta Program to the CIRTL Network, itself a 
prototype for an ultimately much larger national network.
    The CIRTL Network will enhance the preparation in teaching and 
learning of future STEM faculty in at least three ways. First, through 
the development and enhancement of learning communities on each campus, 
building on successes in Delta and throughout the Network. In fact, 
each of these institutions are using CIRTL ideas and CIRTL Network 
connections to expand and improve existing faculty preparation 
programs. Together the Network comprises and leverages an important 
diversity of programmatic experience and ideas. Second, building on 
this diversity, cross-Network programs such as on-line courses expands 
each local program into a national learning community. And finally, 
this electronically connected community will naturally continue beyond 
graduate school into the faculty experience, and thereby will build a 
national community for building and sustaining strong undergraduate 
faculties in STEM.
    Ultimately, as the CIRTL Network matures, the current universities 
will become nodes of many unique, and highly connected, campus-based 
learning communities at research universities across the nation. We 
also see the CIRTL Network as the means to engage the employing 
institutions--liberal arts colleges, comprehensive universities, and 
two-year/technical colleges--in the national enterprise of preparing 
the future national faculty. While these institutions do not themselves 
teach large numbers of graduate students, they represent a tremendous 
national resource in preparing their future faculty about teaching and 
learning. The earlier Preparing Future Faculty programs \8\ showed the 
promise of networks of diverse institutional types, and CIRTL has 
embraced their model.\9\
---------------------------------------------------------------------------
    \8\ Launched in 1993 as a partnership between the Council of 
Graduate Schools and the Association of American Colleges and 
Universities, this program associated more than 45 doctoral degree-
granting institutions and nearly 300 ``partner'' institutions across 
the United States.
    \9\ Gillian-Daniel, D.L. (2008). National Research Council Workshop 
on Linking Evidence and Promising Practices in STEM Undergraduate 
Education.

---------------------------------------------------------------------------
V. Leadership of the National Science Foundation

    In an attempt to move, if not balance, the scales of activity 
toward increasing scientific capability across a diverse national 
population, Federal funding agencies have purposefully linked research 
funding to broad national impact. This call for broader impact has been 
an absolutely critical lever to integrate research, teaching, and 
learning in the culture of universities and their faculty, to adjust 
the rewards system at research universities, and to shape a future 
faculty whose members are both excellent researchers and superb 
teachers.
    Among United States federal agencies, the NSF has led the way in 
the integration of research, teaching, and learning. Over the past 
decade the NSF's proposal review process has emphasized both 
intellectual merit and broader impact. The intellectual-merit criterion 
requires that proposal writers address how their work advances 
knowledge within their field of study or across disciplines. The 
broader-impacts criterion requires proposers to describe associated 
activities that will benefit the nation, including teaching, training, 
learning, and outreach.
    While increasing the impact of science was part of the original NSF 
charter, this recent emphasis on broader impacts began with the Shaping 
the Future report,\10\ which included the following key statement: 
``Research directorates should expand resources for educational 
activities that integrate education and research.'' Significantly, this 
call to action was targeted directly at the NSF STEM research 
directorates rather than being assigned only to the Education and Human 
Resources Directorate, the traditional locus of STEM-education funding.
---------------------------------------------------------------------------
    \10\ National Science Foundation. (1996). Shaping the future: New 
expectations for undergraduate education in science, mathematics, 
engineering, and technology. Washington, DC: Author.
---------------------------------------------------------------------------
    The policy spawned an array of programs-most notably NSF CAREER 
Awards for junior STEM faculty, which requires proposers to develop 
innovative plans of work in both research and education. This CAREER 
Awards replaced the former NSF Presidential Young Investigator program, 
which honored only research; the shift was a very strong policy signal 
on the part of NSF. Other integrative programs include the NSF 
Distinguished Teaching Fellows for senior STEM researchers, CAREER-like 
programs for post-doctoral fellows, and incorporation of the broader-
impacts criterion into the prestigious NSF Graduate Fellows Program.
    Even so, when it came to the review of mainstream research 
proposals from individual investigators, the weight given to the 
broader-impact criterion depended heavily on each review panel and its 
NSF program officer. Thus its influence has been highly varied and too 
often minimal. So in 2002 NSF Director Rita Colwell delivered Important 
Notice 127 (2), which said: ``Effective October 1, 2002, NSF will 
return without review proposals that do not separately address both 
merit review criteria within the Project Summary. We believe that these 
changes to NSF proposal preparation and processing guidelines will more 
clearly articulate the importance of broader impacts to NSF funded 
projects.'' While the tension with review panels continues to this day, 
this proclamation again signaled NSF's strong commitment to the 
criterion.
    Resistance to the broader-impacts criterion is not solely the 
result of disagreement with the principle of linking its aims to 
funding for disciplinary research. Many principal investigators simply 
do not have the training and experience to adequately respond to it. 
Consider for example the CAREER awards. As previously discussed, 
graduate education in STEM fields in the U.S. typically gives minimal 
attention to the development of teaching skills. And post-doctoral 
positions generally represent an extended hiatus from teaching. Thus, 
many new faculty members find themselves unprepared to write a well-
conceived and innovative proposal for a five-year scope of work in STEM 
education, as required for a CAREER award. Indeed, similar challenges 
face principal investigators at all career stages.
    Importantly, these challenges often involve limits in capacity, not 
in innovative ideas or commitment to broader impact. Programs such as 
CIRTL provide that capacity to current faculty through the provision of 
the requisite skills to the future faculty in their research teams. 
Thus our programs are positioned to enhance both the research and 
teaching missions of U.S. research universities, and thereby be a 
foundation for institutional change. A decade from now we envision that 
present graduate students will he leaders of a national faculty for 
whom the broader impact of their research programs is taken as a given, 
and that they will have the skills and abilities to make it happen.

VI. Recommendations

    Enhancing the preparation in teaching and learning of the future 
national STEM faculty is a challenge of changing current culture more 
than will. My experience has been that current faculty care deeply 
about the success of both their undergraduate and graduate students. 
Furthermore, CIRTL has clearly established that there is a strong felt 
need among future faculty for preparation to become effective teachers 
as part of their careers.
    As such, these are my recommendations for how NSF--and indeed all 
Federal STEM funding agencies--can play a more impactful role in 
preparing the future STEM faculty of the United States:

        i)  Increased funding of faculty preparation programs. I am 
        sure that ``increased funding'' is the recommendation that this 
        committee hears most often. I want to emphasize that my 
        recommendation has two equally important purposes.

    The first purpose is the usual--current funding is nowhere near 
sufficient to establish, for example, CIRTL programs at those 100 
universities that produce most STEM faculty. I emphasize here the goal 
of `establishing' programs rather than operating them. We have found 
that funding to initiate programs is crucial to establish a foothold 
within a university, and to open doors by proving both demand and 
success. Ultimately, as with the Delta Program and with many of the 
earlier Preparing Future Faculty programs, the goal must be complete 
institutionalization across the system of research universities. A 
Federal investment of order $100M over five years in the nation's 
highest producing research universities will yield an ongoing 
investment in future faculty preparation from those universities.
    The second purpose is equally important. In the research university 
culture as it currently stands, and as it has been created in part by 
the Federal government over the last 60 years, external funding plays a 
major role in defining importance and legitimacy. Ultimately CIRTL's 
success at UW-Madison spoke for itself. But at the beginning it was the 
imprimatur of NSF funding that opened the door to that success, and 
continues to do so as we recruit more universities into the CIRTL 
Network.

        ii)  Change reward structures by integrating research, teaching 
        and learning. ``Research directorates should expand resources 
        for educational activities that integrate education and 
        research.''--Shaping the Future. If this committee wishes to 
        influence the preparation of the nation's faculty through 
        graduate education, then it still need be true tothis counsel. 
        Integrating research and teaching is not only key to improving 
        undergraduate STEM learning; it is also the lever for change in 
        research universities. The demonstrated successes of the 
        broader impact criterion, of the CAREER awards, of the REU 
        program, of the Howard Hughes Medical Institute Professorships, 
        all show that our strategic goals in higher education can be 
        achieved through programs that are coupled to the research 
        funding infrastructure.

         To provide some specificity without intending to be 
        prescriptive, we might further strengthen the response to the 
        call for broader impact of Federal research funds by requiring 
        that proposals request and delineate funding for such 
        initiatives. Remarkably, proposed broader impact activities are 
        often not included in proposal budgets. At the institutional 
        level, total Federal research funding could be linked with a 
        proportional institutional investment in advancing STEM 
        undergraduate education (including future faculty preparation). 
        A Teaching-as-Research for Graduate Students (TARGS) program 
        could build on the REU model, and indeed reverse it by sending 
        graduate students to nonresearch-universities for summer work 
        in advancing student learning. Many more innovative ideas are 
        possible, and likely will arise in the Commission on Graduate 
        Education report. The key idea is to link, align and integrate 
        advancing STEM education with advancing STEM disciplinary 
        research, and thereby adjust current reward structures.

        iii)  Leadership by NSF. I urge this committee to charge and 
        fund the NSF to proactively take on Federal leadership and 
        responsibility for a national mission of improving 
        undergraduate STEM education, including future faculty 
        preparation.

         I note that this charge will require some conceptual 
        broadening within NSF regarding their role and mode of 
        operation. In accord with its charter to foster new knowledge, 
        the NSF philosophy is to respond to directions set by the 
        knowledge-generating communities. This approach has served the 
        scientific research progress of the nation very well. However, 
        this philosophy is not optimal for implementing and replicating 
        knowledge that exists. I am suggesting here a more proactive, 
        mission-oriented approach to advancing STEM higher education.

         The NSF has proven successes in broad implementation, 
        especially in education. To my mind, the Research Experiences 
        for Undergraduates (REU) program is the exemplar--today there 
        is hardly a STEM graduate who does not cite one or more 
        experiences at an NSF REU site as central to leading them to 
        consider a career in STEM research.

         The Course, Curriculum and Laboratory Improvement (CCLI) 
        program of the Division for Undergraduate Education (DUE) is a 
        specific example of an implementation program of best practices 
        in teaching, and indeed CIRTL derives from DUE's leadership and 
        investment of flexible CCLI funds in preparing future faculty.

         Again, the Education and Human Resources Directorate (EHR) of 
        NSF cannot, by itself, change graduate education and faculty 
        preparation. EHR and its excellent programs such as CCLI, 
        IGERT, and GK-12 simply do not have the attention of most 
        graduate faculty. To be broadly successful, the mission of 
        preparing the future national STEM faculty must engage the STEM 
        research directorates and EHR collaboratively, both in terms of 
        funding and programs. A broad, collaborative implementation 
        across all STEM of the training grant idea, as currently used 
        by NIH and by NSF Engineering, may be an effective approach.

         Finally, this leadership role for NSF should not be limited to 
        only its own programs. NIH, DOE, USDA, and other Federal 
        agencies are major players in research funding and graduate 
        student research training, and all should be aligned with this 
        national mission. This committee quite rightly expects faculty 
        to make use of the nation's investment in education research. 
        In the same spirit, the committee should expect all Federal 
        STEM funding agencies to make collaborative use of the existing 
        national investments in integrating research, teaching and 
        learning.

    The America COMPETES Act is one of the most important pieces of 
recent legislation with respect to developing the STEM competency of 
the United States. You are to be congratulated for its success, and for 
your wise consideration of its reauthorization. Please remember as you 
envision the scope of its reauthorization that STEM literacy is a 
journey for each American, and a key to their successful journeys are 
effective teachers each step of the way--from K-12 through higher 
education through life-long learning.
    Now is the time to build a national program to prepare the nation's 
future faculty to be both superb researchers and excellent teachers. In 
these tight fiscal conditions, the strong leverage of graduate 
education for preparing the teachers of the nation's college students 
has never been more compelling.
    Thank you for the opportunity to share my thoughts and experiences 
about improving the quality and effectiveness of STEM higher education 
through advances in graduate education.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Robert Mathieu
    Department of Astronomy, University of Wisconsin-Madison
    Bob Mathieu has been on the faculty of the University of Wisconsin-
Madison since 1987, and currently chairs the Department of Astronomy. 
He was educated at Princeton University and the University of 
California at Berkeley, after which he became a fellow of the Harvard-
Smithsonian Center for Astrophysics. His work has been recognized by a 
Presidential Young Investigator Award, a Guggenheim Fellowship, and a 
Kellett Mid-Career Award. He has served as President of the Board of 
Directors of the WIYN Observatory, and recently chaired the University 
Committee of UW-Madison. His research involves the formation and 
evolution of stars and the dynamics of star clusters.
    While associate director of the National Institute for Science 
Education, Mathieu led the development of the Field-tested Learning 
Assessment Guide (FLAG) and research-based resources in collaborative 
learning and teaching with technology, all designed for science, 
engineering, and mathematics faculty.
    Mathieu presently directs the NSF Center for the Integration of 
Research, Teaching, and Learning (CIRTL), whose mission is to prepare 
STEM graduate students to be both forefront researchers and excellent 
teachers. CIRTL is a national network of 6 major research universities. 
He also is the principal investigator of the Student Assessment of 
Learning Gains (SALG) instrument for evaluation use by individual 
instructors, entire departments, and developers of new teaching and 
learning approaches.

    Chairman Lipinski. Thank you, Dr. Mathieu. At this point, 
we will begin our first round of questions, and I will begin by 
recognizing Ms. Johnson for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member. As you know, this is an area where I have been very, 
very keenly interested in, and practically every piece of 
legislation that has come through this Committee I have put an 
amendment on to involve especially minorities, knowing that 
that is the growing population in this country.
    And my first question goes to Dr. Mundy. There are several 
programs, many of which were mandated by law at the National 
Science Foundation within the Human Resource Directorate that 
had the goal of broadening participation in the sciences. Out 
of these programs, have any studies been conducted to measure 
their individual effectiveness, and if so, what are the 
results?
    Dr. Ferrini-Mundy. Thank you very much, Ms. Johnson, for 
the question. As you know, the Directorate for Education and 
Human Resources has as one of its six fundamental themes the 
notion of broadening participation in the STEM workforce. And 
we are very proud of our portfolio of programs in this area. 
The Alliances for Graduate Education and the Professoriate 
Program (AGEP), the Tribal Colleges and Universities Program, 
the Historically Black Colleges and Universities Programs--all 
of our programs have ongoing evaluations which are beginning to 
tell us about the types of strategies that are proving to be 
most effective. And a couple of these include very strong 
involvement of faculty in both the recruitment and in active 
engagement with students as they come into programs. So 
opportunities to work in labs, opportunities to have mentoring 
by faculty and to have career advice by faculty in a 
personalized way that works toward retention of promising 
students in our programs. We can provide more detail about the 
kinds of evaluation findings. But we are learning a lot about 
what can be done, and we are also learning that these 
strategies can apply broadly across types of institutions and 
can help us with the general questions of recruitment and 
retention as well.
    Ms. Johnson. Okay. Have any of the programs that have the 
goal of broadening participation in the sciences received 
Recovery Act funding?
    Dr. Ferrini-Mundy. I don't believe so.
    Ms. Johnson. Okay. So that is no comparison then. Can you 
please explain the reasoning behind the recent decision of the 
National Science Foundation to merge all of the broadening 
participation programs to compete for funding, and has this 
been done with any group of programs of the National Science 
Foundation?
    Dr. Ferrini-Mundy. Yes, I can speak to this. We, in the 
2011 budget request, propose a comprehensive broadening 
participation in undergraduate STEM program that will be a new 
effort to build upon the excellent work that has been done in 
the separate programs thus far but will draw upon much of what 
has been learned there and that will, we hope by consolidation 
in a sense, enable the Nation to learn from the very best 
practices that have been available across programs and to try 
to leverage those for more involvement across a wide range of 
programs. So for example, Hispanic serving institutions will 
also be eligible at this point.
    We are very early on in our design and planning of this 
program and are very keen on making sure that we understand and 
can synthesize what we have learned and where the most 
effective practices are happening, and which of those are 
particular to types of institutions and which of those can be 
generalized across institutions, so that we make all of that 
knowledge very clearly available for the field. We will be 
working in close consultation with all of the communities 
involved as we design the initiative moving forward.
    Ms. Johnson. Thank you. Could I get a report from you as to 
where you are on each of these programs? Of course not right 
now.
    Dr. Ferrini-Mundy. Okay. Yes, of course.
    Ms. Johnson. Thank you very much, Mr. Chairman
    Chairman Lipinski. Thank you, Ms. Johnson. The Chair now 
recognizes Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and I apologize for 
dashing out earlier. This is one of those horrible days we 
have. I have four committees meeting simultaneously now, and 
one of them was marking up a bill and I had to dash out to 
vote, but I am going to have to leave immediately after I ask 
my questions to cover some other areas.
    Dr. Mathieu, you referred to this in your testimony, and I 
wanted to follow up on it, that with regard to NSF's STEM 
programs, I am just interested in what your comments are about 
the role of STEM education goals within the research and 
related activities, so-called RRA Division, and what should 
remain completely within the Education and Human Resources--
that are known as EHR Directorate? I would appreciate any 
comments you might have on that.
    Dr. Mathieu. You bring up a very good point there, Dr. 
Ehlers.
    Mr. Ehlers. Also a very sensitive point for some people 
here.
    Dr. Mathieu. I have, I suppose, the good fortune in terms 
of the question to be an astronomer, and so I spend a lot of 
time on two different floors of NSF.
    You spoke about the chasm, as I often call it, between 
schools of education and the scientific departments. That 
seriously exists. It has to be crossed. I would say that much 
of the academic chasm has also shown up at the National Science 
Foundation, and they are doing their very, very best to cross 
the chasm as well. They have the same challenges. And so as 
someone who sits on the astronomy side, I know how few of my 
colleagues are connected or knowledgeable about what goes on in 
the EHR division, and they need to be. The broader impact 
criteria which is just so critical, the CAREER awards, the REU 
programs, all of which require our young faculty to both be 
great researchers and superb teachers. Those faculty need the 
NSF to talk to each other. In astronomy, they need the 
astronomy division to know what is going on in CCLI, to know 
what is going on in the STEP programs.
    One of the challenges that NSF faces in this regard is that 
NSF has a longstanding tradition of reacting to its communities 
rather than being proactive to its communities. I once went 
into the astronomy department education officer's office and I 
asked him, that I knew about this superb instrument for 
assessment, classroom assessment, would he be interested in 
letting astronomers know about it? His response was very firm, 
in fact, rather harsh, and he said, ``We do not state what is 
good''. We respond to the community's assessment of what is 
good. That has been extremely effective for developing new 
knowledge, as I said in my testimony. However, it is not the 
most effective approach if you want to implement successes 
across the Nation. And as such, and I say this in my testimony, 
if you charge NSF to take leadership in creating the future 
faculty, part of that needs to be to charge the NSF to be 
willing to be proactive as compared to reactive and actually 
lead in a mission-oriented sense. I, for example, deal with 
NASA. I see the difference between NASA's mission-oriented 
approach and NSF's response-oriented approach. I am not 
criticizing NSF here, I mean this sincerely. It has been 
extremely effective for developing research. It has protected 
academic freedom. But the mission of preparing our future 
faculty is going to require someone in the Federal Government 
to say, ``We think this is good. We think the evidence supports 
this. We want this to happen across the Nation, and this is how 
we are going to do it''. That is what I mean by a mission-
oriented approach. And that is going to require the entire NSF 
to do it, because as I said in my testimony, if you want the 
research faculty to respond, you need to tie these initiatives 
to the research funding.
    Mr. Ehlers. Thank you very much, and I would like to turn 
to Dr. Ferrini-Mundy at this point. First of all, I just want 
to mention, in the fiscal year 2011 budget request, NSF is 
proposing to change the name of the Course Curriculum 
Laboratory Improvement program, CCLI, and change it to 
Transforming Undergraduate Education in STEM, TUES, I think we 
are running out of good acronyms here. But I am concerned that 
this may not be simply a name change. I am just wondering what 
this is going to involve and also I would like your response to 
Dr. Mathieu's comments just now, so if could enlighten us, 
please?
    Dr. Ferrini-Mundy. Yes. Thank you for the question. First 
on TUES, I think we mean to signal our seriousness about the 
importance of transforming undergraduate education. We have 
heard from our other panelists that part of the issue is the 
scaling up of practices that show promise, that have been 
effective in particular settings and that are being widely 
tested in lots of places. And so the next big challenge is 
there--and in a sense, Dr. Mathieu, this is a little bit of a 
direction that I think is evident in this new solicitation. We 
now want to tackle the challenge of scale-up and learn about 
what it takes to help faculty be inclined to engage with these 
sorts of strategies, to be willing to take a look at the 
wonderful assessment tools that are there that can help inform 
their teaching and their practice, to even think about the 
shape of materials and the sort of translation and facilitation 
that might be provided with promising practices that may help 
with their spread. Old fashioned dissemination models aren't 
working. The scale-up is a major challenge. And so we see that 
as an important direction in the new solicitation.
    And then as to the matter of how directive or prescriptive 
NSF might be in its education activities, I actually think our 
solicitations in key ways do identify--by identifying areas 
which we often say are areas of emphasis or you know, where we 
hope to see proposals in this area. Certainly at the K-12 
level, we have been able to generate specific activity, say 
around assessment or around instructional materials in 
particular areas.
    So our staff are certainly always eager to work with the 
field, to understand what the coming issues and challenging 
problems of tomorrow might be and then in ways that are 
appropriate to the NSF situation, to sort of weave those into 
solicitations as we can.
    I should also add that internally, our collaborations with 
the R&RAs actually I think are quite strong. They often happen 
at the program officer level, but we have a number of projects 
across the directorate that are co-funded with the R&RAs and 
increasing collaboration in trying to imagine what the overall 
education mission of NSF looks like, and the different parts 
the different entities within the organization can play.
    Mr. Ehlers. Thank you very much. I apologize that I will 
have to leave. I may be able to make it back before you finish, 
but in the meantime, my thoughts and my spirit will be here 
with you, and I give permission to the majority to continue 
without a member of the minority being here.
    Chairman Lipinski. Thank you, Dr. Ehlers. The Chair now 
recognizes Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Chairman. The success stories that we 
know across the country at different universities were sparking 
a better response in the STEM area. How are those shared with 
the overall culture of higher education? Is there a sharing in 
terms of those successful efforts? Can anyone on the panel 
speak to that? Sure, Dr. Finkelstein.
    Dr. Finkelstein. Sure. Yes, I mean, in many regards, there 
is tremendous effort to get the success stories out there. This 
is one area where the disciplinary societies play a 
tremendously important role. They serve as establishing the 
culture of the disciplines themselves. So in my field in 
physics, the American Physical Society, the American 
Association of Physics Teachers, is tremendous. There are pan-
society organizations that I mentioned, the Association of 
Public and Land Grant Universities are starting to sort of 
share those networks broadly. So that is one way that we go 
about doing that.
    At the next scale-down you might say that there are 
programs that are spreading from campus to campus, and that is 
what is happening. This Learning Assistant program is now 
running sort of partly by word of mouth in a viral way but also 
purposefully seeded and posed along the way so that we are 
running at well over a dozen institutions around the United 
States, based on the promotion of these professional societies. 
CIRTL is another example where this is purposefully built into 
the structure of that so that these good ideas get out there. 
And I would make sort of two points about this. One is that we 
have to have a particular model of change for how to push this 
out there. I am engaged in a large-scale research study that 
looks at how particular implementations are successful or not, 
and what we find overwhelmingly here is that programs don't 
have grounded scholarly models of change in STEM education in 
the published literature. And I am pleased to provide 
references around that. But the bottom line is that we need 
work on how to do that. That doesn't mean that things can't 
scale sort of along the way.
    And the other thing that we found is that you have to work 
across multiple levels of the system here. It is really 
important that you have faculty within the department who are 
recognized and valued and vetted for doing this. So I am housed 
in a physics department. But meanwhile, of course, I can't do 
that alone. I need institutional support, and I have to think 
about the institutional structures of the programs that I'm 
seated within and similarly, you can scale all the way to the 
disciplinary society and the national scale level.
    So I think that the way we can get these things to scale is 
by working across multiple levels of the system and identifying 
the key levers of change, and I do some of that in my written 
testimony.
    Mr. Tonko. Yes, Doctor?
    Dr. Klomparens. Yes. Just two other comments. I agree with 
Dr. Finkelstein's points. The other good disseminator is NSF 
itself. NSF hosts meetings of project investigators. We have a 
chance to talk across our institutions and share best 
practices, and the other group would be the Council of Graduate 
Schools for anything that is occurring at the graduate level. 
That is a group of graduate deans who have a role to play in 
terms of disseminating information across their campuses, 
because most of the graduate deans work with all the 
departments or most of the colleges on their campus. So it is 
another place for the information to get shared and to be 
supported.
    Mr. Tonko. And in terms of the numbers that we know to be 
far better outcomes in other cultures, other countries, is 
there any exchange there? Do we know what they may be doing 
that we are not doing or not doing enough of? Dr. Klomparens.
    Dr. Klomparens. Yes, there is some information that is 
shared back and forth across cultures largely through faculty 
but also through graduate deans because the students that we 
recruit, the international students that we recruit to campus, 
there are often dialogues set up between faculty and between 
administrators on exactly how they are preparing their students 
for STEM education, what kinds of curriculum they are actually 
using in their classrooms because we get to see transcripts, we 
get to see descriptions of what those educational processes 
are.
    Mr. Tonko. Is there something different there that----
    Dr. Klomparens. Some of it is a very strong support of math 
and science education all the way from grade school on through 
high school. It is supported by the parents, strongly supported 
by the parents, as a way for those students to be able to move 
forward in their own economies. So again, it is part of----
    Mr. Tonko. So, hearing that said, what is the role? Does 
there need to be a stronger incentive provided by private/
public sector? Should the Federal Government be inspiring these 
careers by its action? Is it holding back the thirst for STEM 
education? I would think if we are not being progressive and 
aggressive about encouraging the transformation, the innovation 
economy, the energy, clean energy example as one. If students 
don't hear that, are we holding back their thirst for STEM 
education? Dr. Mathieu, did you have your hand up or no?
    Dr. Mathieu. I think that I would like to reinforce in 
answering with something that I said before, and that is that 
the key to the change is in the linkages to research funding, 
because that is where the faculty respond.
    We go to these meetings, I have been to them, but I have 
the advantage of also being an active researcher right now in 
astronomy, and I want to emphasize the disconnect between those 
two worlds. Dr. Ferrini-Mundy is absolutely correct. If there 
is any directorate of the National Science Foundation that 
knows how to disseminate, it is EHR. But I am assuring you that 
the vast majority of my colleagues and my faculty in both 
physics and astronomy at the University of Wisconsin at Madison 
do not show up at those meetings and are not connected to those 
worlds. And I think the real transformation will happen when 
this panel, with all due respect to Dr. Ferrini-Mundy, has her 
but also has the Assistant Director of Math and Physical 
Sciences or one of the others. And that person can speak 
compellingly, intelligently and connectedly to the need to 
change graduate education.
    And so I guess what I am really trying to say again is, in 
my opinion, the most effective change agent in the last decade 
for the things that you wish to accomplish has been the CAREER 
awards, because those CAREER awards require young faculty who 
are still in their formative stage to hear from the NSF that we 
want you to be superb researchers, and we also demand that you 
be excellent teachers, and show us how to do it. And understand 
that that carrot, when it first started, was very difficult for 
those graduate students because our system did not prepare them 
to respond to that carrot. I was on the early panels, and the 
CAREER awards were 14-1/2 pages of research and a half-page of 
very poor education. I am happy to say I was on the panel a 
year ago, and not only are the pages becoming more equal in 
length, but they are becoming more integrated. And that is 
because the prestigious research funding award at the NSF 
requires it. When I was young, I got a Presidential Young 
Investigator Award. It had nothing in it about teaching. That 
change in this decade has been huge, and I would suggest that 
if you really want the change you are looking for, the model is 
to connect the education funding, and call, with the research 
funding. That is where the reward system is in universities and 
even colleges now.
    Mr. Tonko. Thank you for the insight. Thank you. Oh, I'm 
sorry. Mr. Stephens?
    Mr. Stephens. Congressman, from an industry perspective, I 
agree with my colleagues on the panel here that certainly 
funding for graduate and undergraduate education is important, 
but I do believe we have a fundamental issue in this Nation and 
that is most people don't view engineering and technology 
careers are the ones to go pursue. And that starts with the 
media, it deals with parents and it deals with this sense about 
who wants to be a nerd and is not putting it on the table. All 
one has to do is watch the TV show the Big Bang Theory, and 
there are four characters on there. I don't know any child in 
America who wants to be one of those four individuals. Yet, 
they represent the perception of what engineering and 
technology is about. So I believe, like my colleagues, we have 
to work on this notion about what goes under `education'. But I 
think we have to change this perception about the real jobs 
that are available, who creates space shuttles, space stations, 
green technologies, opportunities for the future. I don't think 
our society values those technology degrees as it should, like 
other nations do today.
    Mr. Tonko. As an engineer, I appreciate the answer. Yes, 
Dr. Finkelstein?
    Dr. Finkelstein. I am happy to briefly comment on that. I 
think that is right. We need a cultural shift here, and the 
question is, how do we effect, how do we bring that cultural 
shift about? And I think it is tremendously important.
    One lever that we have is our school system itself, and if 
we engage children--I mean, this Committee a few weeks ago 
heard about K-12 engineering education. I think that is 
critically important. And a key lever for that, for engaging 
and allowing for that, is having disciplinary faculty within 
engineering and physics and even astronomy start taking up the 
mantle and saying, my job is to recruit and prepare the next 
generation of teachers. These are going to be our best and 
brightest students, and we are going to shift so that the 
departmental cultures themselves transform and they see the 
value of putting out the next generation of teachers who 
transmit that value, enthusiasm and excitement to their 
students. This is why many programs such as the Noyce Fellows 
program are tremendously valued and important. It also helps 
improve our faculty at the university, and I think that is an 
underutilized lever.
    Dr. Mathieu. Even astronomy?
    Dr. Finkelstein. Even astronomy, Bob.
    Mr. Tonko. Dr. Ferrini-Mundy?
    Dr. Ferrini-Mundy. Thank you. Just a brief comment on this 
point. I think another kind of avenue to imagine using in 
recruiting people and engaging them in interest is the 
increased focus and commitment by young people to the 
importance of issues around energy, sustainability, other 
interdisciplinary issues that are attractive and appealing to 
the Nation's youth. That may be a way to draw them in.
    And NSF is working with a variety of mechanisms for trying 
to foster continued education activity around these sorts of 
areas as a way to continue the recruitment.
    Mr. Tonko. Thank you, Mr. Chair. I went way past my time, 
so I thank you.
    Chairman Lipinski. That was very interesting, I think. When 
it comes to me, I might follow on some of those. But right now, 
I want to recognize Mr. Inglis for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman. And Mr. Stephens, am I 
happy to see you. You know, I am from South Carolina, and so 
you can imagine how happy I am to see you. We are very excited 
about making Dreamliners in Charleston. And so to get the 
opportunity to talk to the Vice President of Human Resources at 
Boeing and to say thank you for coming to South Carolina is a 
wonderful opportunity for me. And it is a huge thing for our 
State obviously and the jobs, statewide, not just in 
Charleston. I represent the upper part of the State, but I know 
of folks who were putting up the steel and the hangers that are 
from the upstate. We got a drill company that is hopefully 
going to sell you drill bits. They are already selling you 
drill bits.
    Mr. Stephens. Terrific.
    Mr. Inglis. They are going to sell you a lot more drill 
bits. And so you have made our year. You have made our decade, 
so we are very grateful to you and very excited about what is 
happening at Boeing.
    Mr. Stephens. Congressman, thanks very much. We are happy 
to be there.
    Mr. Inglis. And you are going to love Charleston. And you 
know, I mean, it is sort of one of those places where you can 
get to go visit and wow, can you imagine, having a 
manufacturing operation in Charleston, South Carolina, where 
you can get to go see Charleston and enjoy all of that, wow.
    End of the commercial, Mr. Chairman, or what is it?
    Mr. Stephens. I appreciate it.
    Mr. Inglis. Smiling faces, beautiful places. That is what 
South Carolina is. What else can I say about South Carolina, 
Mele? Mele is from South Carolina. So anyhow, very excited and 
obviously we are just giddy about the tremendous opportunity 
for us. And it is exciting that the Dreamliner has an energy 
connection in that it saves on energy and is a very efficient 
system, and what a great thing for our future, national 
security as well as the environment. So very excited about all 
that.
    And also, I agree with you completely in what you were just 
saying about the presentation in STEM education. We really do 
need to show people that it is exciting and fun. I had an 
opportunity to go with this Committee to Antarctica, and when I 
got back actually from Antarctica, I dialed into some high 
school classes, science classes. And from Antarctica, we were 
able to tell them what we are doing and they were so excited 
about it. And when I got back, I had some opportunities to do 
some big presentations to some high schools. And two of my 
favorite slides were a very good-looking scientist. I mean, one 
of them was this blonde knockout. I mean, she was just amazing. 
And then another one was this handsome fellow who had graduated 
from Dartmouth. And so I put those slides up on the screen. I 
said, that is what scientists look like. Anybody want to be a 
scientist? And so it was pretty exciting. I mean, people in the 
class were saying, yeah, see you get to do cool things and they 
are cool people. I mean, they were obviously by the pictures of 
the way they were engaged with each other, very fun and 
engaged, you know, enjoying life and also doing interesting 
things.
    And so it is very important I think to present science that 
way. It is also I think very important for us to present it as 
a key to our national future, and I am taking all the time to 
make statements here rather than ask questions, but Dave Bodde 
is at Clemson University's International Center of Automotive 
Research. He says that when he was traveling across the country 
on a family vacation, Sputnik was launched. His mother turned 
around to him in the back seat and said, ``Son, it is your 
patriotic duty to become a scientist and to help us win the 
race to the moon''. He did it. He participated in all of that. 
And he took it as a patriotic duty. When I go around to people 
saying to people, it is your patriotic duty to figure out how 
to break this addiction to oil and how to repower our lives, 
and if you do that, you can improve the national security of 
the United States and your friends won't be boots on the ground 
in some very dangerous places in the Middle East. And we will 
be able to say to those folks, we just don't need you like we 
used to. Part of that is the Dreamliner getting there with more 
efficiency.
    By the way, also Mr. Chairman, I should note that I have 
been told that Dr. Arden Bement announced his retirement this 
morning at NSF, and what a guy that really believes in STEM 
education, and he will be missed. A great contribution he made 
to us.
    Anybody want to pick up on any of those lines of statements 
and commercials? Dr. Finkelstein might have something that he 
wants to bring to South Carolina. If you do, I will give you a 
commercial.
    Mr. Stephens. Congressman, I appreciate the comments and 
certainly the Dreamliner in South Carolina is very important to 
us. But on the comments about education as I made in my 
remarks, we are doing some work with the Entertainment 
Industry's Council, who is all about shaping the minds and 
hearts of the American people. They have been very successful 
in seatbelts with the crash dummy campaign, smoking cessation, 
elimination of smoking, the issue of mental illness. We are now 
using them to influence directors, writers and actors and how 
they portray engineers and scientists in a very positive and 
pro-active way. You talk about the good-looking scientists in 
Antarctica; there is an organization called Nerd Girls out of 
Tufts University who did exactly that. They were on the Today 
Show about year and half ago. A couple of our engineers are 
actually Nerd Girls, and our communications folks came and he 
says, Rick, you know, they were on national TV and we were a 
little concerned it was about looks. And I said, I want more of 
that because if we can get more people about what really 
scientists and engineers look like, act and do, they are like 
the rest of us and they really make a tremendous contribution 
to society. I don't think enough people really understand in 
America what our engineers and scientists really do. So I 
solidly support it, and we are putting our money behind it to 
support that.
    Mr. Inglis. Dr. Finkelstein?
    Dr. Finkelstein. Congressman Inglis, thank you. Yes, I 
always have something to say, and I am more than happy to bring 
several programs to South Carolina. I think that would be----
    Mr. Inglis. Okay, good.
    Dr. Finkelstein. And I think that this is a fundamental 
form of investment in our future. As I mentioned before, I 
think that this is the great R&D for a future society.
    A couple of threads to pick up on what you said. One is, I 
think there is a tremendous role for informal science 
education. This isn't something that we've touched on quite 
yet. NSF has been instrumental in pushing this, but we have 
sort of danced around the edges of that. I think programs that 
couple university systems and the public, I think bringing 
industry together with the university systems and the public, I 
think is tremendously valuable because it provides opportunity, 
access and inclusion to children who have been historically 
taught, no, you can't do that or shouldn't do that or don't 
even know how to ask the question that way.
    We also know that it improves our undergraduate and 
graduate students from participating in those sorts of 
programs. So the point is we leverage value throughout this 
entire system.
    The other thread that you talked about was this notion of a 
grand challenge, the space race. I think that is where we are 
at in STEM education. I think STEM education should be a grand 
challenge in and of itself. I don't know if that is a sales 
thing. We can talk about, you know, what the opportunity is for 
that. But certainly I know some of the impetus behind the 
Rising Above the Gathering Storm or outcomes of that was to 
provide a grand challenge, really, around this question of 
energy and using education as a key tool to address the 
challenges of our energy future here. I think that would be a 
great way for us to play and start pushing.
    Mr. Inglis. And I am way over time, but I might just add 
this if I can, Mr. Chairman. The grand challenge, I am a little 
bit concerned about the cancellation of the Constellation 
program as losing a grant challenge. I think it is something to 
be concerned about. If we lose something like that, we lose the 
focus on--now of course, I think the reality is, we are 
somewhere out on the curve of diminishing marginal returns, so 
that the early space program created enormous opportunities for 
all of us in plastics and all kinds of things. So we are 
somewhere out on that curve of diminished marginal returns 
because we have been there and done that. But I have got to 
believe there is a lot more to be discovered as we continue in 
exploration. And losing that grant challenge is something to be 
concerned about.
    Thank you, Mr. Chairman.
    Chairman Lipinski. Thank you, Mr. Inglis. I think you were 
trying to take Henry Brown's place as the lead ambassador for 
Charleston here.
    The Chair will now recognize himself for five minutes. I am 
looking here. I think we are about to start voting here, but we 
do have a little bit of time. There are so many things I want 
to explore. One sort of coming out of what we were all talking 
about, about the incentive for teaching and research, but I 
want to leave that because I want to make sure I hit this other 
question first. Mr. Stephens, in your testimony you describe a 
project at Boeing that compares the various university 
engineering programs that produce the company's highest 
performing workers. So I am interested if you could highlight 
the common characteristics of these departments and 
institutions. This is not something when I was a student that I 
thought a whole lot about, but it was after I left that I 
better understood different schools do things differently. So I 
am wondering, Mr. Stephens, what are some of those 
characteristics that really did produce good, the highest-
performing workers?
    Mr. Stephens. Mr. Chairman, I appreciate the opportunity. 
As you are aware, we looked at--since we have a relationship 
with 150 colleges and universities around the United States, we 
were able to take a look at our employee performance based upon 
the schools they went to, and we looked at employee performance 
over a 10-year period. What we found is engineering schools do 
a great job getting across the technical disciplines. We found 
very little difference in terms of their technical competency 
and ability. What we did find is those who were involved early 
on in projects starting their freshman year did better at The 
Boeing Company because we work as teams.
    Second, we found out that it was those who supported 
internship programs and got them engaged with industry early on 
in their career, went a long ways as well. We also found those 
who were forced to work in teams as opposed to independent 
projects also did very well.
    And so it is those soft skills and those engagements in 
real projects early on in their curriculum that were the ones 
that did best for us at The Boeing Company.
    Chairman Lipinski. Thank you. One other thing. Dr. 
Mathieu----
    Dr. Mathieu. I was just going to add very quickly, the good 
fortune is that we found that the best way for students to 
learn is also in teams and actively working with each other. So 
there is a beautiful confluence here if we can change the way 
we do things.
    Chairman Lipinski. The question of if we bring people in or 
they come in thinking that they are going to be an engineer or 
scientist. The whole question then of retention I think is an 
important question, but on the other side, you also have the 
question of the preparation before they get there, who is 
really ready to move on. And for some people, it may not be 
what they want to do and decide it is not what they want to do. 
But it is certainly a very important issue, and it is 
interesting to hear. It makes a lot of sense to me, Mr. 
Stephens, what you said, what parts of programs would be good. 
And that resonates with me.
    I want to move back to the question of what we can do to 
encourage better teaching. I look at it, even though I have got 
master's and bachelor's in engineering, and then I went on to 
graduate school in social science and got my Ph.D. in political 
science, I look at it and I say I got to graduate school and 
was essentially told at Duke, we are a top department in 
producing top political scientists. You are not going to be 
rewarded for your teaching. And I learned some individuals 
personally felt that it was part of their mission to be a good 
teacher, some of the faculty. But that was more personal than 
incentive structures.
    I like a lot of what I heard about setting up these, 
changing some of the incentives. But they seem very small, how 
much can we do. And Dr. Mathieu, I think leadership is 
critical. But how do we really change that? I just see this as 
such a huge problem. And there is a tradeoff. Everyone only has 
so much time, and if you are going to be rewarded and if what 
makes you a top person in your field is where you have 
published and how much you have published, how do we reward 
teaching? How do we really change that? I am just a little 
pessimistic about doing that. How do we really get this turned? 
To me it seems like it is going to take a long time to get it 
turned. Is there anything else that--you know, is there a 
reason for optimism, a reason I should be more optimistic about 
this? I just want to throw that out there. Dr. Mathieu?
    Dr. Mathieu. Well, I think you should be very optimistic, 
because if you aren't, then we aren't going anywhere.
    Chairman Lipinski. Well, besides that.
    Dr. Mathieu. More concretely, I mean, you have to 
appreciate and I am sure you do, that the current system 
evolved over 40 years, and we are now in a place where the 
external reward systems at research universities are primarily 
based on research funding at the university level.
    And so I don't think it is going to take 40 years, but it 
is going to take a little time in order to change that reward 
system. And fundamentally, I think the heart of it, and I 
apologize for repeating myself, I think the heart of it is 
linking the reward system currently, which is research funding, 
with the requirement to have broader impact. And the 
requirement and--especially for the young faculty--the 
recognition that if they are going to succeed in their 
research, they are going to have to be able to do teaching 
well. And the reason that I can say that that works is because 
I think one of the main reasons that CIRTL was actually 
institutionalized in Wisconsin, the main reason that they are 
actually supporting us is not so much the fact that we are 
preparing the current future faculty, although that is a 
wonderful thing. It is because research programs in our campus 
are being funded at a higher rate now because they can 
associate with our programs to show that they have the capacity 
and the ability to satisfy the requirements that you put on the 
Nation with the broader impact requirement.
    It especially happens with CAREER awards. You end up with a 
situation where a professor comes from--I shouldn't name any 
given school--but they come from a psychology like you were 
describing. Suddenly, in order to achieve the most prestigious 
award at the National Science Foundation, they need to be able 
to speak intelligently about education and about teaching. 
Well, how do they do that? They do that by collaborating with 
us, and as they do, they get CAREER awards and they get 
research rewards, and that process happens for NSF Centers on 
our campus, and I am sure on yours to Dr. Klomparens with the 
Prep Program, it happens on the individual investigator level 
who now have to actually have a broader impact component to the 
research proposal, and we find the draw on our resources and 
the ability to change the reward system is profound because of 
your decision to link the broader impact and teaching to the 
research funding model. I truly believe that 10 years from now 
we will have a future faculty, which will be the current 
faculty, who not only are skilled in doing this because of our 
programs but actually won't even think twice. It is the way it 
is done.
    Chairman Lipinski. We have a vote going on right now, and 
so we have about two more minutes I would say. So Dr. 
Finkelstein?
    Dr. Finkelstein. Thank you. Very briefly then. I mean, one 
thing is, I think excellence is a habit of mind, and so those 
same research scholars who are committed to excellence in 
journal publication and foundational science research are at 
universities because they want to engage in education and 
reaching future people. We have to provide them the resources 
for doing so. There is a reason they are at a university rather 
than say a National Lab. I think there is an opportunity there, 
and we have got to provide that. We can model opportunities for 
faculty, and there are many sorts of models and resources by 
which we can support our faculty for engaging in this. We can 
have education researchers and reformers housed within 
departments that help these faculty do that. That is the nature 
of our research group. We do foundational research in 
education, but we also help other faculty transform what they 
do. We enable them. The culture in our physics department right 
now is that of educational excellence. We are committed to 
that, and that is something that we do in addition to our 
scholarly excellence.
    It is also because we have as, Dr. Ehlers had pointed out, 
we have strong partnerships between our School of Education, 
where they have expertise and excellence in undergraduate level 
education and our disciplinary departments. We think we can 
support faculty for engaging in doing this and valuing that NSF 
and having sort of a national dialogue imprimatur behind these 
sorts of activities through career awards and others is also 
extremely helpful.
    Chairman Lipinski. Thank you. Mr. Stephens, very quickly.
    Mr. Stephens. Yes, sir. I don't know enough about the 
university system, but we run into similar issues about 
engineers wanting to move into management. We have a dual 
track. Engineers can make same compensation the management 
does. It certainly would be nice to see that at the university 
level. I think those incentives may drive those who have 
excellence in teaching if they are recognized for that at the 
same level they are recognized for research.
    Chairman Lipinski. Thank you. It is a very critical issue 
and something that I thought a lot about certainly when I was 
in graduate school, when I was an assistant professor. It is 
going to take time and lot of effort to turn this around. But I 
thank all of you for your testimony today. The record will 
remain open for two weeks for additional statements from 
Members and for answers to any follow-up questions the 
Committee may ask of the witnesses. And with that, the 
witnesses are excused, and the hearing is now adjourned.
    [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
